<html>
<title> - OVERSIGHT HEARING ON THE U.S. PARK POLICE ATTACK ON PEACEFUL PROTESTERS AT LAFAYETTE SQUARE--PART 1</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 THE U.S. PARK POLICE ATTACK ON PEACE-
                  FUL PROTESTERS AT LAFAYETTE SQUARE--PART 1

                                  ***

                      UNANSWERED QUESTIONS ABOUT THE U.S.
                        PARK POLICE'S JUNE 1 ATTACK ON 
                        PEACEFUL PROTESTERS AT LAFAYETTE 
                        SQUARE--PART 2

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                     Monday, June 29, 2020 (Part 1)
                    Tuesday, July 28, 2020 (Part 2)

                               __________

                           Serial No. 116-36

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov          
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-718 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------         
          
          
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Joe Cunningham, SC                   Daniel Webster, FL
Nydia M. Velazquez, NY               Liz Cheney, WY
Diana DeGette, CO                    Mike Johnson, LA
Wm. Lacy Clay, MO                    Jenniffer Gonzalez-Colon, PR
Debbie Dingell, MI                   John R. Curtis, UT
Anthony G. Brown, MD                 Kevin Hern, OK
A. Donald McEachin, VA               Russ Fulcher, ID
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Jesus G. ``Chuy'' Garcia, IL
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, June 29, 2020, Part 1....................     1

Statement of Members:

    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3
    Haaland, Hon. Debra A., a Representative in Congress from the 
      State of New Mexico, Statement for the record..............    70

Statement of Witnesses:

    Brace, Amelia, U.S. Correspondent, Seven News Australia......     9
        Prepared statement of....................................    10
        Questions submitted for the record.......................    16
    Budde, Mariann, Bishop, Episcopal Diocese of Washington......    29
        Prepared statement of....................................    31
    McDonald, Kishon, Civil Rights Demonstrator..................     5
        Prepared statement of....................................     7
        Questions submitted for the record.......................     8
    Turley, Jonathan, Law Professor, George Washington University 
      Law School.................................................    16
        Prepared statement of....................................    18
        Questions submitted for the record.......................    28

Additional Materials Submitted for the Record:

    Department of the Interior, Letter from Sec. Bernhardt to 
      Chair Grijalva dated June 5, 2020..........................    71
    Fraternal Order of Police, U.S. Park Police Labor Committee, 
      Letter to the Editor dated June 19, 2020...................    46
    Office of Congressional and Legislative Affairs, Letter from 
      Cole Rojewski, Director to Chair Grijalva re: declining to 
      send Mr. Gregory T. Monahan, Assistant Chief of the U.S. 
      Park Police dated June 24, 2020............................    48

    List of documents submitted for the record retained in the 
      Committee's official files.................................    72
                               
                               
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 28, 2020, Part 2...................    73

Statement of Members:

    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................    74
        Prepared statement of....................................    75
    Hice, Hon. Jody B., a Representative in Congress from the 
      State of Georgia...........................................    76

Statement of Witnesses:

    DeMarco, Adam D., Major, District of Columbia National Guard.   116
        Prepared statement of....................................   118
        Questions submitted for the record.......................   121
    Monahan, Gregory T., Acting Chief, United States Park Police, 
      U.S. Department of the Interior............................    77
        Prepared statement of....................................    79

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................   143



 
OVERSIGHT HEARING ON THE U.S. PARK POLICE ATTACK ON PEACEFUL PROTESTERS 
                      AT LAFAYETTE SQUARE--PART 1

                              ----------                              


                         Monday, June 29, 2020

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 12:02 p.m., in 
1324 Longworth House Office Building, Hon. Raul M. Grijalva 
[Chairman of the Committee] presiding.
    Present: Representatives Grijalva, Napolitano, Costa, 
Sablan, Huffman, Lowenthal, Gallego, Cox, Neguse, Levin, 
Haaland, Cunningham, DeGette, Clay, Dingell, Brown, Soto, 
Horsford, Tonko, Garcia; Bishop, Gohmert, Lamborn, McClintock, 
Westerman, Gonzalez-Colon, and Fulcher.

    The Chairman. Thank you very much. The Committee on Natural 
Resources will come to order.
    The Committee is meeting today to hear testimony on the 
``U.S. Park Police Attack on Peaceful Protesters at Lafayette 
Square.''
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member, or their designees. This will allow us to hear from the 
witnesses sooner, and help Members keep to their schedules.
    Therefore, I am asking unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Clerk by 5 p.m. today, or at the 
close of the hearing, whichever comes first.
    Hearing no objection, so ordered.
    Without objection, the Chair may also declare a recess, 
subject to the call of the Chair.
    As described in the notice, statements, documents, or 
motions must be submitted to the electronic repository at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7931372b3a1d161a0a39141810155711160c0a1c571e160f57">[email&#160;protected]</a>
    Additionally, please note that, as with our fully in-person 
meeting, Members are responsible for their own microphones. As 
with our fully in-person meetings, Members can be muted by 
staff only to avoid inadvertent background noise. Anyone 
present at the hearing today must wear a mask covering their 
mouth and nose. The Speaker of the House and the Sergeant at 
Arms, acting upon the recommendations of the Attending 
Physician, require face coverings for all indoor gatherings 
over 15 minutes in length, such as Committee meetings.
    Accordingly, to maintain decorum and protect the safety of 
Members and staff, the Chair will not recognize any Member in 
this hearing room to speak who is not wearing a mask. According 
to House Rule 17 and Committee Rule 3(d), the Chair retains the 
right of recognition of any Member who wishes to speak or offer 
a motion. The right includes the responsibility to maintain 
decorum.
    As permitted by the Sergeant at Arms guidance, the Chair 
will make exceptions for Members briefly removing their masks 
to facilitate lip reading by viewers who are deaf or hard of 
hearing, as I am doing presently.
    Finally, Members or witnesses who experience technical 
problems should inform Committee staff immediately.
    With that, I will recognize myself for the opening 
statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. A Minneapolis police officer pressed his knee 
on the neck of George Floyd for 8 minutes and 46 seconds. For 8 
minutes and 46 seconds, we all have witnessed the slow and 
painful death of Mr. Floyd, and it has created a demanding, 
anguished cry for action to deal with the legacy of racism in 
this country.
    And that cry, that anguished cry, has risen all across the 
Nation. Thousands of Americans have taken to the street to 
offer a strong declaration--that is really a plea for basic 
humanity--that Black Lives Matter. They protest to honor the 
all-too-many Black men, women, and children whose lives have 
been affected, cut short at the hands of racism and brutality. 
They protest to demand change and to demand that their 
constitutional rights be upheld, and call upon government for 
systemic response to the systemic racism that afflicts us as a 
legacy.
    Astonishingly, instead of honoring this collective outcry 
for justice, this Administration answered demands to end police 
brutality with more police brutality. On the afternoon of June 
1, President Trump called state governors and berated them for 
not being aggressive enough, saying, and I quote, ``You have to 
dominate. If you don't dominate, you're wasting your time.'' He 
made clear this is a war, us against the protesters.
    Of course, he was probably especially angry after we all 
found out that he had retreated to the White House bunker the 
night before.
    That same afternoon, overwhelmingly peaceful protesters 
gathered at Lafayette Square Park. Park Police, National Guard, 
and other law enforcement lined the perimeter of the park. 
Then, around 6:30 p.m., nearly a half-hour before the DC curfew 
would take effect, the Park Police and their law enforcement 
partners suddenly moved in on the protesters.
    Peaceful protesters, innocent bystanders, and members of 
the press were all caught up in a chaotic barrage of shields, 
batons, horses, projectiles, and tear gas. The militarized 
assault even hit people from the historic St. John's Church, 
neighbor to the White House, and a friend of presidents for 
many years. Clergy and church staff who were handing out water 
were reportedly pushed off their own patio by officers.
    Once everybody had been forcibly expelled from the so-
called battle space, the world witnessed something even more 
incredible. President Trump, accompanied by the Attorney 
General and other White House advisers--and, it should be 
added, top military brass--strolled through the park to St. 
John's Church, where he posed with a Bible for a brief photo 
op. And St. John's had no idea the President was going to do 
this.
    Peaceful protesters, church, and press all fell victim to 
this Administration's violent and senseless operation. 
Remarkably, these victims also embody our three main freedoms 
protected by the First Amendment: freedom of speech and 
assembly, freedom of religion, and freedom of the press.
    The Trump administration is still scrambling to explain how 
this happened, often contradicting itself, ample video 
evidence, and the accounts of people at the scene, people who 
felt the batons hit their bodies, and the chemical munitions 
burn their eyes.
    We are fortunate to have some of those people here as 
witnesses today, as well as the Bishop who presides over St. 
John's Church itself.
    I want to thank all of you for giving of your time to help 
us answer the many questions still surrounding this 
indefensible attack on our own people and our basic freedoms.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    On May 25, a Minneapolis police officer pressed his knee onto the 
neck of George Floyd for 8 minutes and 46 seconds. For 8 minutes and 46 
seconds, this officer slowly and painfully murdered Mr. Floyd--a 
father, brother, and son--depriving him of his life, liberty, and 
pursuit of happiness.
    The public response to George Floyd's murder has been loud and 
persistent. Thousands of Americans have taken to the streets to offer a 
fervent declaration that is really a plea for basic humanity: BLACK 
LIVES MATTER. They protest to honor the all-too-many Black men, women, 
and children whose lives have been cut short at the hands of racism and 
police brutality. They protest to demand change and to demand that 
their constitutional rights be upheld.
    Astonishingly, instead of honoring this collective outcry for 
justice, this Administration answered demands to end police brutality 
with MORE police brutality. On the afternoon of June 1, President Trump 
called State Governors and berated them for not being aggressive 
enough, saying, ``You have to dominate. If you don't dominate, you're 
wasting your time.'' He made clear: This is war--us against the 
protesters.
    Of course, he was probably especially angry after we all found out 
he had retreated to the White House bunker the night before.
    That same afternoon, overwhelmingly peaceful protesters gathered 
around Lafayette Square. Park Police, National Guard, and other law 
enforcement menacingly lined the perimeter of the park. Then, around 
6:30 p.m., nearly a half hour before the DC curfew would take effect, 
the Park Police and their law enforcement partners suddenly attacked.
    Peaceful protesters, innocent bystanders, and members of the press 
were all caught in a chaotic barrage of shields, batons, horses, 
projectiles, and tear gas. The militarized assault even hit people from 
historic St. John's Church, neighbor to the White House and a friend to 
presidents for many years. Clergy and church staff who were handing out 
water were reportedly pushed off their own patio by officers.
    Once everyone had been forcibly expelled from the so-called battle 
space, the world witnessed something even more incredible. President 
Trump, accompanied by advisors and military brass, strolled through the 
park to St. John's church, where he posed with a Bible for a brief 
photo op. St. John's had no idea the president was going to do this.
    Peaceful protesters, church, and press all fell victim to this 
Administration's violent and senseless operation. Remarkably, these 
victims also embody our three main freedoms protected by the First 
Amendment: freedom of speech and assembly; freedom of religion; and 
freedom of the press.
    The Trump administration is still scrambling to explain how this 
happened, often contradicting itself, ample video evidence, and the 
accounts of people at the scene--people who felt the batons hit their 
bodies and the chemical munitions burn their eyes. We are fortunate to 
have some of those people here as witnesses today, as well as the 
bishop who presides over St. John's Church itself.
    I want to thank you all for giving your time to help us answer the 
many questions still surrounding this indefensible attack on our own 
people and our basic freedoms.

                                 ______
                                 

    The Chairman. I would now like to turn to the Ranking 
Member, Mr. Bishop, for his opening statement.
    Mr. Bishop, you are recognized.
    Mr. Bishop. Thank you, wherever you are.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. I know that when Democrats were in the 
Minority, they used to object to some of the titles which we 
had on our hearings. You guys have learned very well from that. 
I appreciate that.
    Not only have you come up with new titles that are unique 
for yourselves, but this one is especially inflammatory and 
pejorative. So, congratulations on it.
    There are issues that need to be discussed. That said, we 
have serious issues to address in the present, and we would be 
selling our society very short without ensuring that there is 
full truth as to what was going on that is recorded in our 
history, not just a myopic and biased view. And, unfortunately, 
that means that this hearing, as far as understanding truth of 
what went on, and coming up with a good history, is going to be 
invalid.
    Two of the witnesses that we will be hearing from today are 
involved in litigation or investigations, and are here even 
before any of that stuff started, which may be legal, but it is 
highly questionable.
    An invitation was given to some in the Park Service who 
volunteered to come in later, after the litigation period had 
at least begun, but that was rejected. And instead, we decided 
to move ahead with what can only be described as really good 
political theater.
    I mean, there are questions that need to be answered.
    There was a question of why the police moved prior to the 
curfew actually existing.
    There are questions of why the DC Mayor decided to put a 
curfew on in the first place.
    There are questions of was this part of a plan that was 
established 48 hours prior to the event or not.
    There are questions of why three warnings with the decibel 
level that is equivalent to a jet aircraft taking off were not 
heard by people. Or were they actually there? And when were 
they done?
    There is a question about the amount of violence that took 
place. Protests, as we all know, are legal. But arson is not. 
Destruction of property is not. Attacking police is not. We do 
know that in the Park Service police, within a period of 2 
weeks within this there were 50 policemen that were attacked, 
that were harmed, that were injured. At least one went to the 
hospital, presumably to conduct surgery at the time.
    All of those are legitimate questions. And all of those 
legitimate questions are not going to be addressed in this 
Committee hearing today. It is simply--the structure is not 
designed to do that. The structure is not designed to come up 
with a historical statement. The structure is designed to come 
up with good drama.
    Look, on the flight back here I was able to watch three 
movies. Two of them were historical dramas, historical fiction. 
They were well done. And what we are attempting to do today 
would fit nice into that genre of activities. The other was a 
musical. I wish you could do that one, that was more enjoyable.
    But the Democrats here have now produced something that is 
not going to be substantive, that is not going to be 
historical, that is really a distraction. It is political 
theater as an attempt to do it.
    So, Mr. Grijalva, for you and Watkins, you have learned 
this job very well. I would urge you to become producers of 
movies. You can do extremely well in that area. But please 
don't try to write a textbook, because you are leaving too many 
questions out that need to be part of the narrative, and need 
to be part of the answers.
    With that, I yield back.
    The Chairman. The gentleman yields back. And now I will 
introduce the witnesses.
    Let me begin with Kishon McDonald, DC resident, and who was 
a peaceful protester on the day of the event.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes, but that 
their entire statement will appear in the hearing record.
    When you begin, the timer will begin, and will turn orange 
when you have 1 minute remaining. I recommend the Members and 
witnesses joining remotely use active speaker thumbnail view, 
so they may pin the timer on their screen, and see the Members 
in the room.
    With that, Mr. McDonald, welcome. The time is yours, sir.

    STATEMENT OF KISHON MCDONALD, CIVIL RIGHTS DEMONSTRATOR

    Mr. McDonald. Chairman Grijalva, Ranking Member Bishop, and 
members of this Committee on Natural Resources, my name is 
Kishon McDonald. I am a 39-year-old resident of northeastern 
Washington, DC. I have been a resident here for the past 5 
years. I was born and raised in Cleveland, Ohio. I honorably 
served my country in the U.S. Navy on the USS Leyte Gulf as a 
yeoman third class. I am employed with United Airlines as a 
mechanic at the Dulles Airport. I appreciate the invitation to 
share my experience with you today.
    On June 1, I decided to join in a peaceful protest against 
racial injustice. I know that there was a curfew imposed for 
that evening, so I went down as part of my usual run, and 
planned to run back home by the curfew time of 7 p.m.
    I arrived at 16th and 9th Street around 6 p.m. I observed 
military vehicles, uniformed soldiers, blocked-off streets, and 
a huge police presence. I began recording the scene from my 
phone: primarily, because I wanted to record this moment in 
history; second, for my safety, because Trump had made threats 
of ominous weapons and vicious dogs to be used on protesters.
    I walked from 16th and I Streets directly toward Lafayette 
Park, and observed huge group of diverse, peaceful protesters 
chanting for George Floyd and for change. It was an 
overwhelming experience, and it was powerful to be a part of 
it. The chanting continued around 6:25 p.m., when officers 
started approaching us as we stood on the north side of 
Lafayette Park along the fencing.
    The officers stopped for a few minutes about 10 to 15 yards 
away, and they moved closer, as if we were posing a threat, 
which we were not. They got directly in front of us, to the 
point we could have a conversation with them. They got very 
close to us in a threatening kind of way. They gave no 
instructions, and just a show of force.
    We stood our ground. We told them we were peaceful and we 
wanted no trouble. We were met with silence. At no time did I 
hear any instructions to move. And if we did hear instructions, 
I would have moved. I am sure the crowd would have moved, 
because we were very peaceful during the entire time before we 
were attacked.
    Right before 6:30 p.m., I observed a line of police in riot 
robocop gear coming in from my left. Now, at this point the 
soldiers were communicating, but it was yelling, ``Move, 
move.'' They were not walking. They were pushing and running 
toward us with their shields, and people started to panic. A 
word of confusion ensued. I could not really understand what 
was going on, why they were responding in that manner, seeing 
it was way before curfew, 30 minutes before curfew.
    I observed a Black male fall to the ground and protesters 
circled around him and demanded it please stop so a medic could 
assist him. The officer stopped briefly on the south side of 
St. John's Church. We grabbed the male and started to retreat.
    Police started throwing tear gas and flash bang grenades at 
us for no reason. We were retreating. We didn't need any help 
retreating. Using weapons on us was ridiculous. It just made 
the situation dangerous.
    Even before the officers charged us or fired their weapons, 
it had been peaceful. This is the most important block in the 
world. We are in front of the most powerful governing house in 
the world. It is citizens who are being attacked by their own 
government just for asking and protesting for change. I was 
scared, confused, and angry.
    I did CS gas training boot camp. This group of 
demonstrators were not soldiers. This wasn't a battle station 
test, but it was similar to a boot camp drill. It is 
unacceptable to treat protestors that way in our own city and 
Nation.
    Once I got home, I reviewed my footage and pictures. It was 
then I noticed U.S. Park Police on one of the officers who 
forced us up from the left as we stood along the fence in 
Lafayette Park. I joined a lawsuit challenging the attack on me 
and other demonstrators, so someone will be held accountable. 
At this moment, it is a forgotten history.
    I have seen footage of this kind of attack on African-
American prisons in the 1960s when we wanted change. The dogs 
and water cannons from the 1960s have turned into tear gas and 
flash bangs today. It hurts, as a Black man, to see it is 2020 
and we still have a government that will do this again, over 
something that seems so right to protest about.
    The damage was done the minute the President decided to 
violate our First Amendment right. How was it the KKK can hold 
a rally in DC and be protected, but when a Black man is killed 
we protest in honor of him and we are attacked? How can you not 
perceive this attack on a Black Lives Matter movement?
    I served this country so everyone could enjoy the freedoms 
granted to us under this Constitution. If anyone had the right 
to be there, it was me. I should not have been forced to move 
and attacked with tear gas and flash bangs as I was peacefully 
protesting for change. Thank you.

    [The prepared statement of Mr. McDonald follows:]
                 Prepared Statement of Kishon McDonald
    My name is Kishon McDonald, and I am a 39-year-old resident of 
Northeast Washington DC. I've been a resident here for the past 5 years 
but was born and raised in Cleveland, Ohio. I honorably served my 
country in the U.S. Navy on the USS Leyte Gulf as a YN-E3. I'm 
currently employed with United Airlines as a mechanic at the Dulles 
airport. I appreciate the invitation to share my experiences with you 
today.
    On June 1, 2020, I decided to join in the peaceful protest at 
Lafayette Park against racial injustice. I know there was a curfew 
imposed for that evening so I went there as part of my usual run and 
planned to run back home by the curfew time of 7 p.m.
    I arrived on 16th & I Street around 6 p.m., and I observed military 
vehicles and uniform soldiers, blocked-off streets and a huge police 
presence. I began recording the scene on my phone primarily because I 
wanted to record this moment in history and second for my safety 
because Trump had made a threat of ``ominous weapons'' and ``vicious 
dogs'' to be used on protesters.
    I walked from 16th & I Street directly toward Lafayette Park and 
observed a huge group of diverse peaceful protesters chanting for 
George Floyd and for change. It was an overwhelming experience, and it 
was powerful to be a part of it. The chanting continued until around 
6:25 p.m., when officers started approaching us as we stood on the 
north side of Lafayette Park along the fencing. The officers stopped 
for a few minutes about 10 to 15 yards away, then moved closer to us as 
if we were posing a threat, which we were not. They got directly in 
front of us to the point we could have a conversation with them. They 
got very close to us in a threatening kind of way. They gave no 
instructions. It was just a show of force.
    We stood our ground. We told them we were peaceful and wanted no 
trouble. We were met with silence. At no time did I hear any 
instructions to move, and if we did hear instructions I would have 
moved and I'm sure the crowd would have moved because we were very 
peaceful during the entire time before we were attacked.
    Right after 6:30 p.m. I observed a line of police in riot Robocop 
gear coming in from my left. Now at this point the soldiers were 
communicating, but it was yelling ``MOVE! MOVE!'' They were not 
walking. They were pushing and running toward us with their shields, 
and people started to panic and a world of confusion ensued. I could 
not really understand what was going on or why they were responding in 
that manner seeing it was way before curfew--30 minutes before.
    I observed a Black male fall to the ground and protesters circled 
around him and demanded police stop so a medic could come assist him. 
The officers stopped briefly on the south side of St John's Church. We 
grabbed the male and started to retreat. Then the police started 
throwing tear gas and flash bang grenades at us for no reason. We were 
retreating. We didn't need any help retreating.
    Using weapons on us was ridiculous and just made the situation 
dangerous, even though before the officers charged us or fired their 
weapons it had been peaceful. This is the most important block in the 
world, and we are in front of the most powerful governing house in the 
world. It's citizens who are being attacked by our own government just 
for asking and protesting for change. I was scared, confused and angry.
    I continued recording and tried to ask officers, ``Would you do 
this to your children?'' and ``Would you attack your children over 
protesting for change?'' I was met with tear gas and a flash bangs 
which exploded with shrapnel. I felt a searing hot pain on my legs and 
thighs. In news footage I have seen, you can observe me jumping up and 
down; I'm the one with the neon shorts on when the force of police 
pushed us up 16th Street and protesters were trampled.
    I did CS gas training in boot camp. This group of demonstrators 
were not soldiers. This wasn't a battle stations test. But this was 
similar to a boot camp drill. It's unacceptable to treat protesters 
like that in our own city and nation.
    Once I got home I reviewed all my footage and pictures. It was then 
that I noticed U.S. Park Police officers among the force who attacked 
us from the left as we stood along the fence in Lafayette Park.
    I joined a lawsuit challenging the attack on me and the other 
demonstrators so someone will be held accountable and this moment in 
history isn't forgotten. I've seen footage of this kind of attack on 
African American protesters in the 1960s when we wanted change. The 
dogs and water cannons from the 60s have turned into tear gas and flash 
bangs today. It hurts as a Black man to see that it's 2020 and we still 
have a government who would do this to us again over something that 
seems so right to protest about. The damage was done the minute the 
President decided to violate our First Amendment rights. How is it the 
KKK can hold a rally in DC and be protected, but when a Black man is 
killed, we protest in honor of him and are attacked? How can you not 
perceive this as an attack on the Black Lives Matter movement?
    I served this country so everyone could enjoy the freedoms granted 
to us under the Constitution. If anyone had the right to be there it 
was me. I should not have been forced to move and attacked with tear 
gas and flash bangs as I was peacefully protesting for change.

                                 ______
                                 

  Questions Submitted for the Record by Chair Grijalva to Mr. Kishon 
                  McDonald, Civil Rights Demonstrator
    Question 1. Did you see the U.S. Park Police, military, or other 
law enforcement entity at Lafayette Square on the evening of June 1, 
2020 wearing any cameras, either when you were on the scene, or in 
footage afterwards? Did you see any other video recording equipment 
associated with any of the police or military forces? If so, please 
provide details.

    Answer. In response to the query you posed, Mr. McDonald answers 
that although he did not observe any cameras on the Park Police, a 
photograph he took that day showed one federal officer with a GoPro on 
his helmet. The picture he took is attached below, with the camera 
circled.

[GRAPHIHC NOT AVAILABLE IN TIFF FORMAT]


                                                               

    The Chairman. Thank you very much.
    Let me now recognize Amelia Brace, Correspondent, Seven 
News Australia.
    The time is yours, please.

   STATEMENT OF AMELIA BRACE, U.S. CORRESPONDENT, SEVEN NEWS 
                           AUSTRALIA

    Ms. Brace. Thank you, Chairman Grijalva, Ranking Member 
Bishop, and members of the Committee for the opportunity to 
speak today.
    For more than 3 years, I have been the U.S. correspondent 
for Seven News, one of Australia's largest commercial 
broadcasters. I have been called to testify about my experience 
covering protests near Lafayette Square Park, particularly the 
incident in which my cameraman, Tim Myers, and I were 
physically assaulted by Park Police on June 1, while we were 
broadcasting live to Australia with hundreds of thousands of 
people watching, including our families.
    This video, which formed part of the coverage in Australia, 
shows the incident from multiple angles.
    [Video shown.]
    Ms. Brace. We began our coverage at Lafayette at 5:45 p.m. 
The atmosphere was passionate, but peaceful. In fact, it was 
far less tense than it had been the night before. As we 
prepared for our 6:30 p.m. live broadcast we noticed riot 
police lines begin to form.
    We were not alarmed by this sight, as it initially 
resembled the enforcement of curfew the night before, and we 
still had more than half an hour before this curfew was due to 
take effect. Regardless, members of the media were exempt from 
curfew restrictions. We did not hear any warning from law 
enforcement that the area was to be cleared, or that the curfew 
would be enforced early.
    Suddenly, the police line surged forward. We moved back, 
along with many protesters. Police lining the park used 
automatic weapons to fire non-lethal rounds. Tim was hit with a 
projectile in the back of the neck, and our equipment was 
damaged.
    After this first surge, we took cover behind a tree as Tim 
tried to get the now-damaged live transmitter working. We saw 
the line of police start to walk toward us at a walking pace. 
To ensure we were completely out of the way of both police and 
protesters, we moved to the fence line, where we were sheltered 
by a concrete wall and also a sidewalk.
    We were clearly a news crew. Most notably, Tim was holding 
a large television camera. We were also surrounded by other 
members of the media, and given no directive by police to move 
on. As I began reporting live, the line of police suddenly and 
without warning began charging forward at a sprinting pace, 
knocking protesters to the ground.
    A Park Police officer who was passing us stopped, turned 
toward Tim, and rammed him in the chest and stomach with the 
edge of his riot shield, causing Tim to keel over and drop 
down. The officer then took a step back, paused, then punched 
his hand directly into the front of Tim's camera, grabbing the 
lens. As this happened, Tim and I were both repeatedly shouting 
the word, ``Media.''
    A second officer appeared to intervene, giving us the 
opportunity to move. As I was running away, a third officer 
pushed through the group, going out of his way to strike me 
with a truncheon. As we tried once again to clear the advancing 
line of police, loud flash bangs boomed around us, and some 
sort of chemical irritant and plumes of smoke filled the air. I 
could be heard screaming as I was struck by non-lethal 
projectiles directly to my legs and backside.
    The incident prompted Australia's Prime Minister to direct 
our Ambassador to the United States to seek a full 
investigation.
    As a reporter, I have no interest in becoming the story. 
But over recent weeks, many of us have been left with no 
choice. I have been shocked to see how many journalists have 
been attacked, beaten, and detained just for doing their jobs. 
Covering protests does carry unavoidable risks, but the media's 
role is essential. We don't just have a right to be there, we 
have an obligation.
    As Australian journalists, we are the eyes and the ears of 
our people--in this case, witnessing civil unrest in the 
capital of our most powerful and closest ally. It is crucial to 
democracy that journalists be allowed to do their job freely 
and safely. And that is certainly something we should expect in 
the world's greatest democracy.

    [The prepared statement of Ms. Brace follows:]
Prepared Statement of Amelia Brace, a U.S. Correspondent for the Seven 
                                Network
    Thank you Chairman Grijalva, Ranking Member Bishop, and members of 
this Committee for the opportunity to testify today. My name is Amelia 
Brace. I am a U.S. Correspondent for the Seven Network, which is one of 
the largest broadcast television networks in Australia. I am here to 
testify about my experience covering the protests in Lafayette Square 
Park, and, in particular, the incident in which my cameraman, Tim 
Myers, and I were physically attacked by U.S. Park Police officers when 
they cleared out the park in the afternoon on Monday, June 1, 2020. 
Even though we were out of the way of the advancing officers and were 
clearly identifiable as a news crew, we were directly assaulted without 
provocation by two separate officers.
    This is a situation where the video speaks louder than any words 
could. This link shows the Seven News broadcast about the incident from 
the next day, which captures the incident both from the perspective of 
our own camera feed, which was broadcast live to Australian audiences, 
and from another angle captured by a local news crew here: https://
youtu.be/yzNMdWOoC7M?t=33.

    The live broadcast, showing the incident and the in-studio anchors' 
reactions happening in real time, can be seen here: https://youtu.be/
wkf-znzWKRc.

    I would like to speak today about what exactly happened in the 
video we just saw, and why this event was so deeply troubling for me, 
even beyond the physical effects of the attack, which do still linger.
      my background and role as u.s. correspondent for seven news
    I have been a television journalist for 10 years, nearly the whole 
time at the Seven Network. I have been living in the United States 
serving as the U.S. correspondent for Seven News since January 2017. 
Before that, I reported on politics in various bureaus within 
Australia, including in Canberra, the capital city. I have reported 
from all manner of locations and at all manner of events. My cameraman, 
Tim, works freelance for Seven News, as well as for the BBC and the 
United Nations. In those jobs, he has traveled around the world to 
cover news and shoot footage, including in Mexico, Jordan, Nigeria, 
Chad and Ghana. Neither Tim nor I have experienced anything like the 
treatment we received from the U.S. Park Police on June 1; never before 
have I been physically attacked by law enforcement simply for doing my 
job of reporting the news.
    As a U.S. correspondent for Seven News, I provide on-camera 
dispatches on breaking news stories in this country for Seven's various 
television news programs. Oftentimes, I will be patched in live on 
video during these programs, doing what we refer to as a ``live 
cross.'' Because of the time difference, events that take place in the 
evening on the East Coast of the U.S. may end up being seen first thing 
in the morning in Australia. Here, when Tim and I were attacked, we 
were in the process of delivering a live cross to Seven's daily morning 
news show, Sunrise (which is similar to The Today Show or Good Morning 
America in this country).
    At any given time, Seven is likely to have three U.S. 
correspondents reporting from this country, focusing on the major news 
of the day and/or stories that would be of interest to Australians. But 
the fact is, the U.S. is widely considered Australia's most important 
ally. Australians take a keen interest in the political, social and 
cultural developments in this country. When there is widespread civil 
unrest in the United States, Australians want to know and understand 
what's actually happening. I take my job seriously, and believe 
strongly in the importance of delivering news from within the U.S., to 
my fellow countrymen and -women.
                   reporting on protests in dc: day 1
    When protests erupted throughout the U.S. after the police killing 
of George Floyd, Seven's U.S. correspondents traveled around the 
country to report from the scene. One of my colleagues reported from 
Minnesota; another reported from Los Angeles. Because I was already on 
the East Coast reporting on a story in Florida, I was selected to cover 
the protests taking place here in the capital city, Washington, DC.
    My crew consists only of myself and my cameraman, Tim. Tim and I 
arrived in DC separately on Sunday, May 31, around mid-day. We began 
reporting almost immediately from Lafayette Square. Having seen the 
nature of the protests and police actions from the days before, we were 
aware that we would potentially encounter tear gas or other irritants, 
so Tim had purchased goggles for us to have on hand. And we each 
already had face masks to cover our mouth and nose because of the 
pandemic. I had my laminated press credentials issued by the State 
Department at hand and occasionally held it up to law enforcement when 
I needed to reiterate that we were there as part of the news media. 
Usually, this was not necessary since, as can be seen in the videos, 
Tim was carrying a large, full-sized television news camera over his 
shoulder.
    We delivered ``live crosses'' throughout that Sunday evening and 
overnight. During that night, I saw and reported on a great deal of 
chaos, including destruction of property, fires, and even some looting 
of shops. I did not see the fire at St. John's Episcopal Church, but I 
did see other structures in and around the park on fire, as well as a 
large bonfire in the middle of the street by the park. We were aware 
that the DC government had imposed an 11 p.m. curfew. In the hours 
leading up to that time, we saw the police occasionally mobilize to 
push protesters away from the park, but it was not until after the 
curfew went into effect that they cleared the park area completely. As 
members of the press, we were exempt from the curfew and so we were 
able to move in among the protesters and behind the police line to 
capture footage of the scene. By the time I delivered my last few live 
crosses early in the morning of Monday, June 1, the police had cleared 
the park and protesters had long since dispersed.
    Throughout the first night we were there, the tension between the 
protesters and police was palpable, and we did see the police use riot 
gear and so-called ``less-lethal'' munitions to clear protesters. But 
the process was relatively orderly and relaxed, to the extent one could 
ever describe a process like that as orderly or relaxed. The efforts to 
clear the streets around the park did not kick in until the curfew--in 
fact, not until several minutes after the curfew--and the process was 
fairly deliberate and methodical.
             reporting on protests in dc: day 2--the attack
    The next day, in the afternoon on Monday, June 1, Tim and I went 
back out to report on the protests. As we left our hotel on 15th 
Street, we encountered a large march coming down 14th Street and headed 
toward the Capitol Building. We followed the march, and delivered 
several live crosses from the demonstration outside the Capitol. The 
protests there were certainly passionate, but they were peaceful. 
Protesters occasionally chanted slogans directly at the line of police 
officers, but I saw no physical altercations. In the late afternoon, 
the crowd received an alert on their phones announcing that DC was 
imposing a curfew starting at 7 p.m. The crowd began to make their way 
to Lafayette Square, and we followed them. We arrived around 5:45 p.m., 
in time to set up for a relatively uneventful ``live cross'' at 6 p.m. 
The atmosphere in Lafayette Square was similar to the Capitol. The 
crowd was passionate, but peaceful. In fact, the atmosphere was much 
less tense than it was the night before, with none of the property 
destruction or fires we had seen that night.
    We were scheduled to deliver a live cross at 6:30 p.m. for Sunrise. 
We were near the Northeast corner of the square, at H Street and 
Vermont Avenue, on the sidewalk outside the park. As we were getting 
ready for the cross, we saw the police lines suddenly start to form. 
These officers were in full riot gear. Some--which we identified by 
their uniforms and helmets as U.S. Park Police--carried round, clear 
shields on one arm, often using their other hand to swing their batons. 
Other officers carried what looked like modified automatic weapons, 
which we knew fired ``less-lethal'' projectiles like rubber bullets.
    We were aware that the curfew was not set to kick in for another 
half hour, so we were confused about what was happening. However, based 
on our experience the night before, we were not overly concerned by 
police lining up, as we expected the police forces to only begin 
clearing the area after curfew.
    We did not hear any warning from law enforcement that the area was 
going to be cleared, or that the curfew was going to start early. 
Nevertheless, right around 6:30, the line of police suddenly surged 
forward. We ran a couple hundred feet West on H Street along with the 
protesters to position ourselves farther away from the line. The police 
began releasing some kind of smoke and irritant gas, and firing what I 
thought at the time were rubber bullets. I now understand they may have 
been shooting ``pepper balls'' or launching ``stinger'' grenades, which 
I understand launch rubber pellets into the surrounding area. Tim was 
hit with one of those projectile in the back of the neck during this 
surge. The ``TVU''--the piece of electronic equipment that transmits 
our video and audio feed back to the studio in Sydney, which Tim 
carries in his backpack--was also hit with a projectile or piece of 
shrapnel and was knocked offline. (We later realized that the TVU was 
seriously damaged in that incident.)
    After this first surge, we took cover behind a tree on the 
sidewalk, so that we could regroup and try to get our damaged equipment 
ready to begin our 6:30 live cross. To our right (looking East) there 
was a line of law enforcement, which I believe were National Guard or 
some form of military police, with tall, clear riot shields standing in 
a line behind a metal barrier along the border of the park. To our 
left, the street was filled with confused and angry protesters who 
understood that the curfew was not set to begin for another half hour.
    We saw the line of police start to advance toward us at a walking 
pace. We wanted to stay completely out of the way of both police and 
protesters, so we backed up and moved further down the sidewalk. 
Eventually we were able to step up onto a raised curb in a small 
``alcove'' created by a short concrete wall running perpendicular to 
the sidewalk. (I believe it is a wall around a storage shed for the 
park.) At that point, we had a good vantage point to capture the scene, 
without being in the way of the advancing police line, since we were 
sheltered by a concrete wall off of the sidewalk. The line of military 
police officers was directly behind us (behind the temporary metal 
barriers) and we identified ourselves to them as members of the press. 
There were also other members of the press immediately around us along 
the fence and on the sidewalk. This still from the local news footage 
of the incident shows how we were positioned (and confirms the presence 
of other media in that area, since they were able to capture this image 
directly).

[GRAPHIC] [TIFF OMITTED] T0718.001

    .epsThat is me in the blue backpack, with my back to the camera on 
the right side. Tim is to my left in the baseball hat, sitting on the 
milk-crate, having just been knocked over by a U.S. Park Police 
officer, as I will explain below.

    We then began our live cross. As I started explaining the situation 
to the in-studio hosts, the line of police suddenly--and again, without 
any verbal warning that I could hear--began charging forward at a 
sprinting pace. As Tim was capturing the footage of this stampede 
(which was knocking protesters onto the ground), a Park Police officer 
who was running by on the sidewalk stopped just as he was passing us, 
turned toward Tim and rammed him in the chest and stomach with the edge 
of his riot shield, causing Tim to keel over and drop down to a sitting 
position on a plastic crate behind him. The officer took a half step 
back and seemed to pause for a moment, looking at Tim. He then punched 
his hand directly into the front of Tim's camera and grabbed the lens, 
causing Tim's head to whiplash backward. Tim later told me that this 
caused him to ``see stars'' for a moment. As this happened, both Tim 
and I were repeatedly shouting ``Media! Media!'' at the top of our 
lungs, to make clear what I would have thought was already obvious.
    In an instant, a group of four or five Park Police officers 
surrounded us, as we continued to shout ``Media!'' I recall 
instinctively raising my hands near my face and almost cowering behind 
Tim, afraid of what this even larger group of officers would now do to 
us. (This can be seen in the still photo just above.) An officer in the 
group stood behind the first officer, and placed his arm between the 
first officer and us, seemingly trying to restrain him. That second 
officer shouted at us to move further down the sidewalk. We immediately 
complied. Tim--despite having been knocked down a second earlier--
crouched low and began running down the sidewalk. Even though Tim was 
following the officers' instructions, the first officer pushed the face 
of his shield against Tim's back to physically prod him forward. I 
grabbed hold of Tim's backpack, and followed, also crouching low.
    As I was running away, I felt something strike me hard across the 
back and shoulders. I now know, from seeing the local news crew's 
footage, that a third U.S. Park Police officer reached around the 
second officer to smack me with his baton in a backhanded motion as I 
was running away. Disturbingly, in the moments before that, as the 
other officers surrounded us, this third officer appears to be trying 
to push his way into the scrum while waving his baton. Unable to get 
``into the mix'' before we started running down the sidewalk, he seemed 
to go out of his way to make sure to get at least one hit on us.
    Again, this all happened as we were broadcasting live to the news 
desk for the morning show in Sydney. The anchors of the show reacted 
with shock when they saw the first officer's fist suddenly fill the 
frame as he punched Tim's camera. Initially, the studio could not hear 
us, because the attack had knocked the receiver for my microphone off 
of Tim's camera. As they tried to make sure we were OK, one of the 
anchors, Samantha Armytage, observed that the police were not 
discriminating between protesters and the media.
    After we ran several yards away from the police line, and Tim 
reconnected the microphone receiver to the camera, I told the anchors 
(and Australian audience, which included my own family) what was 
happening:

        Yes guys, you heard us yelling there that we were media, but 
        they don't care. They are being indiscriminate at the moment. 
        They chased us down that street as you see. They were firing 
        these rubber bullets at everyone. There's tear gas. Now, we are 
        really surrounded by the police and you really saw the way that 
        they dealt with my cameraman Tim there, quite violent. And they 
        do not care who they're targeting at the moment.

    I also explained that the curfew was not set to come into effect 
for another 26 minutes, but that the police seemed to be trying to box 
the protesters in, which would mean that, after curfew, all of the 
protesters present could be subject to arrest.
    The news anchors were curious to understand exactly where we were 
located, relative to the White House, where President Trump was 
scheduled to speak in the Rose Garden at any moment. Tim panned his 
camera to the left to show how we were directly across the park from 
the front door of the White House at that very moment.
    As this was happening, the police lines began advancing again, all 
the while firing their weapons and releasing various forms of tear gas 
and smoke grenades. We tried to move further West along H Street, but 
were squeezed in place with the line of military police to our left, 
the U.S. Park Police line advancing behind us, and throngs of 
protesters all around us. In many ways, that was the most frightening 
part of the experience. We had already been attacked physically and 
wanted nothing more than to get clear of the continuing onslaught from 
the police. But we kept finding ourselves caught in the bottleneck 
created by the Park Police line moving forward so quickly. It felt like 
there was no escape.
    As we turned to run away from this second wave, I felt a sharp pain 
as I was struck with a projectile directly to my legs and backside. In 
the video, which was again, still being broadcast live to Australian 
morning news audiences, I can be heard shrieking in pain and surprise. 
I had assumed at the time that I was hit with a rubber bullet, and said 
as much to the camera. Having now seen the wounds caused by actual 
rubber bullets on others, I believe I was actually struck by a ``pepper 
ball'' projectile. (I have compared the feeling to being hit with a 
paintball at very close range.) I received bruises where I was hit that 
lasted for several weeks.
    Continuing to crouch low, Tim and I pushed our way West as loud 
flash grenades boomed around us, gas continued to fill the air (causing 
everyone around us to cough violently, which was particularly unnerving 
in light of the COVID pandemic), and the police forces kept firing 
their ``less-lethal'' guns at the crowd.
    Tim and I then ran at a sprinting pace all the way down H Street to 
the other side of the park, and turned north on Connecticut Avenue to 
try to escape the bottleneck where we had been stuck. Running (and then 
speaking on camera) was made all the more difficult by the gas and 
smoke that was constantly filling the air.
    Barely able to catch my breath, I gave an update to the camera, 
explaining that we had gotten out of the main area, after being hit by 
(what I thought were) rubber bullets and pepper spray. I told the 
audience how ``we were trying to move on, as the police were asking us 
to. Obviously, the last thing we ever want is to get in the way. But 
there was just no opportunity. As you were moving this way, you're 
hitting more and more protesters. And the police were just pushing up 
so quickly--'' I then cut myself off to say ``we're gonna keep 
moving,'' as I saw that the police line was continuing to advance 
further, and explosions continued booming around us. We eventually ran 
all the way to Farragut Square, but could only pause for a moment 
before I saw the stampede people continue to run toward us, away from 
the constantly advancing police line. As I took cover around the corner 
of I Street at Farragut Square, I told the studio (now over the phone), 
how ``we've done our best to get out of the way. We've now found 
ourselves in almost the exact same situation. It's almost impossible to 
escape.'' We pushed forward up the square and turned right on K Street, 
where we were finally able to catch our breath and assess the damage.
                             the aftermath
    As a result of the attack, the lens assembly on Tim's camera--a 
professional grade news camera--was seriously damaged, and would no 
longer focus properly. His camera's viewfinder (which had been jammed 
into his face) was also damaged. Tim had an additional lens (with a 
different focal length) that I was carrying in my backpack. 
Unfortunately, that lens took part of the brunt of the baton strike to 
my back, and was also damaged. As I mentioned above, the TVU device 
that enables us to send our video and audio feed back to Australia 
remotely, was also malfunctioning from being jostled and hit with the 
projectiles fired by the police forces in the first rush. Repairing and 
replacing this equipment will likely cost thousands of dollars. Of 
perhaps less significance, but still frustrating, I lost one of my 
wireless ``Airpods'' and a pair of sunglasses as we were pushed by the 
police.
    I have large bruises that lasted for weeks where I was hit with the 
``pepper ball'' (or whatever ``less-lethal'' projectile hit me). Both 
Tim and I have also experienced persistent aches and soreness from 
where we were hit--Tim, from the riot shield hit and camera punch, and 
me, from the baton strike. Both Tim and I have consulted with doctors 
for treatment for the lingering effects from those attacks.
    Despite these injuries and the damage to our equipment, we 
continued to report on the protests and police actions throughout the 
rest of that night, and over the next 8 days in Washington, DC.
    I would be lying if I said I did not feel fear when we went back 
out to continue to report on the events in the streets. From the 
beginning, we knew we were entering a potentially chaotic situation, 
and tried to take precautions. For example, I knew that, if law 
enforcement used things like tear gas, we would be caught in the cloud 
just like everyone else. That was why we had protective eyewear. What 
we never would have expected was that we would be directly assaulted by 
multiple police officers when we were not in anyone's way, and were 
clearly identifiable as media, peacefully reporting on the events. I 
had no way of knowing whether the same thing would happen again as we 
continued to try to report on the scene. As I've told others since the 
incident, our instinct as journalists covering a dangerous situation 
would normally be to run towards the police for safety. But this was 
the opposite; here, the police were the ones we feared.
    At the same time, I felt an even more solemn obligation to go out 
and do my job, to show the Australian people what was actually 
happening on the ground in the capital city of its closest ally. In 
fact, this incident illustrates perfectly how important it is for 
reporters to be on the scene, witnessing and capturing what's happening 
directly. The moment when the police began rushing protesters away from 
the park was so chaotic and rushed that it would have been impossible 
to know what was actually happening if we had been filming from, say, a 
couple blocks away. This is something that should be important not only 
to protesters and civilians, but to the police as well. I would think 
that if the situation were reversed, and it was protesters who attacked 
police without provocation, the police would want that reality 
documented and reported on.
    For that reason, I was shocked to have the U.S. Park Police attack 
us so directly, even after they knew we were media. I could possibly 
understand the first officer getting caught up in the heat of the 
moment, and striking Tim with his riot shield before he realized what 
was happening. (Though, I would also hope that police officers are 
sufficiently trained so that they know how to more effectively assess a 
situation before lashing out with physical force.) However, after he 
took a step back and realized that Tim was a cameraman, and we were 
shouting ``Media! Media!,'' his reaction was to directly punch the 
camera lens. It felt as if he was trying to aggressively convey that we 
did not have a right to be there, filming what was happening--even 
though we absolutely did. The fact that the third officer struck me 
with a baton as I was running away, after it was abundantly clear that 
we were media, and were complying with all directives without 
hesitation, was all the more disturbing.
    I was also, frankly, disturbed to see the police dealing so harshly 
with what had been, up to that point, a relatively peaceful protest. I 
was, of course, aware of the chaos and destructive behavior by some 
individuals the night before. But up until 6:30 on that Monday, we had 
not seen any violence or destruction by any of the protesters. At the 
time, we were baffled as to why the police were cracking down so 
violently on a peaceful protest when the curfew had not even kicked in 
yet. Of course, we later learned that the apparent reason for the 
police action was to clear the way for the President to walk over to 
St. John's church.

    During my live cross to Sunrise the next day, one of the hosts, 
David Koch, asked if I was angry. Here is what I said at the time:

        I'm really disappointed . . .. It's not just about the media 
        and the fact that we were attacked while we were doing our job. 
        It's about the fact that that was before curfew. So every 
        single person that was here had a legal right to be here. And 
        to see these people tear gassed to make way for a photo 
        opportunity for the president in front of the White House in 
        the United States of America is outrageous. This is not the 
        United States that I know at the moment. This is a police 
        state. It's martial law. And to see civilians treated like that 
        was really, really upsetting.

    As a reporter, I don't like to make myself the story. I'm there to 
witness and report on what I see, without interfering. But I have been 
shocked over the past few weeks to see how many reporters in cities 
around the country have been attacked, beaten, and arrested, just for 
doing their jobs. In fact, my fiancee, who is here with me today, is a 
cameraman for Channel 9 News, one of Seven's biggest rivals. He was in 
Minneapolis to cover the unrest. On the Saturday night before I was 
attacked in Lafayette Square, he was driving in a car with the reporter 
he works with, as well as a security consultant. They were stopped by 
the police while they were driving after that city's curfew. Although 
they had media credentials that permitted them to be out at that time 
(since the press was exempt from the curfew), the police pulled their 
car over and placed all three under arrest. They sat handcuffed on the 
curb for a number of minutes before they were let go. Our experiences 
are just two of many that have been happening around the country, some 
much more serious than what happened to either of us. As terrifying as 
my experience was, I feel grateful that Tim and I were not more 
seriously injured, as some of my fellow journalists around the country 
have been.
    The Australian government and people were horrified to see 
journalists treated this way in, of all places, the United States, 
which has such a long tradition of protecting the role of the press. As 
I've mentioned, the attack on myself and Tim was broadcast live to 
hundreds of thousands of Australians eating their breakfasts--including 
my family, who were understandably quite worried for my safety. People 
at the highest levels of our government expressed shock and outrage. 
The Prime Minister called the incident ``troubling,'' and directed 
Australia's Ambassador to the United States to seek a full 
investigation of the incident. The leader of the opposition party 
labeled it a ``completely unacceptable assault.''
    Covering protests does carry unavoidable risks, but the media's 
role is essential. We don't just have a right to be there, we have an 
obligation. As Australian journalists, we are the eyes and the ears of 
the people, in this case witnessing civil unrest in the capital of our 
most powerful and closest ally. It is crucial to democracy that 
journalists be allowed to do their job freely and safely. And that is 
certainly something we should expect in the world's greatest democracy.

                                 ______
                                 

  Questions Submitted for the Record by Chair Grijalva to Ms. Amelia 
            Brace, U.S. Correspondent, Seven News Australia
    Question 1. Did you see the U.S. Park Police, military, or other 
law enforcement entity at Lafayette Square on the evening of June 1, 
2020 wearing any cameras, either when you were on the scene, or in 
footage afterwards? Did you see any other video recording equipment 
associated with any of the police or military forces? If so, please 
provide details.

    Answer. I have no specific memory of seeing law enforcement 
officers wearing cameras at the time, nor do I recall seeing any other 
video recording equipment associated with any of the police or military 
forces. In reviewing the footage of the assault against me and Tim 
Myers by U.S. Park Police officers (as captured by local news station 
WJLA), I observe that the officer who assaulted Mr. Myers with his riot 
shield was wearing what appears to be a body camera. Other U.S. Park 
Police officers in the line that moved forward at the same time also 
appear to be wearing similar devices on the left sides of their chests.

                                 ______
                                 

    The Chairman. Thank you. I now recognize Jonathan Turley, 
Professor of Law at George Washington University.
    Professor, the time is yours, sir.

STATEMENT OF JONATHAN TURLEY, LAW PROFESSOR, GEORGE WASHINGTON 
                     UNIVERSITY LAW SCHOOL

    Mr. Turley. Thank you, Mr. Chairman, Ranking Member, 
members of the Committee for the honor of appearing before you 
today to talk about the controversy of the clearing of 
Lafayette Park.
    For roughly 14 years, I was one of the lead counsels in the 
World Bank protest litigation that produced the guidelines and 
case law currently applied in mass demonstration events like 
the one in Lafayette Park. Much of that litigation centered on 
the mass arrest of hundreds of individuals in Pershing Park, 
which is not far from Lafayette Park, in 2002. I appear today 
in the hopes of offering some legal perspective on the 
governing standards that apply in these cases, and also the 
facts that a court would likely look at in reviewing these 
allegations, which are quite serious.
    In appearing, I should disclose that I have previously 
discussed this matter. I criticized the level of force used to 
remove the protesters from the area, and called for a 
congressional investigation into the operation.
    I also stated that night that I thought the attack on the 
Australian journalist appeared entirely unjustified and 
unlawful. I continue to hold those opinions, as I discuss in my 
written testimony.
    My written testimony looks at the motivation, the 
authority, and the means used in the operation.
    Two points on nomenclature. I referred to the operation as 
the ``clearing operation'' to establish the perimeter to create 
a fence line. This process appeared to take about 22 to 26 
minutes from the timelines that I have reviewed.
    But, as this Committee has, in the title of the hearing--as 
the Chairman said in his opening statement, we are all 
referring to Lafayette Park or Lafayette Square Park. 
Obviously, we are not talking about just the park itself. Most 
of the activity occurred on H Street, and some of the 
protesters were pushed back to, I believe, I street. The Park 
Police have argued they were creating this perimeter so they 
could establish the fence line. But, obviously, when we talk 
about Lafayette Park, as with the title of this hearing, we are 
talking about a larger area.
    And, by the way, that is an area that I think would warrant 
congressional review of how far those protesters were pushed 
back, and why.
    As to the photo op allegation, that goes to the motivation 
behind this operation. I won't dwell on that much. As my 
testimony indicates, this may be a case where correlation does 
not mean causation. There has been a number of statements and 
timelines presented that indicate that the plan to clear the 
park, create the fence line was, in fact, proposed 2 days 
earlier. It was submitted on Sunday night, I believe. It was 
approved in some form on Monday morning. An order went out 
around 2.
    The National Guard, apparently, was delayed in arriving. 
That pushed that operation past 5, and there was a delay in the 
fencing material.
    So, whether all of that is true or not is exactly why we 
need a congressional inquiry, and that is an area that I would 
encourage the Committee to look at.
    In terms of the order itself, just because there was damage 
and there was violence the day before does not mean that an 
order is, per se, lawful, or that it was done in a lawful way.
    In the World Bank protest litigation and other cases, we 
have established guidelines that you must have three audible 
warnings that are spaced apart. You must also give ample 
opportunity for dispersal. In the World Bank case, we had the 
encirclement of everyone in Pershing Park Freedom Plaza. So, 
even if they had been given those warnings, which they weren't, 
they wouldn't have been able to remove themselves.
    In this case, it does appear the three warnings were given, 
but that is based on the government's account. And, once again, 
that is an issue for you to look at.
    It also does appear that protesters could remove themselves 
because they weren't encircled. However, if you look at these 
films, there was a very rapid approach of the line to the 
perimeter line, which is beyond the fence line. That line was 
brought back to the fence line later. That rapid pushing 
forward is something that is a legitimate question for this 
Committee to ask. Was there enough time that it was necessary 
to use the level of force that it did?
    On the level of force, as my testimony goes through in 
detail, courts have largely deferred to an objective, 
reasonable officer in determining what force should be used. 
This comes out of the Graham case, it is called the Graham 
analysis.
    I point out that a number of district courts have ruled 
recently against the use of tear gas and pepper spray. And as I 
say in my testimony, that distinction between tear gas and 
pepper spray is really not that essential, because courts tend 
to group them together. The important question is, was there a 
reasonable use of those devices?
    My summary, ultimately, concludes that the order to clear 
the park is probably going to be held as lawful, that the 
government does have the right to clear the park. Whether the 
means used to clear the park were lawful is something that this 
Committee and other committees may be able to shed some light 
on.
    Many courts would express concern over the rapid escalation 
of force, particularly in a protest involving police abuse 
allegation. And, for that reason, I compliment Congress in 
looking into this.
    I would be happy to answer any questions on the legal 
aspects, should Members have those.
    Thank you.

    [The prepared statement of Mr. Turley follows:]
  Prepared Statement of Jonathan Turley, Shapiro Professor of Public 
       Interest Law, The George Washington University Law School
                            i. introduction
    Chairman Grijalva, ranking member Bishop, members of the Committee 
on Natural Resources, my name is Jonathan Turley, and I am a law 
professor at George Washington University where I hold the J.B. and 
Maurice C. Shapiro Chair of Public Interest Law.\1\ It is an honor to 
appear before you today to discuss the controversy over the clearing of 
Lafayette Park.
---------------------------------------------------------------------------
    \1\ I appear today on my own behalf and my views do not reflect 
those of my law school, my colleagues, CBS News, the BBC, or the 
newspapers for which I write as a columnist. My testimony was written 
exclusively by myself, though I received inspired editing assistance 
from Nicholas Contarino, Thomas Huff, and Seth Tate.
---------------------------------------------------------------------------
    For roughly 14 years, I was one of the lead counsels in the World 
Bank protest litigation, which produced guidelines and case law 
currently applied in mass demonstration events like the one at 
Lafayette Park.\2\ Much of this litigation centered on the mass arrest 
of hundreds of protesters in Pershing Park and Freedom Plaza, not far 
from Lafayette Park, in 2002. I appear today in the hope that I can 
offer a legal perspective on the governing standards that apply to such 
cases and the key facts that would determine how a court would likely 
review the current controversy. In so appearing, I should disclose that 
I have previously discussed this matter. As a long-time free speech 
advocate,\3\ I criticized the level of force used to remove the 
protesters and called for a congressional investigation into the 
purpose, timing, and means of the operation. I also stated that an 
attack on Australian journalists appeared unjustified and unlawful. I 
continue to hold those opinions and will explain them in more detail 
below.
---------------------------------------------------------------------------
    \2\ There are multiple lawsuits involved in this litigation. See, 
e.g., Chang v. United States, 738 F. Supp. 2d 83 (D.C. Cir. 2010); 
Barham v. Ramsey, 434 F.3d 565 (D.C. Cir. 2006). Our Chang case was the 
first filed and the last to settle. The long and complex litigation was 
only possible due to the commitment of Bryan Cave Leighton Paisner LLP 
and my co-lead counsel Daniel Schwartz. In the over decade of intense 
litigation, over 30 lawyers joined our effort including Jake Kramer, 
Dan O'Conner, PJ Meitl, Heather Goldman, Jennifer Mammon, and many 
others. They represent the very best of the bar and its commitment to 
the public interest.
    \3\ I have litigated free speech issues and write regularly in 
support of free speech values. My blog, ResIspa 
(www.jonathanturley.org), is focused in large part on issues related to 
free speech and the free press.
---------------------------------------------------------------------------
    The standards derived from prior cases like Chang and Barham are 
important not only for establishing unlawful conduct but also for 
enabling litigants to overcome qualified immunity defenses. Qualified 
immunity shields Federal officials from damages absent a showing that 
(1) that the official violated a statutory or constitutional right, and 
(2) that the right was ``clearly established'' at the time of the 
challenged conduct.\4\ The Supreme Court has ``repeatedly told courts . 
. . not to define clearly established law at a high level of 
generality.\5\ Rather, the qualified immunity doctrine demands a ``more 
particularized'' inquiry.\6\ This testimony is an effort at a more 
particularized analysis of confirmed facts.
---------------------------------------------------------------------------
    \4\ Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011) (citing Harlow v. 
Fitzgerald, 457 U.S. 800, 818 (1982)).
    \5\ Id. at 742.
    \6\ Anderson v. Creighton, 483 U.S. 635, 640 (1987).
---------------------------------------------------------------------------
    I have been called not as a witness or a litigant but as an expert 
on the underlying law. I will give you my best assessment of the 
various legal claims that have been raised in the aftermath of the 
Lafayette operation, including widely reported theories that now appear 
to be without sufficient legal or factual foundation. In so doing, we 
can hopefully focus on the real issues to come before Congress and the 
courts. After briefly discussing the Pershing Park case, I will focus 
on the two most important legal questions surrounding the authority to 
clear the park and the manner in which it was done. I believe this 
investigation and the other ongoing inquiries are important steps to 
guarantee both a full record and complete accountability for the 
actions on June 1, 2020.
                    ii. the pershing park litigation
    On September 27, 2002, during demonstrations in protest of the 
International Monetary Fund and the World Bank, the District of 
Columbia Metropolitan Police Department (``MPD''), the United States 
Park Police, and other law enforcement personnel carried out a mass 
arrest at Pershing Park in Washington, DC. Specifically, police 
officers from these agencies encircled Pershing Park and arrested 
roughly 400 individuals who were in the Park. Among those arrests were 
student journalists and observers who became the first to file against 
the MPD, the Park Police, and other agencies and individuals.\7\ The 
central figure in this unconstitutional mass arrest was then Assistant 
Police Chief Peter Newsham (who is now serving as the Chief of Police) 
\8\ and then Chief of Police Charles Ramsey. We specifically included 
the Park Police as a defendant in our action based on its critical role 
in the encirclement of the area to carry out the ``trap and arrest'' 
operation.\9\
---------------------------------------------------------------------------
    \7\ Our clients included but were not limited to RayMing Chang, a 
first-year law student at George Washington University who attended the 
demonstration as a neutral legal observer affiliated with the National 
Lawyers Guild; Young Choi, Leanne Lee, and Christopher Zarconi who 
attended the demonstration as student journalists or photojournalists 
affiliated with The Hatchet, an independent newspaper at George 
Washington University.
    \8\ Many of us involved in the World Bank, and civil libertarians, 
opposed Newsham's appointment by Mayor Muriel Bowser due to his key 
role in one of the most costly and unconstitutional mass arrests in the 
history of the city. See Peter Hermann & Ann Marimow, Mayor names Peter 
Newsham as District's police chief, The Washington Post (Feb. 23, 
2017), https://www. washingtonpost.com/local/public-safety/newsham-to-
be-named-dc-police-according-to-officials-familiar-with-the-process/
2017/02/23/a35f882c-d1b6-11e6-a783-cd3fa950f2fd_story.html. Newsham's 
involvement in the current protest controversies can only be described 
as tragically ironic. See Jonathan Turley, What Mayor Bowser will not 
state about real history of police abuse, The Hill (June 9, 2020, 9 
AM), https://thehill.com/opinion/criminal-justice/501772-what-mayor-
bowser-will-not-state-about-real-history-of-police-abuse.
    \9\ Jonathan Turley, Un-American Arrests, The Washington Post, Oct. 
6, 2002, at B8 (describing the operation as a ``trap and arrest'' 
tactic).
---------------------------------------------------------------------------
    Newsham ultimately acknowledged he gave the order to trap and then 
arrest hundreds of people, including tourists and journalists, without 
affording them any warning or opportunity to disperse. He explained his 
decision in the following way: ``[I]t appeared to me that the 
demonstrators . . . were continuing to act as an organized group and 
would at some point leave the Park to continue their unlawful 
demonstrations in the streets. I determined that I should not and would 
not allow this to occur.'' He admitted that he declined to give 
warnings precisely because he did not want people to escape: ``I was 
concerned that if orders were given to clear the Park, the 
demonstrators would leave the Park as an organized group, or groups, 
and unlawfully take to the streets as they had previously done, thus 
exacerbating the situation rather than resolving it.''
    Ramsey admitted that he was fully informed of the intent to arrest 
everyone in the park. However, despite being present and speaking with 
Newsham and others about the operation, he denied giving the order. 
Ramsey would only say that he ``supported'' Newsham's decision to 
arrest and, at most, gave his ``tacit approval.'' Nonetheless, two 
officers came forward at great personal risk and contradicted Ramsey, 
insisting that he did give the order. These officers (who were standing 
separately and on either side of Ramsey as he spoke with Newsham) 
testified that Ramsey ordered Newsham to ``lock those mother****ers 
up,'' to ``teach them a lesson'' and ``get them off the street.''
    The Park Police, Secret Service, and other police agencies 
participated in the mass arrest. Like many, our plaintiffs were held 
for over 24 hours. They were hog-tied (wrist being cuffed to their 
ankle), despite there being no allegations that they had engaged in 
violence or were likely to be violent.
    Numerous lawsuits were brought over the mass arrest, ultimately 
costing the city millions of dollars in settlements and litigation 
costs. A settlement reached with some of those other litigants included 
guidelines for future mass demonstration operations based on 
litigation. The Chang plaintiffs did not agree to such a settlement at 
the time because we felt that there had not been sufficient 
accountability for the actions in Pershing Park and we were not 
satisfied that the guidelines were sufficiently stringent or 
enforceable. One unresolved issue was the loss of key pieces of 
evidence in the possession of the District. For example, the ``running 
resume,'' which contained a record of orders from top officials, was 
never found. District employees also allegedly gave false declarations 
and statements to the Court on the existence of different records and 
their mysterious loss.
    The litigation in all of the World Bank protest cases took roughly 
14 years before the Honorable Emmet Sullivan of the United States 
District Court for the District of Columbia. In future mass 
demonstration events, the court reaffirmed in all of these cases that 
the Park Police, as well as the MPD, could not enclose or otherwise 
prevent demonstrators from leaving areas of unlawful gatherings. 
Warnings were to be repeated three times with sufficient amplification 
and separation to allow both officers and citizens to understand the 
order to disperse. Moreover, reasonable exits would be available after 
warnings are given. The court further emphasized the need for probable 
cause and the ability to identify the individuals who commit illegal 
acts before arrests are made.
                   iii. the lafayette park litigation
    Applying these standards and controlling case law to the Lafayette 
Park operation can hopefully clarify the legal and policy issues for 
Congress in addressing the two most important questions (the clearing 
of the Park and the level of force in the operation). There is however 
a lingering question about why the clearing of the Park was ordered in 
the first place. The motivation for such an operation is relevant but 
not necessarily determinative. If the government has the authority to 
clear the park, it can usually exercise that authority at its 
discretion. There would remain, however, the question of the abuse of 
that discretion.
    This controversy has long been framed by one overarching narrative 
that the park was cleared for a photo op. Shortly after the Park was 
cleared, President Donald Trump held a photo op outside of St. John's 
Church. It was widely criticized and I joined in that criticism. Even 
so, the more salient legal question is whether the park was cleared for 
the purpose of holding the photo op, as alleged by many in the media. 
The timing of the operation fueled such speculation. The operation 
occurred shortly before the 7 p.m. curfew imposed by the city. At 6:29 
p.m., Park police and supporting agencies started to move toward the 
protest line. At around 6:35 p.m., the first deployment of pepper 
bullets or non-lethal devices were reportedly used to push back the 
protesters. At 7:02 p.m., President Trump began his walk to the Park 
and ultimately to the church. By 7:06 p.m., he was holding a bible in 
his photo op and ultimately called over military and civilian leaders, 
including Attorney General Barr for pictures.
    Given that timeline, it is hardly surprising that people would 
believe that there was a relationship between the plan for a photo op 
and the park operation shortly before. It appears, however, that the 
hundreds of stories claiming that the Park was cleared for the purpose 
of the photo op may be an example of how ``correlation does not imply 
causation.'' In other words, the fact that two variables occur in close 
sequence or association does not mean that one is caused by the other. 
I do not, however, believe that the record is complete on this 
question. Assuming that the current record is accurate, the original 
order to clear the park was not related to the photo op. Yet, there 
remains an open question as to whether there was any last-minute 
consideration of a delay in the clearing of the park and whether the 
photo op was raised as part of such a decision. The D.C. National 
Guard's arrival appears to have delayed the operation past 5 p.m. and 
it is not known if anyone raised the possibility of waiting until the 
following morning for the fence installation given the size of the 
crowd in the park. The answer from Attorney General Barr is that he had 
no such discussion on the photo op and the Park Police appears to have 
also rejected that possibility. Rather, it appears that, once both the 
fencing material and the guardsmen were in place, the operation 
proceeded as planned. Yet, it is a fact that should be clearly 
established.
    It should be obvious that the closing of the park for such a 
purpose would be as disgraceful as it would be abusive. Indeed, despite 
knowing Attorney General Barr for many years and testifying at his 
confirmation hearing in the Senate,\10\ I would immediately call for 
him to step down if this operation was ordered simply to give President 
Trump a photo op in front of the church.
---------------------------------------------------------------------------
    \10\ U.S. Senate, Committee on the Judiciary, The Confirmation of 
William Pelham Barr As Attorney General of the U.S. Supreme Court, Jan. 
16, 2019 (testimony of Professor Jonathan Turley), available at https:/
/www.judiciary.senate.gov/imo/media/doc/Turley%20Testimony.pdf.

    As the record stands, Attorney General Barr and the Park Police 
have repeatedly denied that the plan to clear the park had anything to 
do with the photo op.\11\ To the contrary, both assert that the plan 
came from the Park Police long before any photo op was contemplated and 
Barr has insisted that he was unaware of any such plan by the 
President. Acting Park Police Chief Gregory T. Monahan has given a 
detailed account supporting the two reasons for the delay: the arrival 
of the fencing and the arrival of the personnel needed to clear the 
park to install the fencing:
---------------------------------------------------------------------------
    \11\ See Rob Hotakainen, Bernhardt defends Park Police actions, E&E 
News (June 8, 2020), https://www.eenews.net/greenwire/stories/
1063352991/search?keyword=park+police.

        ``Following the violence that continued on May 30th where 
        officers were hit with bricks and assaulted, the USSS and USPP 
        had initial discussions regarding adjustments to the collective 
        posture in Lafayette Park and potentially obtaining fencing. As 
        violence and destruction continued in Washington, DC, putting 
        both the public and law enforcement at risk, on Sunday, May 31, 
        USSS confirmed with USPP that the anti-scale fencing would be 
        procured and potentially delivered on Monday for installation 
---------------------------------------------------------------------------
        along H Street.

        On Monday, June 1, USPP received confirmation from the USSS 
        that the fencing would be delivered during the day with the 
        expectation of being installed in the evening. Both agencies 
        concurred with a plan to clear H Street to prevent a repeat of 
        the protestors' attacks and destruction that occurred on 
        Friday, Saturday, and Sunday and to create a safe environment 
        for the fence to be installed. Pedestrians were to be moved 
        from the immediate area of the 1600 block of H Street to the 
        following points: H Street & Connecticut Avenue on the west, 
        16th & I Streets to the north, H St. east of Vermont Avenue to 
        the east.

        The timing of implementing the plan was contingent upon having 
        enough resources on scene. Given that the majority of law 
        enforcement personnel did not report until later in the day, a 
        late afternoon or early evening operation was inevitable.''

    That account can be easily investigated by reviewing the records 
documenting the delivery of the fencing and the arrival time of 
reinforcements.

    The underlying violence cited as the reason for the plan can also 
be investigated. Aside from video evidence, media accounts, and police 
reports, an objective record is also available based on the injuries 
recorded on both sides in the Park during the critical period of 
Saturday through Monday. The government has claimed over 100 Federal 
officers were injured around this time. The Park Police alone has 
asserted that ``51 members of the USPP were injured; of those, 11 were 
transported to the hospital and released and three were admitted.'' 
\12\ The government has cited repeated and confirmed incidents of arson 
and property destruction in and around Lafayette Park. That would be a 
sufficient and lawful reason to close the park, which has been closed 
in prior years to protect the park or the White House complex.
---------------------------------------------------------------------------
    \12\ Statement From United States Park Police Acting Chief Gregory 
T. Monahan, June 4, 2020, available at https://www.nps.gov/subjects/
uspp/6_2_20_statement_from_acting_chief_monahan. htm.
---------------------------------------------------------------------------
    The government has also offered a timeline that can be easily 
verified. Government officials have stated that the plan was discussed 
two days in advance based on ongoing violence in the park.\13\ Barr 
said that he personally witnessed such violence in the park and 
approved the plan. Barr also said that an order was sent out to all 
agencies around 2 p.m. Again, he insists that the no one had discussed 
a visit to the church or the Park by the President with him. Various 
media organizations have reported sources confirming that the order was 
unrelated to the photo op outside of St. John's. Absent new evidence 
that all of these individuals and agencies are lying, the timeline of 
events would seem to support that the clearing of the Park was not 
ordered to make way for the Trump photo op.\14\ Congress should 
certainly examine whether these representations are true. The need to 
confirm the motivation behind the operation is heightened by the 
abridgment of core free speech rights of protesters who assembled to 
denounce police abuse. Courts have previously recognized First 
Amendment claims in similar circumstances.\15\
---------------------------------------------------------------------------
    \13\ Aaron C. Davis, Carol D. Leonnig, Josh Dawsey, & Devlin 
Barrett, Officials familiar with Lafayette Square confrontation 
challenge Trump administration claim of what drove aggressive expulsion 
of protestors, The Washington Post (June 14, 2020), https://
www.washingtonpost.com/politics/officials-challenge-trump-
administration-claim-of-what-drove-aggressiveexpulsion-of-lafayette-
square-protesters/2020/06/14/f2177e1e-acd4-11ea-a9d9-
a81c1a491c52_story.html.
    \14\ Dalton Bennett, Sarah Cahlan, Aaron C. Davis & Joyce Lee, The 
crackdown before Trump's photo op, The Washington Post (June 14, 2020), 
https://www.washingtonpost.com/investigations/2020/06/08/timeline-
trump-church-photo-op/?arc404=true.
    \15\ See, e.g., Dellums v. Powell, 566 F. 2d 167, 194 (D.C. Cir. 
1977) (recognizing a cause of action under the Constitution for the 
violation of the First Amendment rights of both individuals 
demonstrating at the U.S. Capital and a Congressman addressing the 
demonstrators); Gibson v. United States, 781 F.2d 1334 (9th Cir. 1986), 
cert. denied, 479 U.S. 1054 (1987) (finding that a claim against 
Federal Bureau of Investigation agents who impermissibly curbed 
plaintiff's protected speech was properly cognizable as a Bivens-type 
action under the First Amendment).
---------------------------------------------------------------------------
    Congress can play a critical role in resolving this question. 
However, even assuming that the order to clear the park was unrelated 
to the photo op (as it currently appears), it may still have been 
unlawful under the standards laid out in the World Bank litigation and 
other controlling case law. It is to those questions that I now turn.
A. The Clearing Of Lafayette Park
    Any court reviewing the decision to clear Lafayette Park will start 
with several established framing elements. First, the demonstration 
took place on Federal land near an area (the White House) that is 
afforded particularly high levels of security. Second, this was a 
demonstration that was proceeding without a permit or permission from 
the Federal Government. Third, there was a high level of injuries to 
Federal officers and property destruction in the prior 24 hours. Those 
facts ordinarily give the government the discretion to order people 
from the Federal property at its discretion. The actual dispersal 
actions at issue appear to have lasted less than 30 minutes and did not 
result in arrests.\16\ On the current record, the order approved Monday 
morning to clear the park to install fencing is likely to be viewed as 
lawful and within the discretion of the government.
---------------------------------------------------------------------------
    \16\ Reviewing various government and media timelines, it seems to 
me that, if (as likely) the warnings were spaced apart by a couple 
minutes at a minimum, the time from the movement of the line to the 
securing of the park was likely around 25 minutes. However, it seems 
unlikely that it was much longer than 30 minutes.
---------------------------------------------------------------------------
    These facts, however, does not give the government carte blanche to 
clear the park in any manner that it desires. As stated by the court in 
the Pershing Park litigation, Park Police are supposed to give 
protesters a minimum of three audible warnings that are both amplified 
and spaced apart. This is meant to give protesters notice that they are 
in violation of the law and facing arrest. The Park Police must also 
give reasonable avenues for the crowd to disperse in accordance with 
such instructions. In the World Bank litigation, it was confirmed that 
no warnings were given and thus no probable cause was established for 
the arrests.\17\ The Court enforced ``the binding authority in this 
Circuit,'' established by Dellums v. Powell, that there is a `` 
`bright-line rule' that groups with nonviolent or obstruction 
individuals may not be arrested as a group `without fair warning or 
notice and the opportunity to come into compliance and disperse.' '' 
\18\
---------------------------------------------------------------------------
    \17\ Barham v. Ramsey, 434 F.3d 565, 573 (D.C. Cir. 2006).
    \18\ Barham v. Ramsey, 338 F. Supp. 2d 48, 58 (D.D.C. 2004) (citing 
Dellums v. Powell 566 F.2d 167 (D.C. Cir. 1977)).

    In this case, no arrests were made but there is still a requirement 
for warnings under the guidelines. The Park Police has stated that it 
---------------------------------------------------------------------------
complied with these guidelines. Here is the official response:

        ``On Monday, June 1, the USPP worked with the United States 
        Secret Service to have temporary fencing installed inside 
        Lafayette Park. At approximately 6:33 p.m., violent protestors 
        on H Street NW began throwing projectiles including bricks, 
        frozen water bottles and caustic liquids. The protestors also 
        climbed onto a historic building at the north end of Lafayette 
        Park that was destroyed by arson days prior. Intelligence had 
        revealed calls for violence against the police, and officers 
        found caches of glass bottles, baseball bats and metal poles 
        hidden along the street.

        To curtail the violence that was underway, the USPP, following 
        established policy, issued three warnings over a loudspeaker to 
        alert demonstrators on H Street to evacuate the area. Horse 
        mounted patrol, Civil Disturbance Units and additional 
        personnel were used to clear the area. As many of the 
        protestors became more combative, continued to throw 
        projectiles, and attempted to grab officers' weapons, officers 
        then employed the use of smoke canisters and pepper balls. USPP 
        officers and other assisting law enforcement partners did not 
        use tear gas or OC Skat Shells to close the area at Lafayette 
        Park. Subsequently, the fence was installed.''

    Various media outlets have confirmed hearing one or more warnings 
\19\ and some members of the crowd were reportedly moving back. 
Moreover, the line of officers did not appear to encircle the 
protesters so individuals could disperse. Congress should confirm that 
the Park Police used a sufficient amplification system, like the Long 
Range Acoustic Device (LRAD),\20\ and that the warnings were 
sufficiently clear and spaced apart. If that did occur in Lafayette 
Park, a court would likely hold that the park could be cleared so long 
as at least three warnings were given and protestors were provided an 
opportunity to disperse.
---------------------------------------------------------------------------
    \19\ See, e.g., Karl Gelles, How police pushed aside protesters 
ahead of Trump's controversial church photo, USA Today (June 11, 2020, 
1:15 PM), https://www.usatoday.com/in-depth/graphics/2020/06/05/george-
floyd-protests-trump-church-photo-curfew-park/3127684001/.
    \20\ LRAD is used by the Park Police and is an extremely powerful 
system for such warnings. The LRAD 100X unit, for example, is 20-30 
decibels louder than typical vehicle-based P.A. systems that were once 
commonly used for dispersal orders. See https://genasys.com/
lrad_products/lrad-100x/. The LRAD system has a range that far exceeds 
the relatively small space of the Park. However, canceling noise of 
protests can defeat even the best system, which is why three warnings 
are required.
---------------------------------------------------------------------------
B. The Use of Pepper Balls and Other Means in The Operation
    If the government is found to have told the truth about providing 
warnings and a reasonable opportunity for dispersal, there remains the 
question of the means used for the clearing operation. On this point, 
there is a factual dispute over the use of what witnesses described as 
``tear gas.'' Attorney General Barr has said that he did not give the 
order to disperse the crowd but supported the decision made by Park 
Police to use dispersal tactics if necessary. He and the Park Police 
insisted that no tear gas or ``OC Skat shells'' were used in the 
operation as opposed to smoke canisters and pepper balls, though a 
spokesman later said that pepper spray has the same effect as tear 
gas.\21\ The debate has turned into a debate over the colloquial versus 
technical uses of the term ``tear gas,'' which may not be determinative 
to our analysis. Officials insist that they did not deploy CN and CS 
(or 2-chlorobenzalmalononitrile products), defined by the Centers for 
Disease Control and Prevention as the ``most common'' forms of tear 
gases. The government refers to ``pepper spray'' as a ``riot control 
agent.'' One photo purportedly shows a clearly labeled ``Skat Shell 
OC.'' \22\ Oleoresin Capsicum refers to an irritant derived from pepper 
plants but it has the same effect of what people associate with tear 
gas. Congress should be able to confirm if the Park Police has 
misrepresented the devices used in the operation. However, the agencies 
have continued to maintain, including in communications with Congress, 
that no tear gas was used in the operation.
---------------------------------------------------------------------------
    \21\ Rebecca Beitsch, U.S. Park Police Say It Was A Mistake To Say 
No Tear Gas Was Used In Lafayette Park, The Hill (June 5, 2020, 3:11 
PM), https://thehill.com/homenews/administration/501372-us-park-police-
say-it-was-a-mistake-to-say-no-tear-gas-was-used-in (quoting Park 
Police spokesman Sgt. Eduardo Delgado as saying ``I'm not going to say 
that pepper balls don't irritate you. I'm not saying it's not a tear 
gas, but I'm just saying we use a pepper ball that shoots a powder.'').
    \22\ Id.
---------------------------------------------------------------------------
    For the purposes of legal analysis, the technical distinction may 
prove less important to the conclusions. Courts often group the use of 
tear gas and pepper spray together in court orders. The question is 
whether it was lawful to use non-lethal devices ranging from possible 
smoke canisters to pepper balls to tear gas. That question is likely to 
turn on the far more significant conflict in the accounts of the 
violence level in the park. In reviewing video footage, there was 
clearly significant violence in the park in the preceding days. On the 
day of the operation, some protestors could be seen throwing 
projectiles at officers. However, the crowd appeared largely peaceful, 
an impression reaffirmed by journalists in the crowd.
    Courts tend to defer to law enforcement in circumstances where they 
face immediate threats to their safety or the safety of others.\23\ The 
Supreme Court has stressed that officers are often ``forced to make 
split-second judgments [] in circumstances that are tense, uncertain, 
and rapidly evolving.'' \24\ Under a fourth amendment analysis, such 
use of force must be shown to be ``objectively unreasonable.'' \25\ 
Objective unreasonableness is in turn ``judged from the perspective of 
a reasonable officer on the scene,'' in light of ``the facts and 
circumstances of each particular case, including the severity of the 
crime at issue, whether the suspect poses an immediate threat to the 
safety of the officers or others, and whether he is actively resisting 
arrest or attempting to evade arrest by flight.'' \26\
---------------------------------------------------------------------------
    \23\ See, e.g., Bell v. Irwin, 321 F.3d 637, 640 (7th Cir. 2003) 
(''It is easy in retrospect to say that officers should have waited, or 
should have used some other maneuver . . . but the fourth amendment 
does not require second guessing if a reasonable officer making 
decisions under uncertainty and the press of time would have perceived 
a need to act.''); Mitchell v. City of Indianapolis, No. 1:18-cv-00232-
SEB-TAB, 2020 U.S. Dist. LEXIS 55274, at *1 (S.D. Ind. Mar. 31, 2020) 
(Under the circumstances, a reasonable officer could have also 
reasonably concluded . . . that lesser uses of force, including 
physically removing [the suspect], would be both less effective at 
securing compliance and more dangerous for the Officers.'').
    \24\ Graham v. Connor, 490 U.S. 386, 397 (1989).
    \25\ Id. at 397.
    \26\ Id. at 396.

    The Graham analysis has been applied to the use of non-lethal 
devices by police. For example, in Fogarty v. Gallegos, the Tenth 
---------------------------------------------------------------------------
Circuit found such use to be unreasonable, noting:

        ``With respect to the use of pepper balls and tear gas, we 
        acknowledge that our precedential opinions have not directly 
        addressed the Fourth Amendment implications of what defendants 
        call `less lethal' munitions. Nevertheless, a reasonable 
        officer would have been on notice that the Graham inquiry 
        applies to the use of these methods just as with any other type 
        of pain-inflicting compliance technique. We find it persuasive 
        that, in prior cases, we have assumed that the use of mace and 
        pepper spray could constitute excessive force.'' \27\
---------------------------------------------------------------------------
    \27\ Fogarty v. Gallegos, 523 F.3d 1147, 1161 (10th Cir. 2008).

    An important distinction comes into play at this point in the 
analysis. In this case, the officers were using the force to disperse a 
crowd rather than deter or control an individual. Attorney General Barr 
has stated that the Park Police made this decision but that they had 
the authority to do so when faced with violent opposition. In videos, 
the crowd as a whole appears in flux with some responding to the 
dispersal order and others not responding, including a few seen 
resisting or obstructing the advancing line of officers.
    There are comparatively few cases on the use of pepper spray to 
disperse crowds than there are individual cases of alleged excessive 
use of force. Some cases support the claim of the journalists in this 
case. In reviewing the attack on Amelia Brace and her colleagues at 
Seven Network, I cannot see any conceivable justification for the 
police conduct. This is not the first such attack on journalists. A 
similar case was litigated recently in Quraishi v. St. Charles Cty., 
where police fired rubber bullets and tear gas at Al Jazeera America 
journalists reporting on the events in Ferguson on August 13, 2014. The 
court ruled that it would obviously be unreasonable for the police to 
deploy tear gas against non-violent individuals who are also not 
committing a crime.\28\ Likewise, prior cases have distinguished 
between people who are agitating and those observing or recording 
scenes. In Jones v. City of Minneapolis, the district court granted 
summary judgment against plaintiffs' claims of excessive force when the 
officers used mace on a crowd because the crowd ``[tried] to restrict 
their movement,'' someone throw a ``glass of booze'' in one officer's 
face, and the police believed they were responding to an officer in 
distress.\29\ However, the court refused to dismiss the claims of a 
videographer who was individually assaulted by police.\30\ Courts have 
also refused to dismiss cases as categorically barred under immunity 
arguments in such cases.\31\
---------------------------------------------------------------------------
    \28\ Quraishi v. St. Charles Cty., No. 4:16-CV-1320 NAB, 2019 U.S. 
Dist. LEXIS 97254, at *1327-28 (E.D. Mo. June 10, 2019).
    \29\ Jones v. City of Minneapolis, No. 04-4856 (DWF/AJB), 2007 U.S. 
Dist. LEXIS 56280, at *10-11 (D. Minn. Aug. 1, 2007), aff'd 337 F. 
App'x 596 (8th Cir. 2009).
    \30\ Id. at *27-28.
    \31\ See, e.g., Lamb v. City of Decatur, 947 F. Supp. 1261 (C.D. 
Ill. 1996) (rejecting qualified immunity claims under 42 U.S.C.A. Sec.  
1983); Nelson v. City of Davis, 2012 WL 2821931 (9th Cir. 2012).
---------------------------------------------------------------------------
    However, the use of pepper spray is subject to a reasonableness 
standard based on the totality of the circumstances in a given case, 
such as the use of pepper balls fired into crowds.\32\ Courts have 
upheld the use of forms of gas or pepper sprays to generally repel or 
disperse unruly crowds.\33\
---------------------------------------------------------------------------
    \32\ See, e.g., Buck v. City of Albuquerque, 549 F.3d 1269 (10th 
Cir. 2008).
    \33\ See, e.g., Dalrymple v. United States, 460 F.3d 1318, 1327-28 
(11th Cir. 2006) (``Based on these undisputed findings of fact, we 
agree with the district court that [the demonstrator surging toward the 
front of the barricade while throwing objects including rocks, bottles, 
a stool, and coolers at the agents] justified the use of either pepper 
spray or tear gas and was objectively reasonable under the 
circumstances.''); Young v. Akal, 985 F. Supp. 2d 785, 803 (W.D. La. 
2013) (``Given the crowd's refusal to adhere to the officers' warnings 
[over 4 hours], this Court concludes the deputies acted within their 
authority to disperse the crowd with tear gas in order to unblock the 
streets and remove the hazards to others.'').

    There are cases, including some recent holdings, where courts 
reject the use of such devices against an entire demonstration as 
opposed to individual violent demonstrators. Courts have held that the 
proper response to violent individuals is to arrest those individuals 
rather than to generally deploy tear gas or other irritants. This is 
particularly the case with regard to dispersing crowds engaged in free 
speech activities. In Collins v. Jordan, the Ninth Circuit held ``the 
proper response to potential and actual violence is for the government 
to ensure an adequate police presence, and to arrest those who actually 
engage in such conduct, rather than to suppress legitimate First 
Amendment conduct as a prophylactic measure.'' \34\ Pepper ball devices 
have been specifically flagged as causing added risks in crowded 
conditions. In Nelson v. City of Davis, the Ninth Circuit observed:
---------------------------------------------------------------------------
    \34\ Collins v. Jordan, 110 F.3d 1363, 1372 (9th Cir. 1996).

        ``The dual nature of the pepperball projectile creates 
        additional risks not present with a strictly projectile object 
        . . . [n]onetheless, even if considered as a purely projectile 
        object, the officers in this case were aware that pepperballs 
        fired from their guns could, as in this instance, cause 
        substantial harm, and that there was a substantial risk of 
        hitting individuals in vulnerable areas given the inability to 
        accurately target their weapons at the distance at which they 
        fired them . . . [A] reasonable officer would have known that 
        firing projectiles, including pepperballs, in the direction of 
        individuals suspected of, at most, minor crimes, who posed no 
        threat to the officers or others, and who engaged in only 
        passive resistance, was unreasonable.'' \35\
---------------------------------------------------------------------------
    \35\ Nelson v. City of Davis, 685 F.3d 867, 885-86 (9th Cir. 2012).

    Recently, a Seattle court banned the use of tear gas, despite 
evidence from police of ``significant arson events, assaults on 
civilians and officers, as well as wide-spread looting and property 
destruction.'' \36\ The Court issued the temporary restraining order 
even though it acknowledged that ``This, no doubt, poses a serious 
threat to officer life and safety.'' The Seattle case notably included 
both tear gas and pepper spray within its injunction. The court defined 
the scope of the injunction as:
---------------------------------------------------------------------------
    \36\ Black Lives Matter v. City of Seattle, 2:20-cv-00887-RAJ, 2020 
U.S. Dist. LEXIS 103346, at *9 (W.D. Wash. June 12, 2020).

        ``(1) any chemical irritant such as and including CS Gas 
        (``tear gas'') and OC spray (``pepper spray'') and (2) any 
        projectile such as and including flash-bang grenades, ``pepper 
        balls,'' ``blast balls,'' rubber bullets, and foam-tip 
        projectiles. This Order does not preclude individual officers 
        from taking necessary, reasonable, proportional, and targeted 
        action to protect against a specific imminent threat of 
        physical harm to themselves or identifiable others or to 
        respond to specific acts of violence or destruction of 
        property. Further, tear gas may be used only if (a) efforts to 
        subdue a threat by using alternative crowd measures, including 
        pepper spray, as permitted by this paragraph, have been 
        exhausted and ineffective and (b) SPD's Chief of Police has 
        determined that use of tear gas is the only reasonable 
---------------------------------------------------------------------------
        alternative available.''

    Likewise, in another recent decision, a Federal district court 
rejected the use of tear gas even when police submitted evidence of 
``the breaking of the windows of the Justice Center and other 
buildings, setting off fireworks, property destruction, looting, 
setting fires in the Justice Center and other areas of downtown, 
throwing and launching deadly projectiles at the police, and attempting 
to dismantle a fence put up to protect the Justice Center.'' \37\ The 
court order that ``[Portland Police Bureau] be restricted from using 
tear gas or its equivalent except as provided by its own rules 
generally.\38\ In addition, tear gas use was limited to situations in 
which the lives or safety of the public or the police are at risk, 
including the lives and safety of ``those housed at the Justice 
Center.'' \39\ It expressly barred the use of ``[t]ear gas . . . to 
disperse crowds where there is no or little risk of injury.'' \40\
---------------------------------------------------------------------------
    \37\ Don't Shoot Portland v. City of Portland, No. 3:20-cv-00917-
HZ, 2020 U.S. Dist. LEXIS 100801, at *11-12 (D. Or. June 9, 2020).
    \38\ Id. at *13.
    \39\ Id.
    \40\ Id.
---------------------------------------------------------------------------
    A similar order was imposed in Denver where the court enjoined the 
use of tear gas and pepper spray after seeing videotapes ``in which 
officers used pepper-spray on individual demonstrators who appeared to 
be standing peacefully, some of whom were speaking to or yelling at 
officers, none of whom appeared to be engaging in violence or 
destructive behavior.'' \41\ The Court however did allow the use of 
tear gas and pepper spray when a senior officer gives such an order 
``in response to specific acts of violence or destruction of property 
that the command officer has personally witnessed.'' The court 
specifically allows for such use ``after an order to disperse is 
issued'' and ``[a]ny and all orders to disperse must be followed with 
adequate time for the intended audience to comply, and officers must 
leave room for safe egress.'' The Park Police has already argued that 
such criteria were fulfilled.
---------------------------------------------------------------------------
    \41\ Abay v. City of Denver, No. 20-cv-01616-RBJ, 2020 U.S. Dist. 
LEXIS 99523, at *3 (D. Colo. June 5, 2020).
---------------------------------------------------------------------------
    Attorney General Barr has stated that he approved the plan but did 
not give specific or ``tactical'' dispersal orders, including the use 
of the pepper balls.\42\ The position of the Park Police is that 
officers on the scene made these decisions based on specific resistance 
and not a general use of non-lethal agents. The Park Police said that 
smoke canisters and pepper balls were used when officers reported 
protesters grabbing their weapons and throwing projectiles at them. In 
other words, the position of the government is likely to be that the 
use of the agents was defensive and not offensive in this circumstance. 
That is challenged by witnesses and journalists who allege virtually 
random use of pepper balls and canisters.
---------------------------------------------------------------------------
    \42\ Tal Axelrod, Barr says he didn't give `tactical command' to 
clear Lafayette protesters, The Hill (June 5, 2020, 10:33 PM), https://
thehill.com/homenews/administration/501448-barr-says-he-didnt-give-
tactical-command-to-clear-lafayette-protester.
---------------------------------------------------------------------------
    The reasonableness of that response is likely to turn on the record 
now being created in this and other forums. The government has produced 
reports of a high degree of injuries, including hospitalizations, of 
Federal officers in this area. It can also show that serious property 
damage, including arson, had already taken place just the day before in 
the Park. It can also show that property damage has continued with the 
defacing and attempted destruction of the iconic Andrew Jackson statue 
in Lafayette Park just a few days ago.\43\ The St. John's Church itself 
was again vandalized and, reportedly with the support of the church, 
was also cordoned off with the same fencing erected around Lafayette 
Park to protect it against further damage.\44\ Moreover, there are 
statements from the Attorney General and high-ranking Federal officials 
that on the day of the clearing, officers were injured and one may have 
been hospitalized before the decision to clear the park. The fact is 
that the record of law enforcement injuries, arson, and property damage 
contradict a claim of entirely peaceful protests on that weekend or 
Monday night, including media reports.\45\
---------------------------------------------------------------------------
    \43\ Fredrick Kiunkle, Susan, Svrluga, & Justin Jouvenal, Police 
thwart attempt by protestors to topple statue of Andrew Jackson near 
White House, The Washington Post (June 23, 2020), https://
www.washingtonpost.com/local/public-safety/dc-police-and-protesters-
square-off-near-whitehouse/2020/06/22/cec8c88c-b4c7-11ea-a510-
55bf26485c93_story.html. Of course, the Jackson incident cuts both 
ways. It shows that these are not purely peaceful demonstrations, but 
it also shows that the Federal officers were able to regain control of 
the area without the use of the prior level of force. The Park Police 
is likely to argue that it did not encounter the same level of 
resistance around the Jackson statue.
    \44\ Egan Millard, St. John's church in Washington Vandalized 
Again, Episcopal News Service (June 23, 2020), https://
www.episcopalnewsservice.org/2020/06/23/st-johns-church-in-washington-
vandalized-again/.
    \45\ Marissa J. Lang, Michael E. Miller, Hannah Natanson & Peter 
Jamison, Tensions between police and protesters flares in front of the 
White House before vandalism and sporadic fires, The Washington Post 
(May 31, 2020, 2:32 AM), https://www.washingtonpost.com/local/public-
safety/trump-accuses-dc-mayor-of-refusing-to-help-secret-service-at-
white-house-demonstration-over-killing-of-george-floyd/2020/05/30/
9bb59212-a276-11ea-9590-1858a893bd59_story.html.

    A glimpse at the likely government record for trial was supplied by 
Department of the Interior Secretary David Bernhardt, who has described 
the prior two days leading to the clearing of the Park. That includes 
violence on the Saturday before the arson at St. John's and other 
---------------------------------------------------------------------------
damage on Sunday:

        ``Beginning on Saturday, May 30, 2020, the USPP were under a 
        state of siege, and routinely subject to attack by violent 
        crowds. The incidents are numerous and include USPP officers 
        having their police cars vandalized; being subject to 
        bombardment by lighted flares, Molotov cocktails, rocks, 
        bricks, bottles and other projectiles; and physical assault so 
        violent that to date over 50 area law enforcement officers have 
        been injured . . . [to] include[] one USPP officer so violently 
        attacked that he required emergency surgery.'' \46\
---------------------------------------------------------------------------
    \46\ Letter from David Bernhardt, Secretary, U.S. Dep't of the 
Interior, to Rep. Raul Grijalva, Chair, H. Comm. on Nat. Res. (June 5, 
2020).

    The current record would make it unlikely that the court would 
treat these demonstrations as entirely peaceful. However, the real 
significance of this information will only be established when we look 
at the specific pattern of injuries over the course of the three days 
and particularly those occurring on Monday before the decision to order 
the operation to move forward with the clearing of the Park.
C. Summary
    There are significant and troubling issues to be addressed over the 
operation at Lafayette Park. If we are to effectively address those 
issues, we need to speak frankly about the record as it stands today, 
particularly in terms of how a court might view these facts. First, the 
widespread claim that the Park was cleared for the Trump photo op is 
currently unsupported and contradicted by the available evidence. 
Second, it does not appear that tear gas was employed on protesters, 
though it has been confirmed that pepper balls with similar effects 
were used. Third, it is not true that the protests in the Lafayette 
Park were entirely peaceful. There was extensive property damage, 
serious arson crimes, and continuing attacks on Federal law enforcement 
on Saturday, Sunday, and Monday. Finally, it is also true that most of 
the protestors in the Park on Monday evening were peaceful. Our 
understanding of these facts may of course change as a result of this 
and other investigations. Yet, it is important to focus on what we know 
and do not know in addressing legal and policy questions going forward.
    A court is likely to find that a plan to close off the park 
submitted on Sunday night and approved Monday morning was within the 
legal discretion of the government. It is also likely to recognize that 
there was some exigency in the operation to install the fencing due to 
the proximity to the White House. Given that mixed record, a 
constitutional challenge to the decision to clear the park is unlikely 
to succeed absent new countervailing evidence. A challenge to the use 
of pepper balls as a general means for crowd dispersal could be a 
closer issue, but might still favor the Park Police absent additional 
information on the issues discussed above. From what I can deduce from 
video footage and timelines, the actual clearing maneuver (from the 
line movement to the establishment of a perimeter line) in the park 
lasted less than 30 minutes with no arrests. A court could (as I do) 
have objections to the use of the pepper balls and aggressive tactics 
but still find that this was within the realm of reasonable discretion 
of the officers on the scene.
    As this and other committees go forward, I would strongly encourage 
an effort to secure some of the information highlighted in this 
testimony. This includes, but is not limited to: (1) all emails, 
memoranda, and other records of the planning to clear the park, 
including any discussion on Monday for delaying the operation to the 
following morning; (2) the ``running resume'' or other record of radio 
calls and orders given around the Park from Saturday through Monday; 
(3) the specific PA system or technology used to convey the three 
warnings and any video or audio tapes of the warnings showing their 
range and spacing; (4) the equipment record of the exact number of 
canisters, pepper ball, and other material used to clear the Park; (5) 
the record of all injuries reported and treated in the park for both 
law enforcement and non-law enforcement; (6) all property damage and 
criminal reports filed on those three days in and around the Park; (7) 
all pictures, videotapes, body camera recordings, and other 
photographic records on the points of contact between the advancing 
line of officers and protests during the clearing operation, including 
aerial footages and rooftop surveillance; (8) all reports from officers 
and other personnel on the incidents of attacks on or near officers and 
executive officials; (9) any memoranda of understanding (MOUs) with 
cooperating non-USPP units on the operation and instructions on the 
operation, including a full list of all non-USPP forces present in the 
park during those three days; and (10) any of the above information or 
material held by other cooperating non-USPP units or forces, including 
whether the deployment of pepper balls or smoke canisters were the 
actions of non-USPP personnel.
    Many of us were upset by what happened on June 1, 2020, so it can 
be difficult to even acknowledge such likely judicial findings on the 
existing record. This is simply what we know now. Yet, what we know 
should be enough to focus people of good faith on both the need for 
further inquiry and possible reforms. There remains the question of how 
the park was cleared and specifically the aggressive response of the 
Park Police. We also know that many peaceful protesters and journalists 
were placed in an extremely dangerous situation by the use of smoke 
canisters and pepper balls to disperse a crowd that already appeared to 
be moving back. At a minimum, the rapid advancement of the police line 
raises concerns over execution of the order when further delay might 
have allowed more people to move out of the area. Few courts would look 
kindly on such rapid escalation of force by law enforcement in the 
middle of a protest over police abuse.
                             iv. conclusion
    The foregoing legal analysis may help answer whether the government 
acted unconstitutionally in either the clearing of Lafayette Park or 
the means used to carry out that objective. I will end by again 
stressing that such analysis does not answer the equally important 
question of whether that decision was the right one. I do not believe 
the decision to disperse the crowd that night was right under these 
circumstances, notwithstanding the authority to clear to the Park. In 
addition to a rapid advancement of the police line, the move before the 
curfew only magnified the confusion for the crowd. The police should 
have waited until after 7 p.m. to give people a chance to move out of 
the park. The fact that the Park does not appear to have been cleared 
for a photo op does not validate the decision to move forward that 
evening in such a relatively encapsulated period. The government's 
claim that they cleared the park when necessary due to the late arrival 
of fencing and additional law enforcement officers has not been 
contradicted. Yet, it has also not been adequately explained why that 
delay did not prompt a decision to delay clearing the park until curfew 
or even until the morning so as to avoid direct confrontation with such 
a large crowd. The government could have intervened if violence 
increased or further property damage occurred that evening. The record 
seems to suggest that the operation was simply delayed and immediately 
moved forward once resources were in place, without considering the 
timing and conditions. Even then, the line might have been able to move 
forward without the use of the deployment of the smoke canisters and 
pepper balls. As a result, civilians and law enforcement officers have 
suffered harm. Having the authority to clear the park does not mean 
that such authority was used wisely or correctly.
    Various investigations are now occurring in both the legislative 
and executive branches into this controversy. Federal cases have been 
filed that will also pursue discovery on the underlying decisions made 
in Lafayette Park. All of those efforts to get a full record are 
essential to guarantee full accountability, which all parties should 
favor.
    Once again, thank you for the honor of appearing before you to 
discuss these important issues. I am happy to answer any questions that 
you might have on the underlying legal standards that apply to this 
controversy.

                                 ______
                                 

   Questions Submitted for the Record by Chair Grijalva to Jonathan 
Turley, Shapiro Professor of Public Interest Law, The George Washington 
                         University Law School
    Question 1. Your written and oral testimony relied heavily on the 
presumed veracity of government assertions regarding the June 1, 2020, 
Lafayette Square incident, such as statements describing the reasoning 
and timing of the perimeter expansion, the number of officers injured 
in the surrounding days (and the nature and cause of those injuries), 
and the audibility of the government's alleged warnings to the 
protesters. Even the press reports you cite to support some of your 
factual assumptions rely on uncorroborated government/law enforcement 
claims.

    1a. Do you have any objective supporting evidence of any of these 
government assertions, and if not, will you amend your assessment of 
their veracity, consistent with your calls for investigation of the 
actual facts?

    Answer. Chairman Grijalva, thank you for your question on my June 
29, 2020 testimony.
    I do indeed cite factual representations made by both sides in the 
controversy over the clearing of the area around Lafayette Park on June 
1, 2020. The purpose of those media statements and reports is not to 
assume the veracity of either side. Rather, my testimony states that 
facts that have been stated in the media as established (like the 
decision to clear the area to allow for the Trump photo op in front of 
the church) are in fact contested and not established. Rather than 
assume that these representations are true, I repeatedly encouraged the 
Committee to investigate the allegations and supplied detailed 
suggestions on how to obtain information in such a mass demonstration 
case. I specifically called for confirming that the plan and order to 
clear the area was unrelated to the photo op. Yet, I also stated that 
``even assuming that the order to clear the park was unrelated to the 
photo op (as it currently appears), it may still have been unlawful 
under the standards laid out in the World Bank litigation and other 
controlling case law.''
    The thrust of the testimony is that Congress (and the media) should 
not act on assumed facts, particularly when the government has publicly 
stated that those assumptions are incorrect. The truth is not 
especially difficult to determine if the Committee wants to do so. The 
records that I cite in my testimony will conclusively establish which 
side is telling the truth on allegations like the clearing of the area 
to allow the photo op. I would be happy to comment on any such evidence 
that you acquire in your inquiry but I, again, strongly encourage you 
to pursue the documents and evidence referenced in my testimony.

    What we know is still limited by the absence of discovery or new 
documents. The government has supplied details on when the plan was 
created and when it was approved. Those statements can now be fully 
confirmed or refuted by this inquiry. Thus, I will repeat what I stated 
in my testimony to the Committee:

        ``Yet, what we know should be enough to focus people of good 
        faith on both the need for further inquiry and possible 
        reforms. There remains the question of how the park was cleared 
        and specifically the aggressive response of the Park Police. We 
        also know that many peaceful protesters and journalists were 
        placed in an extremely dangerous situation by the use of smoke 
        canisters and pepper balls to disperse a crowd that already 
        appeared to be moving back. At a minimum, the rapid advancement 
        of the police line raises concerns over execution of the order 
        when further delay might have allowed more people to move out 
        of the area. Few courts would look kindly on such rapid 
        escalation of force by law enforcement in the middle of a 
        protest over police abuse.''

    Thank you for the opportunity to respond to your additional 
question and I wish to thank the Committee for allowing me to 
participate in his important inquiry into the events at Lafayette Park.

                                 ______
                                 

    The Chairman. Thank you very much.
    And let me now recognize our last witness, the Right 
Reverend Mariann Budde, Bishop of the Episcopal Diocese of 
Washington.
    Reverend Bishop, the time is yours. Thank you.

   STATEMENT OF MARIANN BUDDE, BISHOP, EPISCOPAL DIOCESE OF 
                           WASHINGTON

    Rev. Budde. Thank you, Chairman Grijalva, Ranking Member 
Bishop, and members of the Committee. Thank you for the 
opportunity to testify today. As you said, my name is Mariann 
Budde. I serve as Bishop of the Episcopal Diocese of 
Washington, which counts among its parishes St. John's, 
Lafayette Square.
    I appear today to express my deep concern about the events 
of June 1, when our government resorted to acts of violence 
against peaceful protesters, and prevented clergy and lay 
members of the church from exercising their ministry on the 
grounds of St. John's.
    We, in the Episcopal Church, believe that the issues of 
racial and social justice are core tenants of the Christian 
faith. The Bible teaches that all human beings are created in 
the likeness and image of God. As children of God, all are to 
be treated with equal dignity and respect.
    Embedded in our Nation's history and institutions is the 
shameful abuse of Black Americans and other persons of color 
justified by the sinful notion of white supremacy, that 
whiteness is the human standard from which all other human 
beings deviate and are somehow less human, less worthy of equal 
treatment. And as Christians, we are called by God to rectify 
that injustice. Our faith compels us to join those around the 
country and the globe who have engaged in non-violent protest 
to call for an end to racist policies and practices, and to say 
clearly with one voice that Black Lives Matter.
    Now, for Episcopalians, the issue of racial justice is a 
shameful part of our history, for we were once the church of 
slave holders. And like the White House, St. John's Lafayette 
Square was built with enslaved labor. Yet, throughout our 
history, our noblest members have fought for the liberation of 
the enslaved, full human and civil rights for all people, and 
to be a church that welcomes all. We have and continue to 
struggle to come to terms with our racist past and legacy and 
that of American society as a whole. We strive to be a voice 
for peace and the fundamental dignity of all human beings, 
knowing that at our most faithful we stand on the side of 
justice.
    We stand today at this critical moment. When non-violent 
protesters began to gather at Lafayette Square, as a church, we 
decided to be present, to add our voice to the call for 
justice, to stand with and minister to all other peaceful 
protesters gathered there. This was, and is, for us an act of 
faith.
    Our ministry was suddenly and forcefully interrupted by 
government officials: first on June 1, when the government 
violently cleared protesters and clergy alike from the area 
surrounding St. John's; and then, in coming days, when the 
government denied us access to the church to conduct a vigil.
    These actions and, in particular, the use of violence 
against peaceful protesters, were antithetical to the teachings 
of the Bible and what we stand for as a church. When our 
government announced its intention to use military force 
against American citizens in the Rose Garden that day, it 
struck me as an escalation of violence that could cause 
unnecessary suffering. Then, to see the government carry out 
that threat moments later, I was horrified. It was dehumanizing 
and in violation of the protesters' rights to be in that space.
    Then, when the President held up a Bible outside our 
church, as if to claim the mantle of spiritual authority over 
what had just transpired, I knew that I had to speak. Nowhere 
does the Bible condone the use of violence against the 
innocent, especially those who are standing up for justice. It 
was a misappropriation of scripture, and a usurpation of our 
sacred space.
    I raise these issues to call attention to an abuse of power 
on the part of our government, which is also at the heart of 
the larger struggle for racial justice. While it is true there 
have been instances of vandalism at St. John's in recent weeks, 
we cannot let those events and others overshadow the 
fundamental cause of justice.
    People across our Nation are united as never before in 
recognizing that the way we police our communities needs to 
change. The way we treat people of color in this country needs 
to change. Yes, we care deeply about our churches as buildings. 
But in the end, buildings can be rebuilt, windows can be 
replaced, pillars can be repainted. We can never bring back the 
lives that have been lost due to horrific police violence.
    These deaths are the true outrage. George Floyd, Breonna 
Taylor, Elijah McClain, and so many more. I don't want anything 
that has happened at St. John's, either before the protests or 
in the weeks since, to distract us from that fact. Black lives 
matter, and our faith compels us to seek equal justice for all 
people.
    Thank you, and I look forward to answering any questions 
you might have.

    [The prepared statement of Reverend Budde follows:]
   Prepared Statement of Right Reverend Mariann Budde, Bishop of the 
                    Episcopal Diocese of Washington
    Chairman Grijalva, Ranking Member Bishop, and members of the 
Committee, thank you for the opportunity to testify today. My name is 
Mariann Budde. I serve as Bishop of the Episcopal Diocese of Washington 
and as the spiritual leader of the Episcopal Church in Washington DC, 
which counts among its parishes St. John's Episcopal Church in 
Lafayette Square. I appear today to express my deep concern about the 
events of June 1, 2020, when our government resorted to acts of 
violence against peaceful protesters and prevented clergy and lay 
members of the Church from exercising their ministry on the St. John's 
grounds and in surrounding areas.
    We, in the Episcopal Church, believe that the issues of racial and 
social justice are core tenets of the Christian faith. The Bible 
teaches that all human beings are created in the likeness and image of 
God. As children of God, all must be treated with equal dignity and 
respect. Embedded in our Nation's history and institutions is the 
shameful abuse of Black Americans and other persons of color justified 
by the sinful notion of white supremacy--that whiteness is the human 
standard from which all other human beings deviate or are deemed less 
than human, less worthy of equal treatment as the beloved children of 
God that they are. As Christians, we are called by God to rectify that 
injustice. Our faith compels us to join the hundreds of thousands of 
people across the country and around the globe who have engaged in non-
violent protests to call for an end to racist policies and practices, 
and to say clearly, with one voice, that Black Lives Matter.
    For Episcopalians, the issue of racial justice is a shameful part 
of our history, for we were once the church of slave holders. St. 
John's Lafayette Square was built with enslaved labor. Yet, throughout 
our history, our noblest members have fought for the liberation and 
full inclusion of all people. We have and continue to struggle to come 
to terms with our racist past and legacy, and that of American society 
as a whole. As we grapple in these times with this complicated history, 
we strive to be a voice for peace and the fundamental dignity of all 
humans, knowing that, at our most faithful moments, we have stood on 
the side of justice.
    And so we stand today, at this critical moment. When non-violent 
protestors began to gather at Lafayette Square, as a Church, we decided 
to establish a presence at St. John's Lafayette Square to add our voice 
to the call for justice and to stand with and minister to all other 
peaceful protestors gathered there. This was, and is, for us an act of 
faith. But our ministry was suddenly and forcefully interrupted by 
government officials--first on June 1, when the government violently 
cleared protestors and clergy alike from the area surrounding St. 
John's Lafayette Square, and then in the coming days, when the 
government denied us access to the church to conduct a vigil.
    These actions, and in particular the use of violence against 
peaceful protesters, were antithetical to the teachings of the Bible 
and what we stand for as a Church. When our government announced its 
intention to use military force against American citizens in the Rose 
Garden that day, it struck me as an escalation of violence that could 
cause unnecessary human suffering. Then to see the government carry out 
that threat moments later--tear gassing Americans engaged in peaceful 
protests--I was horrified. It was dehumanizing, and in violation of the 
protestors' right to be in that space. Then, when the President held up 
a Bible outside of our church, as if to claim the mantle of spiritual 
authority over what just transpired, I knew that I had to speak out. 
Nowhere does the Bible condone the use of violence against the 
innocent, especially those who are standing up for justice. This was a 
misappropriation of scripture, and a usurpation of our sacred space.
    I raise these issues to call attention to an abuse of power on the 
part of our government. While it is true that there have been instances 
of vandalism at St. John's in recent weeks, we will not let these 
events and others overshadow the fundamental cause of justice. Never 
before in the history of this country have we been so united in 
recognizing that the way we police our communities needs to change. The 
way we treat people of color in this country needs to change. It would 
be unforgivable to allow this moment to slip away because our building 
was damaged. We care deeply about our churches--many of which are older 
than our Nation itself. But in the end, buildings can be re-built. 
Windows can be replaced. Pillars can be re-painted. We can never bring 
back the lives that have been lost due to senseless police violence. 
George Floyd. Breonna Taylor. Elijah McClain. And so many others. Their 
deaths are the true outrage, and I don't want anything that has 
happened at St. John's--either before the protests or in the weeks 
since--to distract us from that fact. Black Lives Matter, and our faith 
compels us to seek equal justice for all people.
    I look forward to answering your questions.

                                 ______
                                 

    The Chairman. Thank you all for the testimony. Let me now 
turn to the questions and recognize Mr. Huffman for any 
questions he might have.

    Mr. Huffman. Thank you very much, Mr. Chairman, and thanks 
so much to the witnesses for a great testimony. I want to begin 
by taking issue, respectfully, with the Ranking Member's 
mocking of the title of this hearing. The hearing is titled, 
``The U.S. Park Police Attack on Peaceful Protesters at 
Lafayette Square.'' That is not dramatization; that is fact. 
That is exactly what happened.
    And if there was a shred of evidence to support the 
gaslighting counter-narrative that we have heard from this 
Administration, I would think that the gentleman across the 
aisle would have called a fact witness to offer that narrative. 
We have a very thoughtful explanation of the legal framework 
from Professor Turley.
    Thank you, Professor, for that. We didn't get any fact 
witnesses to support this gaslighting. And I think that speaks 
volumes.
    Before we get into further questions, I want to express my 
disappointment that, at least so far, our friends across the 
aisle apparently no longer have the same concern about heavy-
handed police tactics, militarization, and other police abuse 
by Department of the Interior agencies, concerns they used to 
speak passionately about when Barack Obama was President. 
Apparently those concerns disappeared when Donald Trump became 
President.
    But some of us are old enough to remember the hearings that 
the Republican Majority held in 2013 and 2014 entitled--and now 
we are talking about those incendiary titles we used to see--
entitled, ``Threats, Intimidation, and Bullying by Federal Land 
Managing Agencies.''
    And at the time, one of our Republican colleagues 
described, and I quote, ``These type of very heavy-handed, 
SWAT-like teams with non-DoJ agencies being used as the tip of 
the spear for Federal law enforcement,'' he called it ``heavy 
handed, intimidating to the American people,'' and said it 
threatened the trust that is so important between American 
citizens and their government. That was 2014, after an all-
White armed militia gathered to stop Federal land agency law 
enforcement from confiscating Cliven Bundy's cattle, which he 
had been illegally grazing for 20 years.
    Law enforcement backed down because of that heavily armed 
militia protesting. But at the time, and then again in 2016, 
during the armed occupation of the Malheur National Wildlife 
Refuge in Oregon by a similar group, an angry White, heavily 
armed group of protesters, we heard a very different tune about 
Federal policing tactics from congressional Republicans.
    Some of them introduced legislation to eliminate law 
enforcement authorities from the BLM and the Forest Service on 
the grounds that these agencies were, ``armed to the teeth.'' 
They described armed police at Department of the Interior 
agencies as, ``dangerous, unnecessary, and sending the wrong 
message.''
    Some of our Republican colleagues on this Committee were 
co-sponsors of that bill. Talk about defund the police. 
Republicans in Congress were eager to do exactly that to make 
sure that folks like Cliven Bundy could continue breaking the 
law with impunity.
    Fast forward to the peaceful protests for racial justice at 
Lafayette Square. Peaceful, unarmed protesters were met with a 
DOI police response far more aggressive, far more militarized, 
and far less necessary than anything used against those White 
militias in 2014 and 2016.
    As our witnesses confirm, as any objective person viewing 
the video knows, heavily armed U.S. Park Police carried out 
orders to use chemical agents and other forceful means to clear 
protesters so that Donald Trump could have a weird photo op 
with someone's Bible. Most people would consider this heavy 
handed, intimidating, dangerous, unnecessary, sending the wrong 
message, all those exact terms that our Republican colleagues 
used to describe police tactics against White militias when 
they were defending lawbreaking ranchers in 2014 and 2016.
    I am disappointed that we don't have the same level of 
concern from our colleagues across the aisle. But we haven't 
heard from many of them, so maybe we will hear it. It is 
important that they not be silent or openly supportive of this 
heavy-handed, militarized police abuse directed at Black 
people, and those supporting them, who were peacefully 
protesting for racial justice.
    What is so different about the situation today? The 
President, the people protesting, and their cause. For our 
witnesses today, please know there are many Members of Congress 
and people across this country who stand with you and support 
your rights to protest injustice. This should not have happened 
to you. And we are committed to exercising our oversight 
authority, even if some of our colleagues are now sanguine, 
content with their double standard, standing with President 
Trump to the bitter end.
    I yield back.
    The Chairman. The gentleman yields. The Chair recognizes 
Mr. McClintock.
    Sir, the time is yours.
    Mr. McClintock. Thank you, Mr. Chairman. I think we need to 
make a distinction between the right to peaceable assembly, 
which is sacred and protected under our First Amendment, and 
violence, arson, and vandalism, which is not so protected. I 
think we have a video of damage done in Washington, DC in the 
days leading up to this. I wonder if we could play that.
    [Video shown.]
    Mr. McClintock. These were the events leading up to the 
incident on June 1. The Secretary of the Interior described the 
situation they were facing thusly: Beginning on Saturday, May 
30, 2020, the U.S. Park Police were under a state of siege, and 
routinely subject to attack by violent crowds.
    The incidents are numerous, and include U.S. Park Police 
officers having their police cars vandalized, being subject to 
bombardment by lighted flares, Molotov cocktails, rocks, 
bricks, bottles, and other projectiles, and physical assault so 
violent that, to date, over 50 area law enforcement officers 
have been injured, including one U.S. Park Police officer so 
violently attacked that he required emergency surgery.
    To describe what happened in Washington, DC as ``mostly 
peaceful protests,'' I think, is a lot like describing Scott 
Peterson as a ``mostly faithful husband,'' or Al Capone is a 
``mostly law abiding businessman.''
    Professor Turley, what are the responsibilities of peaceful 
protesters when a protest turns violent?
    Mr. Turley. Thank you, Congressman. The way that the courts 
have addressed this is that they recognize that these protests 
are, in fact, the display of a First Amendment right: free 
speech. However, the courts have said that areas can be cleared 
for unpermitted demonstrations if warnings are given, and they 
are not heeded, as long as the demonstrators have an avenue by 
which to exit, which actually didn't occur----
    Mr. McClintock. Well, let me ask you this. What are the 
responsibilities of truly peaceful protesters when an assembly 
has been declared unlawful?
    Mr. Turley. At that point, when they are asked to leave an 
area, they are required by law to leave. And that doesn't go to 
the means by which you can move them, but it certainly means 
that the order itself to disperse is likely to be held as 
lawful. And courts also do allow for that perimeter to be 
pushed back if you are assembling something like a fence. How 
far that parameter should be established the courts look at. 
They often look at--for example, the Park Police often 
establish the parameters----
    Mr. McClintock. And that would be a legal question to be 
examined by the courts. What course of action would you 
recommend to Congress?
    Mr. Turley. I am sorry, sir?
    Mr. McClintock. What recommendation would you make to 
Congress?
    Mr. Turley. I think that Congress needs to ask a number of 
questions. I have listed 10 that are standard questions that 
are used in protest cases, including the essential evidence 
that we often look at--things like running resumes to determine 
what orders were given and when. I encourage Congress to do 
that.
    They also should take a look--and the court will--at the 
level of damage and violence on the other side. The government 
has argued that 100 officers in the area had been injured, and 
the Park Police say that 50 of their own officers had been 
injured. That is a very high level of injury rate for law 
enforcement.
    Mr. McClintock. Thank you.
    The Chairman. Thank you. Let me ask the Chairman of the 
Energy and Mineral Resources Subcommittee, Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair. And I want to thank 
all the witnesses for attending, taking their time to share 
their experiences while they were there.
    You know, before I came to Congress and was an elected 
official, I worked as a community organizer and also as an 
activist in my community. And I know that there is a certain 
amount of risk that is always involved when you stand up for 
what you believe is right, for protesting, for speaking out.
    My question is to each of the panelists. First to Mr. 
McDonald.
    Why did you feel that it was worth that risk to be at 
Lafayette Square that day? And why was it important for you to 
be there?
    Mr. McDonald. Well, George Floyd was just 46, 47 years old. 
I am 39. I will be 40 this year. So, I believe him dying--it 
affected my life. So, I just wanted to make sure I was down 
there, being a part of a peaceful protest to voice inequity, 
injustice in the Department against Black people. I felt it was 
my duty to be down there, and I had a chance to be down there. 
I never had a chance to be at another protest, ever. So, I took 
it upon my duty to go down there and make sure I was protesting 
for George Floyd.
    Dr. Lowenthal. Thank you.
    Ms. Brace, as a reporter, why did you feel that it was 
important for you to be there that day?
    Ms. Brace. As I mentioned in my opening statement, it is 
imperative to democracy that journalists be on the ground. 
Journalists can't work remotely. We can't see what is happening 
on the front line of an incident if we are standing a block 
away. So, in order to fulfill our role in democracy, we have to 
be standing right in the middle.
    So, I think where we were was incredibly important in terms 
of telling the story of what happened that day.
    Dr. Lowenthal. Thank you.
    And, Bishop, while you were not physically present, you 
were supportive of people in your diocese who were there, and 
you have spoken out here, today, and publicly about it.
    Why was it important for them to be there?
    And why was it so important for you to speak out?
    Rev. Budde. The issues of racial equity and justice are 
fundamental to the Christian faith, and they are of primary 
importance now in our country, when the inequities, 
particularly in policing, have become so blatant.
    To be honest, I couldn't have stopped my members from 
coming, because they were so determined to add their voice and 
their presence to the gathering of non-violent protest.
    What we wanted to do, as well, was to acknowledge our 
presence, to stand with people, and also to offer whatever we 
could to ensure greater safety, providing hand sanitizers, 
water, and masks, even, to make sure that whatever we did 
contributed to the public good, while we were making our 
statement in support of a change in racist practices and 
policies.
    Dr. Lowenthal. Well, I want to thank all of you for sharing 
your stories, why you were there, and your motivations for 
being there, all of this, which is protected under the 
Constitution. I also have very important questions about the 
events for the Administration, and I am very concerned that no 
one in the Administration has shown up today to answer the 
questions.
    But Mr. McDonald, Ms. Brace, Bishop Budde, I want to thank 
you for standing up for what is your constitutional right to 
stand up for, and for standing up for just what is right and 
just today. And I am glad that you spoke out on June 1, and 
that you are speaking out today. I really appreciate your 
testimony.
    With that, I yield back.
    The Chairman. The gentleman yields back, and let me turn to 
the Ranking Member, Mr. Bishop.
    Mr. Bishop. Thank you. And I was grateful to see Mr. 
Lowenthal by video there. In comments that I was doing, unless 
you are trying out for the role of Grizzly Adams, I expect you 
to be without a beard when you come back here. Deal?
    Dr. Lowenthal. Almost a deal. I will take that----
    Mr. Bishop. Whatever, whatever, all right.
    Dr. Lowenthal [continuing]. And ask you to grow a beard.
    [Laughter.]
    Mr. Bishop. You would be enthralled with it.
    So, look, in light of the statements that were made by Mr. 
Lowenthal and Mr. Huffman, as well, even though the 
Administration was willing to come and testify, but was not 
necessarily allowed in the timeline that the Democrats decided 
to do, let me ask at least to put into the record--to give some 
element of balance to this.
    First, a statement by the Park Police. This is by Chief 
Monahan, detailing what he was doing, which includes the fact 
that 50 police were injured, and it verifies that there were 
three warnings that were issued at that time.
    Also, a statement by the National Park Service that goes 
into the memorials and statues that have been vandalized in 
recent weeks--as of last week, anyway--for the NPS, especially 
here in the District of Columbia.
    And if I could, I ask unanimous consent to have those 
placed in the record.
    The Chairman. Without objection, so ordered.
    Mr. Bishop. Thank you. And I also would have appreciated 
the questions of Mr. Huffman, but they weren't actually 
questions. The two issues that he mentioned that took place 
back in the West were dismissed legally because of excesses by 
the prosecution of the Park Service at that time--I admit 
that--which is the question that we have at hand here, which, 
unfortunately, this hearing will not go to, because we do not 
have any of the Administration witnesses allowed to be here, 
which could answer those.
    We do have you, Mr. Turley, and I appreciate your 
willingness at short notice to come in here and try to be an 
impartial voice, or at least a voice that is set aside from 
personal involvement within this particular situation. 
Actually, you are the only one that is doing that.
    So, let me just go about the concepts of protests. We know 
that the First Amendment guarantees every citizen the right to 
peaceful assembly. Can you define what that peaceful assembly 
would look like, very briefly?
    Mr. Turley. Well, peaceful assembly means that you cannot 
be stopped from appearing at a demonstration, a protest, a 
gathering, and particularly speaking against the government, as 
long as you comply with the Federal and State laws. It does not 
give you a license to violate laws. It, obviously, doesn't give 
you a license to commit arson or any other crime.
    It also does not give you license to be in an un-permitted 
space if you are given warnings and opportunity to leave. That 
is the position of cases like Barham and Chang that I go 
through in my testimony.
    Mr. Bishop. And what you did is you simply elaborated where 
there is a constitutional limit that can be placed on those 
particular rights.
    Mr. Turley. Well, there are limits on--there are no 
absolute rights in the Constitution. And the courts actually 
have handed down some really, I think, quite profound opinions 
on this. The Supreme Court has talked about how important it is 
to give breathing room to free speech and protest, but has also 
said that this not an absolute right. This is a right that is 
enjoyed within the confines of Federal and State law.
    Mr. Bishop. So, I think you did this in your opening 
statement, and also in your written testimony. But in, like, 15 
seconds or so, can you just re-identify the facts, the 
conditions that would legally permit law enforcement to 
disperse an assembly like happened on H Street?
    Mr. Turley. Right. The park, actually, had been--the day 
before, the Park Police had already cleared the immediate park 
area. When we talk about Lafayette Park, we are talking about a 
larger area now. And the question was can they push forward 
that perimeter in order to establish a fence line?
    In my view, a court is likely to find that order to be 
lawful, because of the degree of property damage, the injuries 
to the officers. That order is likely to be upheld. The 
question is the means used--was this done properly?
    Mr. Bishop. Right, and let me go into that, specifically.
    Mr. Turley. Right.
    Mr. Bishop. Because there is the allegation floating out 
there that this was done for a photo op. I think you mentioned 
something in there. Can you make a firm connection between the 
actions and the photo op opportunity, or were they things that 
just happened to be in a similar time frame?
    Mr. Turley. Well, on the current record, this appears to be 
a case of correlation without causation. The Attorney General, 
the head of the Park Police, and others have said that this 
plan was actually approved 48 hours in advance. They presented 
evidence that the operation itself was delayed because of the 
fencing and reinforcements that were brought forward. And they 
have denied knowledge of the photo op when these orders were 
given.
    Mr. Bishop. You had 3 seconds, and you did that very well. 
Thank you, sir. There may be other questions we have for the 
record, but my time is up.
    Mr. Turley. Thank you.
    The Chairman. Let me recognize Mr. Gallego, Chairman of the 
Subcommittee for Indigenous Peoples of the United States. Mr. 
Gallego.
    Mr. Gallego. Thank you, Mr. Chairman. And for the record, I 
actually have been pepper-sprayed. I have done gas--all for 
training in the military, by the way--pepper spray, gas 
training, gas mask training numerous times, probably, like, 
eight times in my life, as well as I have had rifle control 
training with the United States Marine Corps. So, I do have 
some experience, both in the uses of batons, formations, as 
well as--the most important thing that they also taught us is 
de-escalation.
    Mr. McDonald, what was your rank when you were in the Navy?
    Mr. McDonald. I was a yeoman.
    Mr. Gallego. OK. What type of training did you receive, if 
any, in terms of dealing with civilian situations?
    Mr. McDonald. We didn't really deal with de-escalation.
    Mr. Gallego. OK.
    Mr. McDonald. This was 1999. We didn't have a----
    Mr. Gallego. OK. Well, thank you, sir, for your service, 
and thank you for participating in the Black Lives Matter 
protests, because it does matter.
    Mr. Turley, you talked about a legality of the Park Police 
being able to clear the area. Do you have background in the 
necessity or the requirement of de-escalation?
    Mr. Turley. Well, there is training on de-escalation. My 
only background, as I note, is counsel in protest cases.
    Mr. Gallego. Yes----
    Mr. Turley. I don't have your experience of dealing 
directly with things like these chemicals.
    But all the departments that I know of, certainly ones I 
have encountered, are supposed to be trained in de-escalation.
    Mr. Gallego. OK.
    Mr. Turley. And that goes to--the area that I think it 
would be useful for the Committee to make an inquiry on really 
was captured in the video when you see the line move rapidly 
forward.
    Mr. Gallego. Right.
    Mr. Turley. If I was counsel, I would look at that, as to 
why the line moved. And also at what point was the last warning 
given before the line moved forward at that rapid pace.
    Mr. Gallego. I will come back to that.
    Ms. Brace, did you hear any warnings?
    Ms. Brace. No.
    Mr. Gallego. When you were attacked by this police officer, 
were you resisting?
    Ms. Brace. No.
    Mr. Gallego. Was your cameraman resisting?
    Ms. Brace. No.
    Mr. Gallego. You had your back to them, if I remember, and 
you were fleeing.
    Ms. Brace. That is correct.
    Mr. Gallego. Mr. Turley, as a lawyer, what was that Park 
Police officer doing when he was attacking a fleeing protester?
    Ms. Brace. As I have said, I think that that attack was 
unlawful. From the video, it seems clear to me that any officer 
could have seen that the Australian journalists were, in fact, 
journalists. They identified themselves correctly as 
journalists. I thought I saw media credentials on them. But 
also, they knew that there were journalists in the area.
    So, this one doesn't strike me as a very close call. This 
was----
    Mr. Gallego. And I am not trying to be rude, I just want to 
make sure I get my questions in.
    Mr. Turley. Sure, of course.
    Mr. Gallego. Mr. McDonald, did you hear any warning sounds?
    Mr. McDonald. No.
    Mr. Gallego. Ms. Brace, in the days before that, had you 
heard warnings before, while you were in the protest zone?
    Ms. Brace. Not that I can recall.
    Mr. Gallego. Not--OK. What was the reaction in Australia to 
this?
    Ms. Brace. There was certainly alarm about what was seen. 
As I mentioned, the Australian Government immediately became 
involved, contacting the Ambassador here, and calling for an 
investigation.
    Mr. Gallego. What was the public, though--you know, 
Australia is one of the Five Eyes, one of the nations that we 
always share our intelligence with, because we trust them so 
much, because we have fought and bled with them for almost 
every war since World War I. What was the Australian public 
thinking when they saw this attack happening?
    Ms. Brace. Well, as I said, it played out live to our 
audience. There was certainly alarm and concern, which I think 
then morphed into outrage, obviously, given that Australia also 
puts the freedom of the press at a level of significant 
importance.
    Mr. Gallego. Thank you. One of the things that, Mr. 
Chairman, I would like to get hold of is the training manual 
for these Park Police officers, because when I was in the 
Marine Corps and we did riot control training--I never would 
have ever been told to rush forward with your batons swinging.
    No. 1, it escalates the situation to the point where you 
could create a stampede of people, it is very dangerous.
    No. 2, it actually is tactically stupid to do that, because 
your lines are exposed. Right? So, the only reason you would 
actually move in that manner is for pure intimidation, which is 
not the purpose of a deterrent front, which is what you are 
trying to do. You are trying to keep people away.
    As a matter of fact, the way to have done it is to go down 
the line and move slowly and slowly and slowly. That would have 
actually allowed the protesters time to understand what is 
going on. They would have actually had the opportunity to 
escape, like Mr. Turley said, and probably not have made this 
all illegal. But there was a purpose to this all, and the 
purpose to this all was to show, ``law and order'' for the 
President before he came out to hold his photo op with a Bible.
    With that, I yield back my time.
    The Chairman. The gentleman yields.
    Mr. Fulcher, you are recognized, sir.
    Mr. Fulcher. Thank you, Mr. Chairman. In listening to the 
testimony and seeing the video thus far, it appears like there 
is no monopoly on blame here. But I would like to just make 
absolutely certain that we get the entire story.
    I think we have a video that shows some assaults on law 
enforcement. If we have that, can we play that, please?
    [Video shown.]
    Mr. Fulcher. In my remaining time, first of all, I had the 
opportunity to travel, work, and be in a lot of nations around 
this world, a lot of them where rule of law is not enjoyed. 
And, generally speaking, their lack of prosperity reflects 
that. That is why this entire situation is so incredibly 
troubling to me.
    I would like to ask Mr. Turley. As unfortunate as it is, 
from a legal perspective can you define what peaceful assembly 
looks like? What are the parameters of that? And where does it 
cross the line from not being legal?
    Mr. Turley. Right. This touches on the earlier question. 
Where courts tend to define what constitutes peaceful is often 
as a result of determining qualified immunity decisions. That 
is, was the officer correct in the use of the level of force in 
the case?
    And the courts have said that they defer to officers 
because of what they--the court--refer to as making split-
second judgments, they are tense, uncertain, and rapidly 
evolving. That is how the Supreme Court referred to it, I 
believe, in Graham.
    So, what the courts look at is whether protesters ignored 
orders to disperse, and whether they were obstructive or 
violent. And this gets to that critical period, which I think 
this Committee is going to have to look at, of that period 
after the warnings were given, before the line moved forward, 
what were those officers facing. And that is what a court will 
do. And a court is going to demand very clear evidence on both 
sides to determine whether that could be defined as a peaceful 
situation, where this is not warranted, and the police 
escalated it, or whether they were responding to a threat to 
their safety or the safety of others.
    Mr. Fulcher. Thank you for that. And then, just quickly, 
there is one other thing I would like you to address with us, 
if you could.
    Assuming we can get some good dialogue, some peaceful 
dialogue here, step us through, very quickly, the legal process 
for how should we be doing this? If we want to change some of 
these monuments, how should we be doing that?
    Mr. Turley. Well, first of all, there have been great 
suggestions in both houses about police reforms, including 
having a national database of the issues that many of us have 
raised in the past.
    But in terms of this incident, I gave 10 questions that 
would be a useful start for this Committee. It would get you 
the base information you need, including actual calls made by 
officers, the so-called running resume evidence. In a protest 
case that is the first thing we ask for, is the running resume.
    Also, you have objective sources in the claims of injuries 
to law enforcement officers, injuries to protesters. Those 
things can be acquired.
    The other thing that I encourage you to get at very quickly 
is non-U.S. Park Police agencies and their roles. I can tell 
you, in terms of evidence, that is the stuff I am most 
concerned with. It is the stuff that is most difficult to get. 
And you may be able to get a lead on that by asking for what 
are called MOUs. And MOUs, these memorandums of understanding, 
are often cut with non-Federal agencies or non-Park Police 
personnel. Those may give you an indication of who was involved 
at that scene.
    I can tell you in the Pershing Park case, we started out 
with the Park Police, the DC police, the Secret Service, and 
ended up with a long list of units that we had no idea were 
present.
    Mr. Fulcher. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman yields.
    Mr. Cox, the Chairman of the Oversight and Investigations 
Subcommittee, you are recognized, sir.
    Mr. Cox. Thank you, Chairman. And thank you, all the 
witnesses, for being here today.
    I want to say, Reverend Budde, thank you so much for your 
statement and your testimony. I think you may have turned a 
Catholic into an Episcopalian today, because, I tell you what, 
I am certainly here, as we are all, as Members of Congress, 
because of my faith, as you said so eloquently, to seek 
justice, equal justice, for all people. So, thank you so much 
for that.
    And I want to apologize on behalf of the Committee if you 
were called a vandal, an arsonist, or other pejorative. 
Likewise, Mr. McDonald and Ms. Brace, as well, because you were 
there at Lafayette Square on June 1.
    And Mr. McDonald, I want to thank you for your service in 
the United States Navy. And I am sure when you enlisted, you 
took a very similar oath of office that we did when we took the 
oath of office to be a Member of Congress to protect and defend 
the Constitution of the United States.
    And in that first article, where the Congress will make no 
law to abridge the freedom of speech, or of the press, or the 
right of people to peacefully assemble.
    And, if you could, say why you were there that day, 
peacefully assembled.
    Mr. Cox. I am a Black man. I share the same views of the 
Black Lives Matter movement and everyone who was down there.
    On June 1, it was a peaceful protest from the minute I got 
down there until the minute we were attacked. We were chanting 
for injustice. We didn't hear any warnings to move. And I was 
there strictly to peacefully protest, for my voice to be heard.
    Mr. Cox. You were exercising your rights, your 
constitutional rights----
    Mr. McDonald. Yes, exactly.
    Mr. Cox [continuing]. As a citizen that you had sworn 
previously to uphold. You were exercising those. And do you 
feel that those were abridged that day?
    Mr. McDonald. Can you say that again?
    Mr. Cox. Do you feel that those rights were infringed upon 
that day?
    Mr. McDonald. Yes, most definitely. Absolutely.
    Mr. Cox. And, as an objective citizen from another country, 
Ms. Brace, is that what you saw, as well?
    Ms. Brace. Yes, it is.
    Mr. Cox. Professor Turley, I also sit on the Ag. Committee, 
and I have been taught that if something looks like a duck and 
sounds like a duck and walks like a duck, it is probably a 
duck.
    And the idea that the White House had no idea that day that 
the park had to be cleared is beyond the pale. Just all of a 
sudden that the President is making his speeches, to do 
something right away, and lo and behold, the park gets 
cleared--would he have gone out there to have his photo op if 
the park hadn't been cleared?
    Mr. Turley. What I suggest in my testimony is, first of 
all, I do think you need to establish that, and you can 
establish that. The account from the Attorney General and 
others is that the plan was approved in the morning on Monday. 
The order was issued at 2. There was a delay on fencing and 
National Guardsmen. All that can be confirmed by this 
Committee.
    But that doesn't necessarily answer the question as I 
raised in my testimony. What I would be more interested in, 
unless all those are lies, would be was there any last-minute 
discussion as to whether this should be delayed.
    In my view, it should have been delayed. It should have 
been delayed to the following morning. But it is at that 
juncture, that twilight moment, if I was counsel, that is what 
I would be looking at.
    And also, I would be looking at whether the perimeter size 
pushed to I Street was impacted by anyone suggesting the need 
for the photo op. All of that should be attainable by the 
Committee.
    Mr. Cox. And we will look at that. Thank you so much.
    And we have seen video from Los Angeles and New York and 
Chicago, and video on May 31 and June 26. Is that at all 
relevant to the peaceful protest that was going on on June 1?
    Mr. Turley. No, I don't think a court would take that into 
consideration. A court would consider what happened in 
Lafayette Park in the area the day before.
    Mr. Cox. How about the day of?
    Mr. Turley. No, the day of is the most important criteria. 
There is no question the court will be looking at the 
conditions----
    Mr. Cox. There were painters in the park.
    Mr. Turley. Right.
    Mr. Cox. There were clergy offering medical support and----
    Mr. Turley. Right. The court would be looking at----
    Mr. Cox. A kumbaya moment. I think that is a textbook 
definition of a peaceful assembly.
    Mr. Turley. Yes, I think that the way the court would look 
at it is that what happened the day before justified the order 
to clear the park and establish the fencing, including the 
wider parameter. But then the court, I think, would focus on 
what was actually happening at that moment as to whether the 
level of force deployed was lawful and reasonable.
    And that is where your point, I think, is a salient one, 
and that is where I think this Committee could make some real 
progress in defining.
    Mr. Cox. Thank you so much. And I do have a couple of other 
questions about the secret police, but we will have to get 
those on another day. I yield.
    The Chairman. The gentleman yields. Mr. Gohmert, you are 
recognized, sir.
    Mr. Gohmert. Thank you, Mr. Chairman. I appreciate all the 
witnesses being here. Nobody could see the video of George 
Floyd being killed and not be very moved. No question about 
that.
    And I greatly appreciate the Floyd family urging peaceful 
protests and not violence. That is not what they wanted for 
George's legacy. So, there are important issues that need to be 
addressed here.
    But Mr. McDonald, thank you for your service in the Navy to 
our country. And I see from your statement the ship you were 
stationed on. How long were you in the Navy?
    Mr. McDonald. Nine months.
    Mr. Gohmert. Nine months? Did you run into prejudice in the 
Navy, racial prejudice?
    Mr. McDonald. No, I did not.
    Mr. Gohmert. In your statement, you had mentioned that the 
police stopped pushing forward at the urging of protesters when 
a man had fallen and was being given aid, and they began using 
less lethal force. What was the difference in force before and 
after the individual fell?
    Mr. McDonald. Are you talking about the Black man that fell 
in my statement?
    Mr. Gohmert. Yes.
    Mr. McDonald. Yes, he fell, and we asked the police to 
stop. At that moment they established a perimeter.
    Mr. Gohmert. Right.
    Mr. McDonald. Maybe enough for, like, 6 seconds for us to 
get him up and move him. But the minute we moved him, they 
started running at us. They didn't stop to help us.
    Mr. Gohmert. But what force were they using at that time?
    Mr. McDonald. Their batons and their shields.
    Mr. Gohmert. Baton and shield?
    Mr. McDonald. Yes.
    Mr. Gohmert. OK. And Ms. Brace, obviously, that had to have 
been rather traumatic. Obviously, you and your cameraman came 
prepared with the goggles. With your experience you have been 
in a lot of protests, apparently around the world. I appreciate 
your coverage.
    And having looked back just through June 8, apparently just 
through June 8, there have been 17 people who have died in 
incidents stemming from the unrest from George Floyd's death, 
including David Dorn, David McAtee, Chris Beaty, Dorian 
Murrell, and Italia Kelly. And, of course, I don't know how 
anybody cannot be moved seeing her sister saying she wasn't 
shot by the police, it was one of you, it was one of the 
protesters.
    When protests get out of hand, people get hurt. You are far 
more experienced in these type of protests. Is there a point at 
which you can tell this is about to turn violent at protests?
    Ms. Brace. You can never be certain, obviously. You can 
certainly feel, I guess, tension rising in protests.
    In saying that, I certainly have never had any reason to 
expect violence from the police as working press.
    Mr. Gohmert. But when things get crazy at a protest, you 
can't be sure. Like seeing those bricks being thrown at the 
police recently. If you are a civilian in the way, just like 
Italia Kelly, you may be hit by a protester's brick. It has to 
be hard to tell.
    Ms. Brace. I saw nothing on June 1 that made me feel in any 
way alarmed before that line of police surged forward.
    Mr. Gohmert. Yes. Were you out at the protest the night 
that St. John's had a fire started?
    Ms. Brace. Yes, the night of May 31.
    Mr. Gohmert. Did you see how anybody got into the church to 
start the fires?
    Ms. Brace. No, I didn't.
    Mr. Gohmert. Could you understand why law enforcement might 
be concerned about others getting into the church, either 
legally or illegally, to cause more damage?
    Ms. Brace. I, obviously, can't speak to the motivation of 
the police.
    But as your colleague, Mr. McClintock, pointed out, there 
is an important distinction. I have said in my statement that 
the night before I did see much more widespread chaos. But on 
the day of June 1, in question at the moment, I did not see 
anything that warranted the movement of police that we 
witnessed.
    Mr. Gohmert. Thank you.
    And Bishop Budde, I appreciate your effort at social 
justice. What do you think is the hope for those in Washington, 
DC protesting?
    Rev. Budde. I can't speak for all protesters, but I think 
the moniker, Black Lives Matter, is the way we are expressing a 
collective cry that we have equity in our policing, that Black 
and Brown persons can expect the same level of treatment and 
safety when they are encountering police, and that we have a 
reckoning in this country for all manner of policies and 
practices that would cause Black and Brown people in this 
country to fear for their lives when encountering the very 
people who are meant to keep them safe.
    Mr. Gohmert. Thank you, Bishop.
    And thank you, Mr. Chairman. There were African-American 
ministers that said our hope is in Jesus Christ.
    I yield back.
    The Chairman. The gentleman yields. Let me recognize the 
gentlelady from New Mexico, the Chair of the Public Lands 
Subcommittee, Ms. Haaland.
    You are recognized.
    Ms. Haaland. Thank you, Mr. Chair. Thank you for convening 
today's panel. Thank you to all the witnesses for being here 
today.
    Our colleagues have said it already, but the events of June 
1 will no doubt go down as one of the darkest days of this 
presidency. And that is saying something for a president who 
has put children in cages, protected his friends from 
prosecution, and opened our elections to foreign interference.
    Attacks on the Constitution aren't new for this President, 
but clearing a peaceful demonstration for a photo op with his 
cabinet is an unbelievably new low. While we will rightly focus 
on those actions of June 1, we cannot lose sight of the larger 
moment that we are all in.
    Today's hearing is also about a larger trend of systemic 
racism, in which militarized police intimidate and kill in 
communities of color, while defended from prosecution. The 
President's recent actions brought that excessive force to the 
fore in a new and unconstitutional way, but this is by no means 
an isolated incident.
    And while I respect the work Federal civil servants do 
every single day, there are times they do things our Nation is 
not proud of. In November 2017, the U.S. Park Police murdered 
Bijan Ghaisar just over the river in Arlington, while he drove 
his car. Still, his family has not had justice.
    Earlier this year, in my state of New Mexico, Charles Gage 
Lorentz was driving back to his home in Colorado when he was 
murdered by a U.S. Park Ranger in one of our national parks. I 
spoke to his mother's attorney recently, but I couldn't explain 
why that killer still patrolled one of our national parks, and 
why he hadn't been brought to justice.
    Today, we are here to talk about the President and his 
illegal and unconstitutional actions. But we also need to 
discuss power, to discuss fear, to discuss unequal treatment 
under the law, because we did not choose to live in a society 
where the President wields the power of our government to break 
up peaceful protests, any more than communities of color across 
this Nation choose to live in fear of unequal policing.
    Let's try to understand what breakdown of norms led to this 
horrible injustice of the clearing of Lafayette Square on June 
1. But let's also make sure we keep in mind the culture of 
systemic oppression that allows the same fear and power to 
control and kill in communities across our country. Because, as 
I have stated, this was not an isolated incident.
    Mr. McDonald and Ms. Brace--and Mr. McDonald, you can go 
first, and then Ms. Brace--at any time did you see any Park 
Police or law enforcement officers stop or double back to 
provide medical assistance or facilitate medical assistance 
when somebody was clearly injured?
    Mr. McDonald. No. ma'am.
    Ms. Brace. No, I did not.
    Ms. Haaland. And again, Mr. McDonald and Ms. Brace, do you 
expect law enforcement to provide basic care and/or call 
medical assistance when someone is hurt?
    Mr. McDonald. Yes, I do.
    Ms. Brace. Yes, I do.
    Ms. Haaland. And Mr. McDonald and Ms. Brace, why do you 
have that expectation?
    [Pause.]
    Ms. Haaland. I am sorry?
    Mr. McDonald. [Inaudible] public.
    Ms. Brace. Again, I would expect the police to protect 
civilians and also working media.
    Ms. Haaland. Thank you so much. In fact, part of the 
mission of the United States National Park Police is to protect 
lives. It is to protect lives. That is part of their mission, 
is to protect lives.
    I appreciate all of you being here today.
    The Right Reverend Mariann, thank you so much for your 
calmness, for your heart, and for your leadership in this 
troubled time. I appreciate it very much.
    And Chairman, I yield.
    The Chairman. I recognize Mr. Westerman for your questions, 
sir.
    Mr. Lamborn, you are recognized.
    Mr. Lamborn. Thank you, Mr. Chairman. Let's see. A couple 
of my friends and colleagues on the other side of the aisle 
have talked about how the Park Police wasn't here to present 
any statement or facts. And yet I have been led to believe that 
they were constrained from being here because, like Assistant 
Chief Monahan said in a letter to you, Mr. Chairman, that to be 
on the same panel with a person who is suing them in a case of 
active litigation would make him legally constrained and not 
able to testify at the same time.
    So, I wish you could have structured this hearing today 
where that was not an impediment to hearing from the Park 
Police. I think that would have been very helpful. And that is 
what I ascribe their absence to, is the legal constraints.
    And Mr. McDonald, you have filed suit against the 
Department of the Interior and other parties, haven't you, 
seeking money damages?
    Mr. McDonald. One against Trump, a violation of my First 
Amendment rights.
    Mr. Lamborn. OK, and that includes the Department of the 
Interior.
    Mr. McDonald. ACLU has a lawsuit I am part of for a 
violation of my First Amendment rights.
    Mr. Lamborn. OK. So, Mr. Chairman, I wish you could have 
structured things so that we could have heard from all of the 
interested parties here today.
    Second, I would like to ask unanimous consent to have 
inserted into the record a letter from the Fraternal Order of 
Police, United States Park Police Labor Committee, dated June 
19. This letter was sent to the editor of The Washington Post, 
but they have not seen fit to print this letter. But it 
explains some things from the perspective of the police on the 
Park Police force.
    Mr. Chairman, I would like to insert this in the record.
    The Chairman. Without objection, so ordered.

    [The information follows:]

Submission for the Record by Rep. Lamborn

                        Fraternal Order of Police  
                   U.S. Park Police Labor Committee
                                             Washington, DC

                                                      June 19, 2020

    LETTER TO THE EDITOR:

    The nearly 375 officers of the United States Park Police Labor 
Committee welcome any serious investigation into the events at 
Lafayette Square on June 1st because we know that every one of our 
officers acted with honor and integrity in the face of a very 
challenging and dangerous environment.
    The Post editorial on June 17th entitled ``The U.S. Park Police's 
Reputation is in Tatters'' is unfortunately riddled with unfair 
accusations and assumptions. Here are the fundamental facts that we 
look forward to sharing with legislators and investigators in the weeks 
and months ahead:
    One, George Floyd was brutally murdered in Minneapolis. Not a 
single officer of the United States Park Police believes otherwise.
    Two, protecting the safety and rights of peaceful protesters is at 
the very core of our mission. Park Police officers take great pride in 
our unique role as front line defenders of First Amendment expression.
    Three, while a great majority of the protesters in the area have 
been peaceful, during the weekend of May 30-31 the area surrounding 
Lafayette Square was infiltrated by dozens of violent anarchists who 
took advantage of the protests to destroy property and violently attack 
law enforcement. They threw bricks, frozen water bottles, rocks, road 
flares, explosives and caustic liquids thereby creating a very 
dangerous environment not only for the officers and surrounding 
property, but for the protestors themselves.
    Four, over that weekend 51 USPP officers required medical treatment 
for injuries sustained on duty, including 11 transported to the 
hospital and 3 admitted. Incidentally, our officers would like to 
publicly thank the many protestors who tried to assist the injured 
officers by intervening with those who were launching the projectiles. 
In any event, violence was rapidly escalating and, by the night of May 
31st, the need to erect fencing around Lafayette Square was painfully 
obvious. The tension was intensifying and we were increasingly 
concerned about our ability to safeguard against an all-out riot. Our 
decades of experience in crowd management led us to conclude that the 
installation of fencing would enhance safety for everyone in the area.
    Five, USPP officers followed standard crowd control procedures to 
enable contractors to safely erect the fence on June 1st. Our mission 
was based solely on securing the Square for the anticipated ongoing 
protests and, at the same time, limiting violent behavior that had 
begun to occur. Our officers were not aware of President Trump's 
planned walk through the park until it was already underway.
    Six, the installation of the fence worked and erecting it was the 
right decision. Protestors have continued to express their views and 
the violence has since deescalated. Importantly, since the fence has 
been installed there has been a dramatic reduction in injuries 
sustained by officers.
    Seven, no USPP officer fired CS gas on protestors (peaceful or 
otherwise) during the Lafayette Square incident. There may be video 
evidence of other agencies doing so, but the allegations that USPP 
officers deployed CS gas is patently false.
    Finally, USPP officers understand that policies and procedures can 
always improve. We will certainly support common sense law enforcement 
reform, beginning with enhanced training opportunities for officers. 
Our labor committee is committed to working with our agency and Members 
of Congress to identify new ways to cultivate the special bond our 
officers feel with those who peacefully come to Washington DC for the 
purpose of contributing to democracy.

            Sincerely,

                                           Kenneth Spencer,
                                                         Chairman  
                                                   U.S. Park Police

                                 ______
                                 

    Mr. Lamborn. And then, third, I would like to talk about 
attacks on journalists. I went to journalism school, myself, so 
I am not happy to hear about attacks on journalists, whether it 
is from police or whether it is from protesters. Journalists 
should be able to do their job. I would like to play a video 
called ``Assaults on Journalists.''
    [Video shown.]
    Mr. Lamborn.  [Inaudible] protesters is something that 
should not be part of a peaceful protest. Ms. Brace?
    Ms. Brace. Yes, of course.
    Mr. Lamborn. Mr. Turley?
    Mr. Turley. Yes.
    Mr. Lamborn. And Mr. McDonald?
    Mr. McDonald. Yes.
    Mr. Lamborn. OK. And Mr. Turley, how would incidents like 
we saw in the video, where journalists are being attacked by 
protesters turned into rioters, affect the legality of a 
decision to disperse the protesters?
    Mr. Turley. Well, any violence in the area of Lafayette 
Square is going to be considered by a court as a part of the 
justification for expanding the perimeter, for setting up the 
fence, for clearing the area.
    There was a high level of violence that was being reported 
by the Park Police: 50 officers is a lot of officers to be 
injured, I have to tell you, in a protest case. And if it is as 
high as 100, that is pretty high. And there was, obviously, 
some arson. There was damage to property. I think a court would 
conclude that the protests through that 3-day period were not 
entirely peaceful, and that law enforcement was facing threats.
    Now, as the Member earlier alluded to, the court, in 
looking at the means used to push back the line will look 
specifically at the level of violence at that time. So, I think 
the court is going to consider both, the whole context, in 
other words, of the----
    Mr. Lamborn. Thank you, my time is up.
    Mr. Chairman, could I also insert into the record with 
unanimous consent the letter dated June 24 to you from the 
Department of the Interior explaining Mr. Monahan's ability to 
testify or not.
    The Chairman. Without objection.

    [The information follows:]

Submission for the Record by Rep. Lamborn

                         DEPARTMENT OF THE INTERIOR
                                             Washington, DC

                                                      June 24, 2020

Hon. Raul Grijalva, Chairman,
Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Grijalva:

    Thank you for the invitation to testify before your Committee at an 
oversight hearing regarding the June 1, 2020, interactions between 
protesters and law enforcement at Lafayette Square Park. Your 
invitation has been extended to the Assistant Chief of the United 
States Park Police, Gregory T. Monahan.

    Assistant Chief Monahan would like to accept your request to appear 
before the Committee to present the facts that occurred on the ground 
that evening. However, because of the ongoing protests and accompanying 
violence and destruction of memorials and monuments by some 
individuals, the United States Park Police must currently continue in 
its highest operational status. As you are aware, just two nights ago 
another ``peaceful protest'' led to more violence and destruction in 
the park.

    For this reason, Assistant Chief Monahan offers to appear before 
your Committee after these activities and actions have subsided. At 
this point, we suggest mid- to late July.

    We expect, for this potential hearing, as we would for any hearing 
involving Departmental personnel, that the Committee adhere to the 
long-recognized principle of seating executive branch witnesses on 
their own panel, both as a matter of respect for a co-equal branch of 
government and recognizing the sensitive nature of law enforcement 
matters being discussed.

    In addition, as Assistant Chief Monahan has been named as a party 
in certain lawsuits pertaining to the lawful performance of his 
official duties on June 1, 2020, there are legal interests which will 
necessarily frame the discussion of the events of that day. This 
discussion would be further constrained, if not completely circumvented 
in its entirety, were an adverse party to such a lawsuit also asked to 
testify at that same hearing.

    We look forward to working with the Committee on this issue.

            Sincerely,

                                   Cole Rojewski, Director,
                    Office of Congressional and Legislative Affairs

                                 ______
                                 
    The Chairman. Let me now recognize Mrs. Napolitano for her 
questions.
    Mrs. Napolitano. Thank you, Mr. Chairman. I have a question 
for Ms. Brace. Ms. Brace, did you have a lanyard with media in 
big words, identifying you as media?
    The Chairman. We couldn't hear the question.
    Ms. Brace. I'm sorry, could you please repeat that 
question?
    Mrs. Napolitano. Did you have an identification in the 
front, with a lanyard identifying you as media?
    Ms. Brace. No, we don't like to wear press passes around 
our necks for safety reasons.
    Mrs. Napolitano. OK. Did you hear them use a bullhorn to 
disperse people at all?
    Ms. Brace. No, I did not.
    Mrs. Napolitano. Reverend Budde, the square is very 
adjacent to your church. Am I correct?
    Rev. Budde. That is correct.
    Mrs. Napolitano. Have you ever seen that entire area 
forcibly cleared like it was on June 1?
    Rev. Budde. No, I have not.
    Mrs. Napolitano. Do you have any idea why your church was 
chosen to focus on racial injustice in particular?
    Rev. Budde. My sense is that St. John's Lafayette Square 
has been a place of protest, historically, in the Nation's 
Capital for many years, due to its proximity to the White 
House, and that public space of the actual park where people 
have been allowed to peaceably protest.
    Mrs. Napolitano. Your church has decided to champion racial 
injustice. Why do you feel this is important to the people? Is 
it because of the proximity to the White House?
    Rev. Budde. Well, we took advantage of the proximity of the 
White House to add our voice to the protest that was gathered 
there. All of our congregations across the city and, indeed, 
the entire diocese are committed to racial justice in their 
own----
    Mrs. Napolitano. Well, I commend you for that, because it 
is very important. All lives matter. It is just important that 
we recognize that the injustices to all people of color have 
been going on for many generations, and nothing is going to 
stop it until the word and the change come from the top. And, 
apparently, we don't have the will at the top to do that.
    And then, as President Trump stood for his photo op in 
front of your church holding his Bible, and was about to open 
and read from it, what went through your mind when you saw 
that?
    Rev. Budde. As I have said before, I was outraged. And I 
felt that it was a misuse of both the space and the Bible for 
him to claim in that moment--having just said what was said in 
the Rose Garden and witnessed what we witnessed in the park, I 
felt as if he was putting on a mantle of spiritual authority to 
justify those actions.
    Mrs. Napolitano. Has he issued any memo or any letter, any 
phone call to you, apologizing?
    Rev. Budde. No.
    Mrs. Napolitano. It is important for us to recognize that 
this isn't the first time, and probably not the last time, we 
will have injustices toward people of color. What do you think 
the government must do to anybody to start the motion to 
rectify those officers at the top level for a change in 
attempting to deal with racial issues?
    Rev. Budde. Thank you for asking. It is not my expertise to 
weigh in on how the policy should be changed. But at the very 
minimum, there should be equity and responsibility for illegal 
actions, no matter who is at fault, and that our Black and 
Brown fellow citizens should be able to feel the same degree of 
security and safety that White Americans feel when encountering 
police.
    Mrs. Napolitano. Ms. Brace?
    Ms. Brace. Again, I don't presume to come here to tell the 
American people how to run their police force or the 
government, but I would expect for peaceful protesters to be 
allowed to peacefully protest, and for the media to be able to 
safely cover such events.
    Mrs. Napolitano. Mr. McDonald?
    Mr. McDonald. I think the bottom line is just respect the 
Constitution and how it was drafted up. I think we wouldn't 
have a problem with overall policing. I am here to talk about 
what happened June 1. If they had just honored our rights to 
peacefully protest and freedom of assembly, we wouldn't have 
any issue at all.
    Mrs. Napolitano. Thank you all for testifying, and I yield 
back.
    The Chairman. The gentlelady yields. Let me recognize Mr. 
Westerman. Sir, you are recognized.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you to 
the witnesses for being here today. I can say that I heard your 
personal testimony. It angers me to think what happened to you, 
and your firsthand account of the things that went on. And part 
of the function of oversight is to make sure that the law is 
being carried out, that justice is administered, and, if it is 
not, that we rectify that. So, it is important to have 
oversight hearings like this.
    Also, I realize that your firsthand accounts were bits and 
pieces of a bigger story. And I think that there is more for us 
to learn that we can't learn from the meeting here today. And I 
think there are voices that aren't being heard, and we need to 
hear all voices and find out where the real problems are.
    I have a letter here from the Federal Law Enforcement 
Officers Association. It says, ``While otherwise peaceful 
protests were co-opted by radical groups focused on destruction 
versus dialogue, Federal law enforcement officers were thrust 
into roles of protecting and preserving the safety of not only 
city streets, but also our Nation's monuments, and our history 
that we all hold dear.''
    They went on to further say, ``No clearer was that role 
than here in Washington, DC, where Lafayette Park was besieged 
by radical and violent groups of individuals. These are the 
same individuals that set fire to and vandalized St. John's 
Church, attacked and vandalized monuments in and around our 
Nation's Capital, including the World War II memorial, a 
tribute to an entire generation of Americans that kept our 
world free, and then attacked the very law enforcement officers 
that were originally sent there to monitor and ensure the 
safety of the individuals peacefully assembled.''
    Much of this work fell to the officers of the U.S. Park 
Police. These brave men and women came under daily, almost 
hourly attacks from unpeaceful and violent rioters, and were 
constantly pelted with frozen bottles of urine, fireworks, 
bricks, stones, street pavers, and all manner of other unknown 
substances. Other Federal law enforcement officers, including 
the uniformed division of the Secret Service, various DoJ 
entities, and officers from the Metropolitan Police Department 
joined the U.S. Park Police at times to try to quell the 
violence, stop the destruction, and allow the voices of the 
peaceful protesters to be heard.
    Mr. Chairman, I would like to submit this to the record.
    Mr. Lamborn referred to a letter, or an Op Ed from the 
Fraternal Order of Police that was denied publishing in The 
Washington Post to counter an article that the Post put out. 
And they said here that over the weekend 51 U.S. Park Police 
officers required medical treatment for injuries sustained on 
duty. And it goes on and on.
    What I am saying is there is another side of this story, 
and we need to hear all of that. And there is an investigation 
being taken on by internal affairs at the Park Police, and also 
by the Inspector General at the Department of the Interior. I 
wish we could have waited until we had that evidence, and we 
could get more witnesses here to be heard.
    That being said, I have no reason to doubt what you are 
saying. And I think we have to take an open look at these 
things, going forward.
    Mr. Turley, if indeed those members of the Park Police were 
injured, transported to hospital, all these things going on, in 
your opinion was it legal for the Park Police to clear 
Lafayette Park?
    Mr. Turley. I think a court would likely say that it was a 
lawful order to clear the park. As I say in my testimony, they 
had all the elements, particularly if they gave the three 
warnings and an opportunity to disperse. That doesn't answer 
the secondary question of the level or means used.
    I also have to say that when I saw the figures of the 50 
injured Park Police officers, the claim of 100 injured Federal 
officers, I was quite surprised. That is a very high number of 
injuries. So, I think a court would probably approach this 
question--without saying that this was an entirely peaceful 
protest--to the contrary, I think the court would recognize 
that there were security issues that were valid for the 
Administration. I think the court would likely say that the 
original order was lawful, and then would focus in, as I talked 
about, on that critical period. And what concerns me the most 
is that critical----
    Mr. Westerman. I am going to have to move on here.
    So, finally, we talk about the Christian thing to do, 
certainly to work for justice and equality. I believe that and 
try to practice what the Bible teaches. But it also talks about 
being in subjection to governing authorities. Paul said that. 
Peter said to commit yourself, for the Lord's sake, to every 
human institution. Even Jesus, when he was prodded to rebel 
against the government, said, ``Render unto Caesar what is 
Caesar's.''
    And I would just like to ask the Bishop, do you believe 
that it is a Christian's duty, when working for justice and 
equality, to follow the law, and submit to those in authority, 
and condemn violence and unlawful acts, such as rioting and 
arson?
    Rev. Budde. I absolutely believe that it is necessary to 
condemn violence and arson. But I also would take issue at an 
interpretation of scripture that does not include the long 
legacy of the struggle for liberation and freedom, and the 
opportunity, when given time and time again, the scripture 
tells us that we must obey the laws of God and not the laws of 
men, especially when they are unjust.
    So, particularly in a democracy, we have a fundamental 
responsibility to ensure that the laws are just, and that they 
are justly enforced by those who are entrusted with the sacred 
responsibility of overseeing the governance of our people.
    Mr. Westerman. Are you saying laws against violence and 
arson are unjust?
    Rev. Budde. I am not.
    Mr. Westerman. I yield back.
    The Chairman. The gentleman yields. Let me recognize Mr. 
Levin for his comments, questions.
    Mr. Levin. Thank you, Chair Grijalva, and thank you to 
today's witnesses.
    In particular, I want to thank you, Bishop Budde, for your 
testimony. My family attends St. Margaret's Episcopal Church in 
San Juan Capistrano, California. So, it is very meaningful to 
have you here today.
    Chair Grijalva, I would like to ask for unanimous consent 
to enter into the record a Washington Post article contributed 
by Reverend Gini Gerbasi, Director at St. John's Episcopal 
Church in Georgetown.
    Bishop Budde, as you know, Reverend Gerbasi was at St. 
John's Church in Lafayette Square the evening of June 1. Her 
description of the scene is powerful. As she wrote, she got to 
the church around 4 p.m. that day to, as she puts it, offer 
peaceful and prayerful support to the protesters. She describes 
the scene as upbeat and peaceful. She wrote, ``My colleagues 
and I passed out water and snacks. People exchanged prayers and 
elbow bumps. Things were so calm that, by 6 p.m., most of my 
colleagues had left.''
    Bishop Budde, do you have any reason to believe that 
Reverend Gerbasi was not being truthful in her description?
    Rev. Budde. Absolutely none.
    Mr. Levin. Mr. McDonald and Ms. Brace, does this 
description generally align with the scene you saw, as well?
    Ms. Brace. Yes, it does.
    Mr. Levin. Mr. McDonald and Ms. Brace, did any of the 
videos my Republican colleagues played look like the scene at 
Lafayette Square on June 1 before police attacked?
    Mr. McDonald. No, it did not.
    Ms. Brace. No, they did not.
    Mr. Levin. In fact, as Reverend Gerbasi writes on, ``We see 
that the scene of peace and camaraderie dramatically changes 
around 6:15 p.m., as the officers move from Lafayette Park into 
the street.'' After hearing the first loud bang of a flash 
grenade, she describes, and I quote--``yelling and panic.'' And 
then she says, and I quote--``I couldn't believe my eyes. A 
wall of police, full riot gear, was physically pushing people 
off the St. John's patio, maybe 15 feet away from me.''
    So, we have a firsthand account of U.S. Park Police 
answering peaceful protests with brutality, which was the 
subject of the protests to begin with.
    Bishop Budde, when you heard that Reverend Gerbasi and her 
colleagues were being physically pushed off St. John's patio, 
what went through your mind?
    Rev. Budde. I was stunned and horrified and concerned for 
their safety and the safety of all of those who were gathered. 
And like others who have expressed their civic response, I was 
outraged that the Park Police and others were acting in that 
manner----
    Mr. Levin. Reverend Gerbasi went on and described President 
Trump's photo op with the Bible. She called it, and I quote, 
``sacrilege.'' Would you agree with that statement?
    Rev. Budde. I have thought about that. And yes, I would, 
because it was taking something sacred and misapplying its 
message to justify something that was violent and that was 
abusive, an abuse of power. And there is nothing in the 
scriptures that will condone that behavior.
    Mr. Levin. Thank you, Bishop.
    Ms. Brace, I would like to turn to you. Thank you for your 
testimony. And, as you note, the video of you and your 
cameraman being violently attacked speaks louder than words.
    Since being sworn into office and taking his oath to 
protect the Constitution of the United States, this President 
has repeatedly attacked the free press, calling the media, 
``The enemy of the people,'' limiting access to his press 
conferences, filing libel lawsuits, and sending cease and 
desist letters about news stories he doesn't like. The list 
goes on and on.
    On June 1, Park Police violently attacked you and your 
cameraman, as we saw, despite you clearly identifying 
yourselves as members of the press and having news-gathering 
equipment. Do you believe that the President's rhetoric and 
actions toward the free press has impacted the way the media 
has been treated by law enforcement?
    Ms. Brace. I can't speak to the motivation of members of 
law enforcement here in the United States. I can certainly say 
that there has been a noticeable trend in the treatment of the 
media by members of the police force, both the example of 
myself and Tim--my fiance was working in Minneapolis as a 
member of the credentialed press, and he was arrested while 
working legally. And we have seen a number of other instances 
across the country where the press has been targeted, even 
during these protests, by members of the police.
    So, while I can't say why that is happening, it is 
certainly what I see as a trend. And that is very worrying for 
a free press.
    Mr. Levin. And do you believe this will have lasting 
impacts on journalism in the United States and abroad?
    Ms. Brace. I think anything that deters journalists from 
being able to do their job safely could deter people from 
becoming journalists, or doing their jobs without fear or 
favor, which is exactly what we are meant to be doing.
    Mr. Levin. Thank you, Ms. Brace. In the words of my friend, 
the late Elijah Cummings, we are better than this.
    Thank you, Mr. Chairman. I will yield back.
    The Chairman. Let me recognize the gentlelady from Puerto 
Rico, Miss Gonzalez-Colon.
    The time is yours.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. I would like 
to yield my time.
    The Chairman. To whom?
    Mr. Bishop. Who did she yield to, me? OK. Thank you, I 
appreciate that.
    I appreciate this. And Mr. Lacy, you notice what I am 
doing. This is specifically for you. Oh, good. But it is 
specifically for you. If you can find a Cardinal one, you can 
do that.
    I just have two quick questions to ask. As I was sitting 
here listening to the testimony, I started reading, Ms. Brace, 
some of your testimony here in which you simply said, having 
seen the nature of the protests on May 31, you and your 
cameraman purchased protective equipment--eyewear, 
specifically. Is that accurate? Was that for one specific 
instance, or was it for a series of events, or was it simply a 
trend that you saw?
    Ms. Brace. We purchased our eyewear on May 31, so before we 
were covering the protests that day.
    Mr. Bishop. Was it for a specific incident or a trend?
    Ms. Brace. I would say it is because of what we had seen in 
Minneapolis earlier in the week.
    Mr. Bishop. I will accept that as trend, then.
    Can I then ask one other question? Because I found it 
interesting when Ms. Napolitano asked you--and she is no longer 
here, but--if you were wearing a lanyard, and you said no. Did 
you indeed say that you don't want to identify yourself as 
media, for fear of protection?
    Ms. Brace. No, I did not say that.
    Mr. Bishop. What did you actually say to her? Why did you 
not emphasize yourself or identify yourself as media with a 
lanyard or something? What did you actually tell her?
    Ms. Brace. I did have my State Department press 
identification. I don't like to wear it around my neck for 
safety reasons.
    Mr. Bishop. For safety.
    Ms. Brace. It is something that can be pulled in a protest.
    Mr. Bishop. All right. That is--I am sorry, that was just 
interesting and fascinating to me.
    Mr. Turley, I have one last thing to ask you at the same 
time. I was looking more at the stuff that we put into the 
record from the Interior Department.
    According to the Department, the LRAD that was used by the 
Park Service is a 100X model. Hopefully it means something to 
you, it doesn't mean anything to me. But it means it is 20 to 
30 decibels louder than a typical bullhorn or vehicle-based PA 
system. So, the model that was used has a maximum range of 
about 2,000 feet, with a peak output of 140 decibels. Compare 
that with a jet engine that produces 140 decibels at 100 feet, 
produces 140 decibels. So, that is the size of it.
    The Department informed the Committee staff that the script 
read as follows. ``This is Major Mark Adamchik with the United 
States Park Police. For safety and security reasons, Lafayette 
Park and H Street are closed to pedestrians. You are ordered to 
depart the area immediately. This your first warning.'' And 
they said that there were two more warnings like this one 
given. The last one said this was a final warning.
    According to the legal standards that you have been talking 
about, is that warning sufficient to satisfy the warning 
requirements of law before dispersing demonstrators like they 
did on June 1?
    Mr. Turley. It is sufficient. And, in fact, in my testimony 
I suggested that the LRAD may have been used. I noted in the 
testimony that the Park Police has the LRED system. It is a 
huge improvement over prior years, where they would use the PA 
systems off of patrol cars. This has a much broader range by 
magnitude of dozens, in terms of the penetration of that 
system.
    It doesn't mean that you can't have canceling noise in a 
protest. Basically, if you have objects around you. But that is 
the gold standard for amplification in these types of 
situations.
    Mr. Bishop. So, it is much easier to hear than simply a 
bullhorn would have been. And then one of the questions you 
need to ask----
    Mr. Turley. Yes, that is the recommended system for many 
civil libertarians. It is a system that has a very significant 
penetration range.
    Now, that doesn't mean, once again, you don't have 
circumstances where--I entirely understand--where people might 
not have heard it. You could have people around you, they could 
be screaming in your ear. Those are canceling noises. But this 
really is the gold standard, in terms of the use of 
application.
    Mr. Bishop. All right, and I have 30 seconds for this one. 
If someone heard a statement from a policeman saying, ``Move, 
move,'' is that the kind of legal qualification that would be 
used?
    Mr. Turley. When an officer tells you to move back, 
particularly after these warnings, you are expected to comply.
    Mr. Bishop. All right. So, if somebody in their written 
testimony were to say they heard the officers say, ``Move, 
move,'' that would be the legal justification and the 
expectation, the lawful citizen, they would then move.
    Mr. Turley. Yes, you are expected to follow the orders of 
the officers, particularly after the issuance of those 
warnings.
    Mr. Bishop. Thank you. I thank the gentlelady from Puerto 
Rico for yielding. I hope things are going well for you down 
there.
    Mr. Grijalva, I yield back.
    The Chairman. Thank you. The gentlelady yields back.
    Mr. Neguse, you are recognized, sir.
    Mr. Neguse. Thank you, Mr. Chairman. And for this Committee 
and this Congress to effectively fulfill our oversight duties, 
we absolutely must have a detailed understanding of the events 
that unfolded earlier this month. So, I thank each of the 
witnesses for appearing today and for your testimony.
    I want to ask a question of Ms. Brace. I wonder if you 
could share what your reaction was when you heard that the U.S. 
Park Police Acting Chief stated that the, ``U.S. PP officers 
and other assisting law enforcement partners did not use tear 
gas or OC Skat Shells to close the area at Lafayette Park,'' 
despite your experience being the opposite?
    Ms. Brace. Well, I am not an expert in ballistics, or the 
use of gas, particularly what was used. But I am certain that 
there was a chemical irritant used, and I was certainly hit by 
some sort of non-lethal projectile. So, that is completely 
opposite of my experience.
    Mr. Neguse. Do you have any concerns that if journalists 
and others who were there had not, rather, shared photos of 
empty OC and CS canisters and videos of what had occurred, that 
we may not have known the truth?
    Ms. Brace. In that instance I guess we would be relying on 
firsthand accounts. Also in our recording, our video, you can 
hear the use of automatic weapons, which again goes to what I 
was saying.
    Mr. Neguse. Well, it certainly underscores why a hearing 
like this is so important, and why it is important to hear from 
folks who have firsthand accounts as to what happened late last 
month.
    I also want to register my displeasure with the lack of a 
witness from the executive branch testifying before our 
Committee today.
    With much respect to my friend, my good friend from 
Colorado, I did read the letter that was sent to Chairman 
Grijalva from the Department of the Interior dated June 24, 
2020, and I think it is important to clarify for the record. 
While this letter does intimate an expectation that the 
executive branch witness would be provided a separate panel, 
that is not the reason for the declination of appearing to 
testify before this Committee.
    Ostensibly, what they purport as a justification for 
declining to appear before this Committee is timing, that they 
are too busy, and that they will, therefore, consider appearing 
later in the month, in mid or late July.
    So, I guess I wonder whether the panelists have any 
thoughts. Professor Turley, do you think it is reasonable for 
this Committee to expect to be able to hear from the Assistant 
Chief, or another relevant witness from the executive branch?
    Mr. Turley. Absolutely. I think this Committee should 
ascertain a number of the facts that I pointed out, which will 
be the first facts that the courts isolate. There are a number 
of these facts which will be determinative in any review of 
this conduct, and that includes what was used at the scene.
    You know, this became a sort of colloquial versus technical 
debate as to what constitutes tear gas. If the Park Police's 
later statement was correct, the impact on an individual is 
going to be much the same. It is an irritant. And courts have 
often grouped them together as to when you can use this.
    I personally believe that, as this Committee drills down, 
it is going to find itself more and more focused on that 
twilight period when you see that charge. That is a charge. 
That is a line charging. And the question is was that warranted 
in that circumstance.
    Mr. Neguse. I agree with you, Professor Turley, with 
respect to the need for this Committee to engage in that 
inquiry. And I must confess, I am less than optimistic that we 
will have as much success as perhaps the judicial system will, 
in terms of potentially deposing some of these Administration 
witnesses, because the track record of the 116th Congress, in 
terms of its ability to get executive branch witnesses to 
appear before the Congress, is less than stellar, with a 
Secretary of Defense who is refusing to appear before the Armed 
Services Committee to talk about this particular set of issues, 
with a Secretary of State who declines to appear before the 
Foreign Affairs Committee.
    Of course, you may remember we have had an exchange 
previously, 8, 9, some-odd months ago before the Judiciary 
Committee during the impeachment process about obstruction of 
Congress, and the lack of any ability to, again, get these 
witnesses before the legislative branch.
    So, I fear--I must say, because, as I read this letter, it 
is part and parcel to this pattern that this Administration has 
pursued relentlessly since the days that I was sworn into 
Congress. And I would hope that my colleagues on the other side 
of the aisle would join us in our efforts to, again, get to the 
bottom of it, and have folks from the Administration testify.
    Because invariably--and I think, as you have referenced in 
the past--administrations change, right? We have elections. And 
at the end of the day there may very well be another 
administration and a Congress that is hoping to seek witnesses 
from that particular administration. And I would hope that we 
could treat these issues with the respect that they deserve.
    With that, I yield back, Mr. Chairman.
    The Chairman. The gentleman yields.
    Next, Ms. DeGette, you are recognized for 5 minutes.
    Ms. DeGette. Thank you so much, Mr. Chairman. I have been 
here at the hearing since the very beginning, and it is very 
important. And it is important to hear from our witnesses.
    Like all of us, I have been shocked by the unrestrained use 
of force by the Federal law enforcement agencies. And we are 
here today because one of those agencies, the Park Police, 
violated its own use of force policies in following President 
Trump's directive to clear Lafayette Square.
    Mr. Chairman, your staff has a copy of the U.S. Park 
Police's Use of Force Policy, General Order 3615, updated 
November 1, 2019. And I would like to ask for unanimous consent 
to enter that into the record right now.
    The Chairman. Without objection, so ordered.
    Ms. DeGette. Thank you, Mr. Chairman. This policy governs 
the conditions under which the Park Police's use of force is 
appropriate.
    Ms. Brace and Mr. McDonald, I want to ask you about some of 
the parts of this policy, and whether they are consistent with 
what you saw on June 1. And I would appreciate yes-or-no 
answers, if you are able.
    The policy, which was updated last fall says, ``An officer 
is expected to employ only the minimum level of responsible 
force necessary to control a situation.''
    Now, Ms. Brace, I believe you testified that you have 
covered a number of demonstrations. Is that correct?
    Ms. Brace. Yes, that is correct.
    Ms. DeGette. So, in your experience being at that protest, 
did you view the U.S. Park Police and other law enforcement 
officers employing only the minimum level of reasonable force 
necessary to control the situation?
    Ms. Brace. No, I don't.
    Ms. DeGette. The policy also says--oh, Mr. McDonald, I want 
to ask you the same question. You testified that you served in 
the military, and so I assume you have seen people using force. 
I want to ask you, did you view the U.S. Park Police and other 
law enforcement employing only the minimal level of reasonable 
force necessary to control the situation?
    Mr. McDonald. I believe they used excessive force.
    Ms. DeGette. Thank you. Now, Ms. Brace and Mr. McDonald, 
did either of you see a situation where the Park Police use of 
force seemed to be required, and then did they stop it once it 
didn't seem to be required?
    Ms. Brace, we will start with you.
    Ms. Brace. No, not that I saw.
    Ms. DeGette. Mr. McDonald?
    Mr. McDonald. Can you repeat the question?
    Ms. DeGette. Yes. My question is did either of you see a 
situation where they seemed to need to use the force, and then 
they stopped it once it wasn't required any more?
    Mr. McDonald. No, I did not.
    Ms. DeGette. OK. The policy also says an officer shall, if 
possible, first attempt to diffuse the situation through 
advice, warning, verbal persuasion, tactical communication, and 
other de-escalation and conflict negotiation techniques.
    Ms. Brace, did you see the police doing anything like that?
    Ms. Brace. No, I did not.
    Ms. DeGette. Mr. McDonald?
    Mr. McDonald. No, I did not.
    Ms. DeGette. Finally, the policy says the goal of de-
escalation tactics is to gain the voluntary compliance of a 
subject, when appropriate and consistent with personal safety, 
to reduce or eliminate the necessity to use force.
    Ms. Brace. Ms. Brace, did you see the police doing that?
    Ms. Brace. No, I did not.
    Ms. DeGette. How about you, Mr. McDonald?
    Mr. McDonald. No, I did not.
    Ms. DeGette. Now, did you see anybody at that particular 
protest who was not complying voluntarily?
    Mr. McDonald. No, ma'am.
    Ms. Brace. Not from what I saw.
    Ms. DeGette. Were each of you complying voluntarily?
    Mr. McDonald. Yes, I was.
    Ms. Brace. Yes.
    Ms. DeGette. OK. So, Mr. Chairman, just looking at the U.S. 
Park Police's Use of Force Policy, it seems to me that they 
were violating their very own policy, which is what the purpose 
of this hearing is. And I find it very telling that the 
Administration didn't even show up to explain any of this 
today.
    I just want to take one more minute of personal privilege 
and, Bishop, tell you how proud I am of you, as a woman of God, 
to stand up for the right of peaceful protesters. I am a 
Presbyterian in Denver, and my church is very involved with the 
Black Lives Matter movement. And we are involved in these 
protests. And we think that is part of the very fabric of 
Christianity, and the very fabric of America. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you. Let me recognize Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. Thanks for conducting 
this hearing. Thank you to the witnesses for your testimony in 
observance of what you saw that day.
    My wife and I happened to be in our living room, watching 
incredulously, especially after Attorney General Barr went out 
to the square to survey, and then ordered the clearing of that 
square--how outrageous, how un-American--just so somebody could 
take a photo op.
    Let me ask you, Mr. McDonald. Let me first thank you for 
your service to this country and for your activism. Given your 
testimony from what you saw on that day, did you see any 
protesters act violent, or did you see any of the demonstrators 
throw projectiles at law enforcement?
    Mr. McDonald. No, I didn't see anyone throwing anything. I 
didn't see anyone acting violent.
    Mr. Clay. Thank you for that. And for me, for a Black man 
who served his country, when you hear this Administration and 
President say time after time that he does a lot for the Black 
community, then to be treated like a hostile, what goes through 
your mind?
    Mr. McDonald. I mean, it fits the rhetoric of where a Black 
man is always persecuted. I am out there for just reason. I 
have an Administration--not just an administration but a 
government--that is trying to clear me for exercising my First 
Amendment rights.
    Mr. Clay. Thank you for that. And let's put politics aside. 
Does the President's narrative seem consistent if peaceful 
demonstrators cannot peacefully protest the racial injustices 
we see and face on a daily basis?
    Mr. McDonald. I think probably the last 10 protests have 
been very peaceful. The whole world has seen us peacefully 
protest. I think those rioters and all that stuff was an 
isolated incident. Ninety percent of the protests I have been 
to--well, 100 percent I have been to have been positive, and 
about 90 percent I have seen on TV have been very positive.
    Mr. Clay. Having a military background, do you consider the 
training of those law enforcement personnel that you came up 
against on June 1 to be in a posture of warrior or guardian?
    Mr. McDonald. Warrior.
    Mr. Clay. Thank you. Thank you for that.
    Ms. Brace, have you covered other protests where you have 
experienced law enforcement treating media in a similar manner 
to your experience in Black Lives Matter Square?
    Ms. Brace. No, I have not.
    Mr. Clay. You have not. And as has already been mentioned, 
this Administration's story around what happened that day and 
why it happened keeps changing. When you hear the 
Administration's changing explanations, what goes through your 
mind, as a journalist?
    Ms. Brace. Well, obviously, I am here to observe what is 
happening, not to speculate on why it is happening. But all I 
can tell you is that on that day, on June 1, the plan seemed to 
change, because we were expecting the curfew to be enforced at 
7 p.m., and it was enforced at 6:30 p.m.
    Mr. Clay. And during your broadcast, you mentioned that the 
police were being indiscriminate, and didn't seem to change 
their actions after you stated you were members of the media. 
Do you think at all that the treatment of you was intentionally 
directed at you, due to your status as a journalist?
    Ms. Brace. I can't say whether we were targeted because we 
were working press. I can say it was clear we were working 
press, and even after my cameraman, Tim Myers, was assaulted 
and it was acknowledged very clearly that we were press, I was 
then hit across the back with a truncheon as I was trying to 
move away, as directed.
    Mr. Clay. Did you say that you got hit with a projectile?
    Ms. Brace. Yes.
    Mr. Clay. A rubber bullet?
    Ms. Brace. I am not sure whether it was a rubber bullet. It 
was a projectile. A non-lethal bullet.
    Mr. Clay. I see.
    And Mr. McDonald, did you get hit with an object?
    Mr. McDonald. Yes, I got a plume of tear gas exploded right 
below my feet, and they threw a flash grenade right at my 
ankles, to the point it exploded. When I felt all the pellets, 
I asked the officer on film, I said, ``What did you throw at 
me?''
    And I saw something like smoke from the ground. I 
correlated both together. I said, ``Did that--whatever you 
threw, did it blow up on the ground, and the asphalt hit me?'' 
And I thought it may have hit because the loud sound--I was 
oblivious to what it was. When it hit the ground I just felt 
something hit me, and I thought it was the asphalt--it was that 
powerful, where it blew the asphalt up. And I asked, ``What was 
that?''
    Mr. Clay. All right, my time is up. But this is not how 
civilians in this Nation should be treated who are trying to 
exercise their constitutional rights. And I defy anyone on this 
panel to refute that.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Let me now recognize Mrs. Dingell for your 5 minutes. Thank 
you.
    Mrs. Dingell. Thank you, Mr. Chairman, and the Ranking 
Member, who it is always good to see. I want to thank you both 
for having these hearings. And I think it is really important 
to say, as we start this, that I don't think any person on 
either side of this aisle thinks that violence is ever OK at a 
protest. And I don't think you see people here saying that.
    And I want to say that to some of my Republican colleagues. 
I have actually been--the woman who you couldn't force out of 
her house 3 weeks ago--have been at 17 vigil marches and 
protests in the last 2 weeks, because the people of my 
communities have organized them. And some are areas that do 
them all the time, and some are ones that do them none of the 
time. And the first ones that I went down river--most of them 
were organized by young people.
    One of my police chiefs immediately said to me, ``What are 
you doing here?'' And not because he was upset that I was 
there, but he had thought I was just going to the city hall. 
And people had just arrived that they were trying to not let 
the young people see with bricks, and arrived to cause trouble. 
And I know which organization they are with. But throughout 
these, my police chiefs have walked with the young people. They 
have been alert. They have worked together.
    And I have had 2 bad incidences out of the 17, one where a 
woman ran a car through us, and the second where young people 
heard the word--a word that they should never hear once. And I 
was called a White--several not pleasant words.
    But our police chief handled them. And I think that that is 
what we want to talk about today, because I think Americans 
have the right to peacefully assemble and protest. It is a 
fundamental right of our democracy. And how these get handled 
is really important. So, we have to ask these questions because 
we don't have a witness today, as has been said. We have to 
make sure that that freedom of speech and that freedom--I am 
proud of some of the young people that I have seen out there, 
but we don't want to see windows--and some of these areas have 
deliberately been broken. And my law enforcement knew that I 
was being targeted by some people, and I wasn't going to let 
that stop me, either.
    But I want to ask some questions of both Mr. McDonald and 
Ms. Brace.
    Mr. McDonald, some of my colleagues across the aisle have 
attempted to use the actions of a few protesters at a separate 
protest against police brutality to depict the peaceful 
protests that you were part of as violent, or call it a riot. I 
want to be clear, Mr. McDonald. Did you personally witness 
violence or rioting prior to the police attacking the 
protesters on June 1?
    Mr. McDonald. No, ma'am.
    Mrs. Dingell. Ms. Brace, would you agree with Mr. McDonald? 
Did you witness violent activity or any sort of similar events 
prior to the police moving against the protesters on June 1?
    Ms. Brace. No, I did not.
    Mrs. Dingell. Furthermore, during these attacks you 
identified yourself repeatedly as a member of the media. 
Correct?
    When you did that, when you announced yourself, did they 
refrain from violence?
    And they went after your cameraman, so even if they didn't 
see your media credential, which--people have raised a 
question--it was pretty obvious that your cameraman was a 
member of the media, correct?
    Ms. Brace. Yes, absolutely.
    Mrs. Dingell. And can you talk about the injuries you and 
your cameraman sustained, and the damage your equipment took?
    Ms. Brace. Tim suffered what I would describe as a harder 
hit than what I did, as you saw in that video, with the shield 
to his stomach. And then the camera was punched, which pushed 
it back into his face.
    He also was hit with a non-lethal projectile in the back of 
the neck. As you saw, I was struck across the back with a 
truncheon. And I was hit a few times in the legs by non-lethal 
bullets. I was hit quite directly in the back side, so that 
would be my most significant injury.
    In terms of our gear, the camera, obviously, that Tim was 
holding up to his face was damaged when it was punched. A 
separate lens that I was carrying in my backpack was damaged 
when I was hit. And also, our live transmission device--we call 
it a TDU--was significantly damaged when it was hit by----
    Mrs. Dingell. So, several thousand dollars' worth of 
damage. I want to ask you one more quick question, Mr. 
McDonald. You mentioned in your testimony that you took 
pictures and videos during the attack. Why did you feel like it 
was important to document everything that was happening?
    Ms. Brace. I believed it was a pivotal point in history, 
just to be out there amongst those diverse protesters. And 
second, it was for my safety, because Trump had made the threat 
of using weapons and dogs on us, and I really took it 
literally. So, that was the second main reason why I recorded.
    Mrs. Dingell. Thank you. My time is up, but thank you, all 
of you, for being here. And the Bishop, too.
    The Chairman. Thank you.
    Mr. Garcia.
    Mr. Garcia. Thank you, Mr. Chairman. And let me express my 
gratitude to all of our witnesses this morning, to the Ranking 
Member, as well.
    During this difficult moment in our history, we are 
grieving more than a senseless murder of George Floyd. This is 
not new. The outrage is not new. We are grieving the 400-year 
legacy of the inter-generational trauma from slavery, 
lynchings, the Jim Crow era, and police brutality. The racial 
injustice in our country's history is still costing us innocent 
lives.
    What we are seeing today is the result of historic 
injustices that have kept people living in poverty, in 
communities where schools have fewer resources, and where 
people live less long, due to lack of health care, coupled with 
aggressive policing.
    Earlier this month, organizers and protest participants 
were attacked while demonstrating against police brutality in 
DC, and this hearing brings that out. Facing protests over the 
use of force, the U.S. Park Police responded with more force.
    Mr. McDonald, thank you for being here. In your testimony, 
you shared that you received training in CS gas, also known as 
tear gas, during your time in boot camp. Can you describe the 
conditions under which you were instructed to use tear gas 
during your training, and how that compares to what you 
witnessed at Lafayette Square?
    Mr. McDonald. Well, first of all, in boot camp it was 
controlled. It was around medics, and they had personnel there, 
because it was done in a safe environment. What I witnessed at 
Lafayette Square was excessive force. They did it without any 
kind of medical people around. They knew people would get 
injured behind this. The Navy did it in a much better, safer 
way, and it was done because we were in boot camp, a controlled 
environment. Although we were protesting, they threw that. I 
just think that we weren't prepared for that. They shouldn't 
have used that on protesters. They are not soldiers.
    Mr. Garcia. Based on your training, the U.S. Park Police 
didn't follow the proper protocols, in your opinion?
    Mr. McDonald. Yes, that can't be a necessary way to remove 
people.
    Mr. Garcia. Thank you.
    Black and Brown communities are already being ravaged by 
the deadly virus and an unprecedented economic crisis. Now they 
are being terrorized by militarized police. Militarization of 
law enforcement and the unjustified use of force against 
organizers and community members must end. Tear gas is a 
chemical weapon banned in war, and it should never again be 
used against demonstrators, but especially not during a 
pandemic.
    We have heard countless stories of organizers and protest 
participants suffering traumatic injuries at the hands of law 
enforcement, or, like Mr. McDonald, who was, ``met with tear 
gas and flash bangs, which exploded with shrapnel.''
    That is why my colleagues and I introduced a bill to stop 
the escalation of such police tactics against peaceful 
demonstrators, and ban the use of chemical weapons in our 
streets. The bottom line is the rightful demonstrations that we 
are witnessing in the wake of the killings of George Floyd, 
Breonna Taylor, and other Black lives taken by the police 
should never have been met with the deadly force from law 
enforcement.
    The U.S. Park Police and other police and military forces 
forcibly removed peaceful protesters with chemical irritants. 
And for what? For the President's photo op?
    I yield back, Mr. Chairman.
    The Chairman. The gentleman yields. Let me recognize Mr. 
Soto for his questions and his time.
    Mr. Soto. Thank you, Mr. Chairman. The whole Nation 
witnessed videos showing President Trump, White House Justice 
and Defense officials authorize use of force to remove peaceful 
protesters. Lafayette Square Park and the adjacent Pennsylvania 
Avenue, an area right in front of the White House, is our 
Nation's public square. This a traditional area for Americans 
to express our First Amendment rights, the infringement of 
which deserves heightened scrutiny.
    It was particularly disgraceful that these tactics were 
used so the President could engage in a photo op. Many have 
testified that the incident occurred 1 hour before curfew. I do 
agree with other members of this Committee that city officials 
should be wary about creating curfews of otherwise peaceful 
protests. These dictated curfews often create unnecessary 
conflict between police and peaceful protesters. We know, based 
on the testimony, this was not the case in this incident.
    I want to welcome Professor Turley to the Committee. I 
would be remiss if I didn't say this hearkens me back to 14 
years ago in your Supreme Court class at GW Law. And I want to 
thank you for being such a great teacher.
    Professor Turley, some evidence suggests that the crowd was 
cleared for purposes of a photo op. Other evidence suggests the 
President wanted to display a show of strength after damaging 
coverage of him retreating to a bunker a few days earlier. I am 
concerned that the President may have specifically intended to 
intimidate or silence political speech, or simply that he 
didn't care about the injuries that would occur as a result of 
his actions in those last minutes that you really focus on 
before they begin clearing the area.
    If President Trump or other responsible officials harbored 
either specific intent to intimidate or silence political 
speech or, at the very least, had a reckless disregard for the 
safety and First Amendment rights of protesters, would either 
of those states of mind be relevant in determining a violation 
of their First Amendment rights?
    Mr. Turley. Thank you very much for that question. This is, 
in fact, my ideal, to have a former student asking me a 
question, looking at two counsels on either side of the Chair 
that are both GW grads, and a photographer who is a GW student. 
So, I could not be in a happier spot.
    But to answer your question, most certainly the intent does 
matter. My testimony first starts out with the motivational 
question. That motivational question, I think, we will get more 
salient information with the inquiry of Congress.
    And one of the things that, personally, I would look at, is 
it seems to me that there is evidence that the plan was put 
into place 48 hours before, in terms of development. It was 
approved in the morning. An order went out at 2. That does not 
mean, however, that it answers, even if those facts are true, 
whether the President's photo op played a role in the size of 
the perimeter, the decision to move people all the way to I 
Street, for example. Those are things that are legitimate 
questions.
    And as I said, if Attorney General Barr cleared that area 
for the purpose of the photo op, despite knowing him for many 
years, being a graduate of our law school, I would immediately 
call for him to step down, because that would be an outrageous 
use of power.
    So, the answer is yes. If this was done to intimidate 
people, this would be a serious problem. The Supreme Court said 
in Bose that protests are classically political speech. And 
that is why the courts have been so protective.
    So, I think that your question is a relevant one. And more 
importantly, we can get those answers as we get more of these 
facts confirmed from Congress.
    Mr. Soto. Thank you, Professor Turley.
    Mr. McDonald, thank you for your service to our country. On 
behalf of the U.S. Government, I would like to apologize for 
your brutal treatment you received by your own government.
    We recently passed the Justice in Policing Act of 2020. It 
stops the militarization of police by stopping a Federal 
program that gives local police surplus military equipment. As 
a veteran familiar with the differences between the objectives 
of military and police, how important is it to stop the de-
militarization of our police force?
    Mr. McDonald. It is very important. I mean, you lose 
control once you militarize too much. The military is there for 
a certain reason, and city cops are there for a certain reason. 
We have distinguished who does what, and I just think, giving 
the city police and Park Police reasons to act like a military 
unit isn't good for any kind of protest, going forward.
    Mr. Soto. Thank you. Ms. Brace, on behalf of the U.S. 
Government, I would like to apologize for your brutal treatment 
by this government. I am appalled about how you and Mr. 
McDonald were treated.
    We have seen an increasing level of violence against 
members of the press in the United States as of late. What do 
you suggest needs to happen to better protect members of the 
press in the United States?
    Ms. Brace. Again, I wouldn't presume to tell the American 
people how to run their government or their police force.
    I think, basically, the First Amendment needs to be 
enforced, in that the media needs to be able to work freely and 
without fear, especially from law enforcement.
    Mr. Soto. And finally, Bishop Budde, you were installed on 
November 12, 2011, so you have had a lot of experience with 
Lafayette Square. How often do you see people protest in 
Lafayette Square?
    Rev. Budde. I don't know that I could count, but it is, as 
I said before, it is the park where people gather, and it is a 
common sight for protests. I think there are protests there 
every day, actually.
    Mr. Soto. Thanks, and I yield back.
    The Chairman. Thank you. Let me recognize Mr. Horsford.
    You are recognized, sir.
    Mr. Horsford. Thank you very much, Mr. Chairman. I know all 
too well the pain and loss that the Black community has faced 
because of law enforcement's abuse of force. What took place at 
Lafayette Park stands against our Nation's ideals. Peaceful 
protestors were exercising their First Amendment constitutional 
rights.
    Unfortunately, the President, in an effort to have an ill-
advised and unnecessary photo op, decided to upend the First 
Amendment rights of peaceful protesters at Lafayette Park by 
using tear gas and firing rubber pellets on them.
    It is important that lawmakers can look outside their 
windows and see and hear protesters. They are letting their 
government know that change must occur. Instead, this President 
acted like an authoritarian dictator, and used excessive force 
so he could stage a 3-minute photo op at the historic St. 
John's Episcopal Church. This is simply wrong.
    As a Black man, as a father of three children, two young 
boys, I know we must find more common ground and enact real 
reforms across this Nation and for my home state in Nevada. We 
need to continue to have honest dialogue about race and other 
injustices and, more importantly, act boldly for the change 
that we need throughout our society.
    Unfortunately, those actions taken by the President at 
Lafayette Square do not bring us closer to solving these 
problems. In fact, they make it worse.
    Mr. McDonald, can you tell us what brought you to the 
protest, and what were your general feelings about your fellow 
protesters? Were they peaceful? Did you see anybody doing 
anything different than exercising their First Amendment 
rights?
    Mr. McDonald. Well, my reason for being there was for my 
First Amendment rights, protesting the inequity in the Justice 
Department. Everyone I saw, from the minute I started recording 
at 6, until the minute they attacked us, was peaceful.
    Mr. Horsford. Thank you.
    Mr. McDonald. I didn't see anything being thrown, other 
than verbal things they were saying. No one attacked those 
officers.
    Mr. Horsford. Thank you. And what was your first reaction 
when police in riot gear used tear gas on you and your fellow 
peaceful protesters?
    Mr. McDonald. It was confusion first, because you know it 
is 30 minutes before curfew. Then you wonder why are they doing 
this. Like, what happened? You would have thought something 
drastically happened for that to change from a peaceful protest 
to, like, literally 3 seconds they switch and turn into a 
military unit.
    Mr. Horsford. Thank you.
    Mr. McDonald. It was confusion.
    Mr. Horsford. Ms. Brace, seeing the way you were treated in 
that video was shocking, to say the least. You were clearly 
identified as a member of the press. You were in an area 
designated for members of the press. And yet those officers 
were completely indiscriminate in their attack.
    In your years of experience as a reporter, have you or your 
cameraman ever been treated this way before?
    Ms. Brace. No.
    Mr. Horsford. When you set up to work that day, did you 
assume you would be safe from violence at the hands of law 
enforcement?
    Ms. Brace. Yes, absolutely.
    Mr. Horsford. Why?
    Ms. Brace. Because of the First Amendment and the respect 
for the media in a democracy.
    Mr. Horsford. Can you tell us more about the conduct of law 
enforcement that you have observed as a reporter, and what was 
it that happened at Lafayette Square the first time that you 
have experienced this?
    Ms. Brace. Well, as you saw in the video, we were there to 
report on what was happening, expecting the curfew to come into 
effect at 7 p.m.
    Then that line of police came through very early, very 
suddenly, and very quickly. We moved right to the side, where 
we were very much out of their way. There is nothing that would 
have prevented them walking past us easily. And that is when 
they turned on us, and we were both physically assaulted.
    In terms of the protest itself, I would say that it was 
largely peaceful. It was very different to the night before, 
where we did see those fires and looting. That was nothing of 
the sort on the afternoon of June 1.
    Mr. Horsford. Thank you.
    Right Reverend Budde, can you please talk about the 
teachings of the Episcopalian faith, and whether those are in 
line with the current President's actions of using tear gas by 
police in riot gear against peaceful protesters?
    What was your reaction when the current President used a 
Bible for the sole purpose of a photo op?
    Rev. Budde. As I have stated before, there is nothing in 
scripture or in the teachings of our church that would condone 
violent actions of State officials against innocent protesters. 
So, I would say that it is completely antithetical to the 
teachings of our church.
    When I saw the President hold the Bible in front of the 
church, as I said, I felt he had usurped a spiritual--he was 
taking a spiritual message, or claiming a spiritual authority 
that he did not have to justify or to bolster a message that 
was counter to our teachings and our attempt to follow Jesus 
and his way of love.
    Mr. Horsford. Thank you, Mr. Chairman, and I yield back.
    The Chairman. Thank you.
    Mr. Tonko, you are recognized, sir.
    Mr. Tonko. OK, great. Thank you so much, Mr. Chair, and to 
our witnesses also. Thank you.
    I am devastated that this hearing is needed, but it is 
absolutely needed. I see massive pain in this country, our 
country, right now. For many, this pain comes from the nervous 
uncertainty of living in a world dominated by a deadly, highly 
contagious virus. The last 4 months have shown many of us what 
it is like to live in a society where you don't get to write 
the rules.
    Black Americans have known that feeling for 400 years. They 
are the descendants of the people kidnapped into slavery. They 
are the product of pervasive and systematic racist policies, 
not just Southern Jim Crow laws, but racist Federal policy, as 
well. Black Americans were forbidden from claiming land in the 
Homestead Act, excluding them from the largest and most 
permanent wealth giveaway in our American history. They were 
effectively excluded from the New Deal and the GI Bill, which 
can be argued as the foundation for our American middle class. 
They were, and in many cases still are, legally allowed to be 
profiled against by a police officer, who could use that power 
to investigate, intimidate, and, far too often, end a life. And 
now, thanks to the compendium of institutional racism, they are 
getting sick and dying from COVID at a much higher rate than 
White Americans.
    But Black Americans are, sadly, used to living in a society 
where, for the longest time, they didn't get to write the 
rules. I am a 71-year-old White man, and I will never know what 
that feels like. But I am brokenhearted that, as a member of 
our society, I share some responsibility for the pain Black 
Americans feel.
    Let me begin by first addressing my questions to Her 
Excellency, Bishop Budde. And Bishop, did I pronounce your last 
name correctly?
    Rev. Budde. You did.
    Mr. Tonko. OK. What does Christianity teach us to do if we 
have harmed others?
    Rev. Budde. To seek restitution, forgiveness, and at all 
times mercy, because we all fall short in the sight of God.
    Mr. Tonko. Thank you. In Lafayette Square on June 1, and 
repeatedly since then across the country, it is asking, begging 
for an end to this pain.
    Rev. Budde. Yes.
    Mr. Tonko. And as a fellow believer, it seems this is the 
moment, if any, where we should be asking for such forgiveness, 
and then doing what we can to eliminate pain into the future.
    Mr. McDonald, can you remind me again how the peaceful 
protesters were treated?
    Mr. McDonald. We were treated with weapons of war. We were 
treated like criminals. We were treated like we were breaking 
the law. We were only exercising our First Amendment rights.
    Mr. Tonko. Well, I think that, as we have learned today, 
nothing in this response sounds compassionate to me. Nothing in 
this response sounds like a teaching we would find in any book 
of faith that would guide any one of us. Nothing in that 
response sounds forgiving to me. And as one who has practiced 
my faith, I think that it is part of some of the fundamentals 
that we all share in making certain that we are a just and 
loving society.
    So, I deeply implore our Nation's President and any of her 
leaders to refer to some of the scripture, and certainly 
scripture found in that book that he held outside of St. John's 
Church that day. And I would encourage him to revisit the verse 
from Micah 6:8, which reads, ``What does the Lord require of 
you but to do justice, and to love kindness, and to walk humbly 
with your God?'' I think that is instruction for all of us.
    Mr. Chair, we have to do better. Let us heed the words of 
Micah. As a Nation, let us resolve to go forward, to build a 
fairer Nation. Let us now do the hard work of laboring for 
justice, denouncing violence, loving kindness, and, most 
certainly, walking humbly but hurriedly on the path to what we 
all respect, a more perfect union.
    With that, I yield back and, again, thank our witnesses for 
being here today, for adding what they did to today's 
discussion, and providing that sort of clarity that we are all 
looking for.
    And, Mr. Chair, again, I do yield back, and thank you for 
the opportunity.
    The Chairman. And thank you, sir, for, I may say, very 
profound and important comments that you made. Thank you.
    Mr. Tonko. Thank you.
    The Chairman. I want to thank the witnesses. I appreciate 
it very much, all four being here today.
    My colleagues, through the 2\1/2\ hours that you have been 
here, have asked a lot of the questions that were important to 
me.
    I think that we heard a lot of important information today 
about the attack on the protesters at Lafayette Square on June 
1.
    But we didn't hear a peep from the Administration. We 
invited Acting Park Police Chief Monahan. We jumped through 
hoops, as different requirements were presented to us in terms 
of his coming forward. The latest one was that he was too busy, 
and there could be a conflict because of potential litigation 
down the road.
    And it would have been very helpful to have him here, or a 
representative of the Department, so we could understand which 
version of the truth they have offered--and they have offered 
several since June 1--is actually the correct one, and so that 
there is no mistake, and nothing is being hidden from the 
American people, that it is out there, and it is transparent. 
And it is our responsibility to provide that oversight.
    And one thing as well today, is that we looked at what my 
colleagues said today, and the analysis from my respected 
Republican colleagues, the main witness--the analysis, as I got 
it, depends on the Administration telling the truth. Now, that 
would, I think, create some skepticism and doubt among many, 
many, many Americans at this point.
    We also heard from our colleagues about a lot of things 
that didn't happen that date. The assumption is that the 
protesters in Lafayette Square were dangerous by association, 
and that is not the way it should have been approached. Pre-
judging a group of people based on unrelated actions, actions 
separate from them, of others might be at the very heart of the 
problem here.
    Maybe the protesters--and to deal with this in a bipartisan 
way, I remember the calls for de-escalation, restraint, 
extended patience when we were dealing with the takeover of a 
park facility by armed individuals. And the struggle over the 
Bundy family and their refusal to pay fees for grazing on 
public lands, and action by the Federal Government to try to 
redeem that. I hope that that same bipartisan attitude of 
restraint and--not create a double standard in which--because 
perhaps the message in this one is not what you wanted to hear 
in Lafayette Square. But just like the message that the Bundys 
were having when they refused and armed themselves--I didn't 
want to hear, but that is what the Park Police chose, that is 
what the U.S. Marshal chose, that is what the FBI chose: 
restraint, patience--prolonged patience, I might add.
    I also want to talk a little bit about leading up to this 
hearing, a lot of the discussion about issues having to do with 
what led up to this. And that is why I made my point about 
people shouldn't be associated with anything that is going on, 
that the protesters are the enemies, that they are not American 
citizens exercising their right under the First Amendment, that 
it is about the statues, that it is about the isolated series 
of violence.
    Let me guarantee you, I have been around long enough, have 
been to enough protests, and been arrested for civil 
disobedience myself to know and to be able to say that the tail 
is not wagging the dog on this movement that is going on in 
America right now. The dog is in charge. And that is the 
American people. And those outlier issues of opportunism, 
whether in appropriating the Black Lives Matter movement for 
either a narrow ideological point or a criminal point, should 
not be reflected onto what people are trying to say out in 
America, period.
    And I also have felt that this has opened up many things. 
And, the irony of ironies, you have Mr. Pendley, who Trump is 
recommending to run the other BLM, the Bureau of Land 
Management. And he is one that did an Op Ed piece that said 
that the Black Lives Matter movement is built on terrible lies. 
And it goes again to make those associations. And he will be in 
charge of the biggest land mass agency that we have in this 
country if the Senate approves.
    I think these contradictions, the fact that we are asked to 
believe and that the Administration won't come forward and 
allow a full questioning and a full disclosure and transparency 
of all the information related to what happened June 1, I think 
leads us to continue to press for the issue, not only of 
accountability, but of reform with our Park Service police that 
has to change. And hopefully, this hearing and you as 
witnesses--thank you so much.
    Members might ask you questions. You have a period of time 
as well to return your responses. I appreciate your time and I 
appreciate all the patience you have shown today.
    Mr. Bishop. Mr. Chairman, I have one other--I ask unanimous 
consent to add one more letter into the record, which was sent 
by the Secretary to you, inviting you also to visit.
    And I look forward to working with you in a bipartisan 
manner, because the Administration did have an option of 
willingness to come here and talk about their point of view. We 
need to make sure that that is there, and that is accommodated 
in the future. Thank you.
    And just one last thing. Be careful about when you are 
talking about the experience in the West, which was supposedly 
done in a non-violent way, because it did leave one of the 
citizens of my state dead in the snow.
    The Chairman. On that uplifting note, let me adjourn the 
meeting, and thank you very much, all of you. I appreciate it. 
We all do.

    [Whereupon, at 2:42 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of the Hon. Debra A. Haaland, a Representative in 
                 Congress from the State of New Mexico
    Mr. Chair, thank you for convening today's panel. This is a 
necessary conversation that is long overdue.
    Our colleagues have said it already, but the events of June 1 will 
no doubt go down as one of the darkest days of this presidency. And 
that is saying something for a President that has put children in 
cages, has protected his cronies from prosecution, and has opened our 
elections to foreign interference.
    Attacks on the Constitution aren't new for this President but 
clearing a peaceful demonstration for a photo-op with his cabinet is an 
unbelievable new low. While we will rightly focus on those actions of 
June 1, we cannot lose sight of the larger moment we are in.
    Today's hearing is also about a larger trend of systemic racism in 
which militarized police intimidate and kill in communities of color 
while defended from prosecution.
    The President's recent actions brought that excessive force to the 
fore in a new and unconstitutional way, but this is by no means an 
isolated incident. And while I respect the work Federal civil servants 
do every day to improve our country, there are times they do things our 
Nation is not proud of.
    In November 2017, the U.S. Park Police murdered Bijan Ghaisar just 
over the river in Arlington. Killed him while he drove his car. Still, 
his family has not had justice.
    Earlier this year, in my state of New Mexico, Charles Gage Lorentz 
was driving back to his home in Colorado when he was murdered by a U.S. 
Park Ranger. I spoke to his mother's attorney recently, but I couldn't 
explain why that killer still patrolled one of our national parks, why 
he hadn't been brought to justice.
    Today, we are here to talk about the President and his illegal and 
unconstitutional actions. But we also need to discuss power, to discuss 
fear, to discuss unequal treatment under the law. Because we did not 
choose to live in a society where the President wields the power of our 
government to break up peaceful protests any more than communities of 
color across this Nation choose to live in fear of unequal policing.
    Let's try to understand what breakdown in norms led to the horrible 
injustice of the clearing of Lafayette Square. But let's also make sure 
we keep in mind the culture of systemic oppression that allows this 
same fear and power to control and kill in communities across our 
country. Because this wasn't an isolated incident.
    We've seen this excessive use of force by Park Police and park law 
enforcement. We've seen this excessive use of force in the District, 
and we've seen it in our communities. It is time for us all to stand up 
and say, enough.

                                 ______
                                 

Submission for the Record by Rep. Bishop

                         DEPARTMENT OF THE INTERIOR
                                             Washington, DC

                                                       June 5, 2020

Hon. Raul Grijalva, Chairman,
Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Grijalva:

    Thirty years ago, on May 14, 1990, I was fortunate to witness an 
oral argument at the Supreme Court of the United States. The matter 
before the Court that day concerned whether the First Amendment 
permitted prosecution for flag burning in violation of the Flag 
Protection Act of 1989. When the Court handed down its verdict a few 
weeks later, I stood and watched a peaceful demonstration on the steps 
of the Court. The Court's determination was that the prosecutions under 
the Flag Protection Act were not supportable under the First Amendment.
    Since that moment, I have profoundly appreciated the Constitutional 
protections that we, as Americans, enjoy and the seriousness with which 
any effort by the government to limit those rights is, and should be, 
viewed. The ability to freely express our views is fundamental to our 
society, even when some might find the words or ideas being expressed 
offensive or disagreeable. Just as our Constitution protects such forms 
of speech, it guards our right to peaceably assemble.
    After the Nation witnessed the horrific killing of George Floyd, 
seeing with their own eyes a loss of life that should never have 
occurred, many reacted. In doing so, many have sought to exercise their 
rights peacefully; some have not, turning instead to unlawful activity. 
The scope of the violence and destruction is significant. Neither the 
American people nor the peaceful demonstrators are defined by those who 
seek to terrorize our cities, vandalize our national memorials, ignite 
our sacred sites, or attack our law enforcement officers and fellow 
citizens. But the presence of these criminals and their acts of 
violence last weekend and into this week is indisputable.
    The men and women in law enforcement, particularly the U.S. Park 
Police (USPP) in this instance, are charged with safeguarding lives, 
protecting our national treasures and symbols of democracy, and 
preserving the natural and cultural resources entrusted to the 
Department of the Interior. They do this with great honor. Since last 
Friday, however, our colleagues at the USPP have been subjected to 
violence; several sustained injuries, and some were hospitalized.
    Beginning on Saturday, May 30, 2020, the USPP were under a state of 
siege, and routinely subject to attack by violent crowds. The incidents 
are numerous and include USPP officers having their police cars 
vandalized; being subject to bombardment by lighted flares, Molotov 
cocktails, rocks, bricks, bottles and other projectiles; and physical 
assault so violent that to date over 50 area law enforcement officers 
have been injured to some degree and even taken to local hospitals. 
This includes one USPP officer so violently attacked that he required 
emergency surgery.
    These acts of violence were accompanied by vandalism and disorderly 
conduct, such as the setting of numerous fires, including the burning 
of an historic structure at Lafayette Park as well as at St. John's 
Church; profane graffiti scrawled upon numerous public structures, 
including the World War II Memorial and the Lincoln Memorial; and 
multiple attempts to break through fence lines, bike racks, and other 
barriers designed to restrain crowds from entering secure areas. These 
are just a small sampling of the incidents faced by law enforcement 
prior to the gathering on June 1, 2020.
    In light of the activities on last Friday and Saturday--and at the 
request of USPP--I requested the assistance of the National Guard 
through the Secretary of Defense to ensure we could maintain the 
security of President's Park, the National Mall, and other public 
properties. Fortunately, my request for assistance was accepted.
    On the evening of June 1, 2020, crowds gathered near the White 
House complex and once again began assaulting law enforcement with 
projectiles while threatening to storm the secured areas. Law 
enforcement personnel at the scene issued an order for the 
demonstration to fall back. When the crowd failed to comply with this 
lawful order, police at the scene, including the USPP, responded by 
pushing the crowd back. While standard equipment, including shields, 
batons, and pepper balls where used to accomplish this, no tear gas was 
used by USPP or associated units at Lafayette Park, contrary to widely 
and erroneously reported assertions.
    In working diligently to curtail the violence that was underway, 
acting USPP Chief Gregory T. Monahan has publicly stated that the USPP 
is following its established policy. The motto of the USPP is 
Integrity, Honor, Service. These special men and women display an 
unwavering commitment to serve and protect this great Nation, our 
national treasures and symbols of democracy, and the natural and 
cultural resources entrusted to us. I have personally visited Lafayette 
Park multiple times over the last week. I have seen firsthand the 
damage and destruction. I have talked to our men and women in blue. 
They exemplify continued bravery, serving with distinction. 
Politicizing their solemnity is unconscionable.
    President Trump and I support justice and peace for every American. 
The President has committed his Administration to the expansion of 
economic opportunity and prosperity for all Americans. Under his 
leadership, criminal justice reform has been enacted, investments in 
underserved communities have been encouraged through opportunity zones, 
and, before the novel coronavirus outbreak, the unemployment rate among 
African Americans was recorded at its lowest in our Nation's history.
    This Administration also remains absolutely and fundamentally 
committed to the peaceful expression of First Amendment rights. 
However, violence to our citizens, attacks upon our officers, and 
destruction of our Nation's resources is unacceptable. Unfortunately, 
your letter repeats and amplifies a narrative that is harmful to the 
credibility of our law enforcement personnel and to the rule of law. 
That is also unacceptable.
    The men and women of the U.S. Park Police are public servants 
charged to protect and serve. They take this charge seriously. I invite 
you to join me in visiting with our injured officers so you can see and 
hear, firsthand, their accounts. A similar letter is being sent to 
Representative Debra Haaland.

            Sincerely,

                                        David L. Bernhardt,
                                         Secretary of the Interior.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. DeGette

  --  General Order for Use of Force No. 3615 approved by 
            Gregory T. Monahan, Acting Chief of Police, dated 
            November 1, 2019.

Submissions for the Record by Rep. Bishop

  --  Letter from the Reporters Committee for Freedom of the 
            Press dated June 29, 2020.

  --  NPS Document on Memorials and Statues Vandalized in 
            Recent Protests from June 19-23.

                                 # # #

                                     
  UNANSWERED QUESTIONS ABOUT THE U.S. PARK POLICE'S JUNE 1 ATTACK ON 
            PEACEFUL PROTESTERS AT LAFAYETTE SQUARE--PART 2

                              ----------                              


                         Tuesday, July 28, 2020

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:04 a.m., in 
1324 Longworth House Office Building, Hon. Raul M. Grijalva 
[Chairman of the Committee] presiding.
    Present: Representatives Grijalva, Sablan, Huffman, 
Lowenthal, Gallego, Cox, Neguse, Levin, Haaland, Cunningham, 
Velazquez, DeGette, Dingell, Brown, Soto, Cartwright, Garcia; 
Gohmert, Gosar, Westerman, Graves, Hice, and Gonzalez-Colon.
    Also present: Representative Beyer.

    The Chairman. Thank you very much. The Committee on Natural 
Resources will come to order. The Committee is meeting today to 
hear testimony on the Unanswered Questions About the U.S. Park 
Police's June 1 Attack on the Peaceful Protesters in Lafayette 
Square.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member or his designee. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules. 
Therefore, I am asking for unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Clerk by 5 p.m. today.
    Hearing no objections, so ordered.
    Without objection, the Chair may also declare a recess 
subject to the call of the Chair.
    As described in the notice, statements, documents or 
motions must be submitted to the electronic repository 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6820263a2b0c070b1b280509010446">[email&#160;protected]</a> house.gov.
    Additionally, please note, as with our fully in-person 
meetings, Members are responsible for their own microphones. As 
with our fully in-person meetings, Members can be muted by 
staff only to avoid inadvertent background noise.
    Anyone present in the hearing room today must wear a mask 
covering their mouth and nose. The Speaker of the House and the 
Sergeant at Arms, acting upon the recommendation of the 
Attending Physician, require face coverings for all indoor 
gatherings over 15 minutes in length, such as this Committee 
meeting. Accordingly, to maintain decorum and protect the 
safety of Members and the staff, the Chair will not recognize 
any Member in the hearing room to speak who is not wearing a 
mask. According to House Rule 17 and Committee Rule 3(d), the 
Chair retains the right of recognition of any Member who wishes 
to speak or offer a motion. This right includes the 
responsibility to maintain decorum.
    As should be noted, it is permitted by the Sergeant at 
Arms, through his guidance, that exceptions for Members briefly 
removing their mask to facilitate lip reading by viewers who 
are deaf or hard of hearing.
    Finally, Members or witnesses who experience technical 
problems should inform Committee staff immediately.
    With that, I will now recognize myself for the opening 
statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. Today, we continue examining the June 1 
decision by the U.S. Park Police and its partners to violently 
remove peaceful protesters from the area around Lafayette 
Square.
    At our hearing last month, witnesses told us that law 
enforcement officers assaulted peaceful protesters and 
journalists without warning, using tear gas and batons. We 
heard that the clergy at St. John's Church were forced off 
their own property for President Trump's photo op, which the 
diocese called a sacrilege.
    Many questions remain unanswered. Who gave the street-
clearing order and why? Who authorized the police to assault 
and gas non-violent protesters? Was this a premeditated plan to 
dominate the battle scene, as Administration officials 
described it? Was the non-violent crowd given a clear warning 
and a safe way to leave?
    We had hoped the Administration could help us answer these 
questions at the June 29 meeting. They refused to testify, so I 
am very glad that Mr. Gregory T. Monahan, Acting Chief of the 
U.S. Park Police, is with us here today. We are also fortunate 
to welcome Major Adam DeMarco. As the D.C. National Guard's 
liaison to the Park Police on June 1, he relayed the orders 
from the Park Police to the D.C. National Guard as they 
unfolded. Your presence here is very important and shows much 
courage, and I thank you for your decorated service to the 
country, which includes your participation here today.
    As the events have shown, Lafayette Square was a test run 
for what is an illegal and ongoing crackdown by the Trump 
administration that is being inflicted on cities across this 
country and attempts to escalate those confrontations. Rather 
than deal with and admit what did occur on June 1 was wrong, 
the Administration is doubling down on its response to unarmed 
civilians in cities like Portland, despite the mayor's demands 
in Portland that they leave. And what we saw with civilians 
being abducted off the streets without probable cause and taken 
away in unarmed vans without insignia or identification on the 
part of the law enforcement that took them away. And questions 
continue about Chicago and Albuquerque, New Mexico, where the 
President has threatened to use similar tactics. President 
Trump openly says he is sending paramilitary forces to these 
cities because they are run by Democratic mayors.
    This raises a crucial question. Was this Park Police-led 
assault on June 1 motivated by partisan hostility directed from 
above to those demanding justice for George Floyd and so many 
other Black men, women, and children and a very diverse group 
of people exercising their First Amendment rights from the 
Washington, DC region?
    My friend and our friend, John Lewis, made one of his last 
public appearances at the scene of the Park Police attacks on 
protesters, only 6 days before the June 1 incident. He spent 
his life doing what most of us know is the right thing, 
fighting for fair and equal treatment of Black Americans and 
all Americans.
    I believe it is our duty in Congress, as Americans, and as 
human beings, to ensure that others fighting for basic fairness 
do not suffer the same brutality that Mr. Lewis had to endure 
in his quest for fairness and equity for all people.
    I think we can do better, and we can be better. And that is 
why we are here today.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    Today, we continue examining the June 1st decision by U.S. Park 
Police and its partners to violently remove peaceful protesters from 
the area around Lafayette Square.
    At our hearing last month, witnesses told us that law enforcement 
officers assaulted peaceful protesters and journalists without warning 
using tear gas and batons. We heard that clergy of St. John's Church 
were forced off their own property for President Trump's photo op, 
which the diocese called ``sacrilege.''
    Many questions remain unanswered. Who gave the street-clearing 
order and why? Who authorized Park Police to beat and gas nonviolent 
protesters? Was this a premeditated plan to ``dominate the battle 
space'' as Administration officials described it? Was the nonviolent 
crowd given a clear warning, and a safe way to leave?
    We had hoped the Administration could help answer these questions 
at our June 29th hearing. They refused to testify. So, I'm glad Mr. 
Gregory T. Monahan, Acting Chief of the U.S. Park Police, is here 
today.
    We are fortunate to welcome Major Adam DeMarco. As the DC National 
Guard's liaison to the Park Police on June 1, he relayed the orders 
from the Park Police to the DC National Guard as they unfolded. Sir, 
your presence here is an act of profound courage. I thank you for your 
decorated service to our country, which includes your participation 
today.
    As events have shown, Lafayette Square was a test run for the 
illegal, ongoing crackdown the Trump administration is inflicting on 
cities across the country. Rather than admit what they did on June 1st 
was wrong, the Administration is doubling down on its violent abuses of 
unarmed civilians in cities like: Portland, where paramilitary agents 
are abducting civilians off the streets without probable cause and 
taking them away in unmarked vans, in flagrant violation of the 
Constitution and the Portland mayor's demands that they leave; and 
Chicago, where the President has threatened to use similar tactics.
    President Trump openly says he's sending paramilitary forces to 
these cities because they are run by Democratic mayors.
    This raises a crucial question--was his Park Police-led assault on 
June 1 motivated by partisan hostility to those demanding justice for 
George Floyd and so many other Black men, women, and children?
    My friend, Congressman John Lewis, made one of his last public 
appearances at the scene of Park Police attacks on protestors only 6 
days before June 1. He spent his life doing what most of us know is the 
right thing: fighting for the fair and equal treatment of Black 
Americans.
    It is our duty--as Members of Congress, as Americans, and as HUMAN 
BEINGS--to ensure that others fighting for basic fairness do not suffer 
the same brutality Mr. Lewis suffered.
    We must do better and BE better. That is why we are here today.

                                 ______
                                 

    The Chairman. Now, let me now turn to the designee for the 
Ranking Member.
    Sir, the floor is yours.

    STATEMENT OF THE HON. JODY B. HICE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Dr. Hice. Thank you, Mr. Chairman. We are here today really 
at what can only be considered Act 2 in the Democrats' 
political theater regarding the events in Lafayette Square. 
Even just the nature of today's title, that somehow the U.S. 
Park Police attacked peaceful protesters is ludicrous. The 
assertion that these were peaceful protests is completely 
ignoring the facts.
    We know that there were acts of arson, there was vandalism, 
and there were assaults on police officers in the days leading 
up to June 1. This is even acknowledged by the Democrats' 
second panel witness in his written testimony, which states 
that the witness learned that Federal law enforcement officers 
from Park Police and U.S. Secret Service had sustained 
injuries.
    However, today's hearing title does aptly note that there 
are some unanswered questions. I was confident these would 
remain, because the one witness who might be able to answer 
them was not at the previous hearing and the Majority knew 
that, and yet continued with the hearing for show.
    Chief Monahan, I am glad to see you here today. We are 
honored to have you and we appreciate you testifying before the 
Committee. You might not have all the answers today, but will 
probably be able to provide some of the facts that were missing 
from the previous hearing on this topic. So, we are grateful 
for that.
    My hope is that we will be able to see beyond the biased 
scope through which the Democrats are viewing these actions and 
establish a truthful history of what happened on that day. For 
example, we need more details about the warnings that were 
provided, and the opportunity protesters were given to 
disperse. In the last hearing, Democrat witnesses claimed that 
there were no warnings heard. But a CNN reporter, Kaitlan 
Collins, live tweeted, ``Park Police is now warning protesters 
to leave. They have given three warnings over a loudspeaker.'' 
That tweet came at 6:32 p.m. on June 1, so who are we to 
believe?
    But we cannot talk about the events of June 1 in a vacuum; 
they must be viewed in a larger context. What plans were made 
prior to June 1 about expanding the perimeter? How did the 
levels of violence and destruction factor into the decision?
    We should also compare the scenarios of Lafayette Park to 
other protests that have occurred in the city. Americans 
frequently exercise their rights to assemble and protest in 
Washington. We have numerous, and from all ideological 
perspectives. We have a number of examples from the Women's 
March, the March for Life, March for Our Lives, just to name a 
few. The difference between those events and the events at 
Lafayette Square are the acts of violence and destruction.
    While the predetermined narrative surrounding the events at 
Lafayette Park and other events occurring throughout our Nation 
outlines a story of law enforcement squashing rights, the 
reality of the situation is quite different. In this case and 
in others, law enforcement agents acted to secure an area and 
restore peace, taking reactive measures after acts of violence 
and destruction. The provokers, the true culprits responsible 
for thwarting peaceful protests are the vandals and the 
rioters. Bad actors have hijacked an important national 
conversation to push their agenda of violence and disorder.
    If we are looking to lay blame, those are the individuals 
you should cast as the villains in this plot, those who ignored 
the law and created an unsafe environment for peaceful 
protesters and law enforcement alike. These are the individuals 
who are responsible for limiting the ability of others to 
express their thoughts and opinions.
    Although I do not believe this is the closing act of this 
political drama, perhaps this is the story line's plot twist 
where this Committee focuses on facts instead of political 
points. And maybe, just maybe, we will get to the truths about 
the realities facing the men and women who serve our 
communities as law enforcement officers and answer questions 
about the decisions that were made on June 1.
    With that, Mr. Chairman, I yield back. Thank you.
    The Chairman. Thank you, Mr. Hice. The gentleman yields 
back.
    Now we will turn to our first panel. Mr. Gregory T. Monahan 
is the Acting Chief of the United States Park Police. He has 
been with the Park Police or the Department of the Interior Law 
Enforcement for over 23 years. Thank you very much, Chief, for 
being here today.
    I will just remind the witness that, under our Committee 
Rules, you must limit your oral statement to 5 minutes, but 
your entire statement will appear in the hearing record.
    When you begin, the timer will begin. The lights in front 
of you will turn yellow when there is 1 minute left, and red 
when time is expired.
    I recommend that Members joining remotely use active 
speaker thumbnail view, so they may pin the timer on their 
screen and see Members in the room.
    The Chair now, again, thanking Chief Monahan for being here 
with us today, recognizes Acting Chief Monahan for his 
testimony. Sir, the floor is yours.

   STATEMENT OF MR. GREGORY T. MONAHAN, ACTING CHIEF, UNITED 
      STATES PARK POLICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Monahan. Chairman Grijalva, Ranking Member Bishop and 
members of the Committee, my name is Gregory Monahan and I am 
the Acting Chief of Police for the United States Park Police.
    The United States Park Police is the oldest uniformed 
Federal law enforcement agency in the United States and 
provides law enforcement services, including the protection of 
visitors and park resources to designated National Park Service 
areas, primarily in Washington, DC; New York City; and the San 
Francisco metropolitan areas. Here in Washington, that includes 
the National Mall and Lafayette Park on the north side of the 
White House at H Street, between 15th and 17th Streets, NW.
    Each year, the United States Park Police facilitates 
hundreds of First Amendment demonstrations and special events 
in and around the District, some with permits and some with 
not, to ensure the safety of the public and the protection of 
national cultural assets. In facilitating these demonstrations, 
the Park Police partners and coordinates with numerous public 
safety and protection agencies within the National Capital 
Area.
    In the days following the death of George Floyd, videos 
from witnesses and CCTV became public and ultimately led to 
protests in cities throughout the United States and abroad. The 
District became the focal point for demonstrators and one of 
the most highly concentrated areas of protests was in and 
around Lafayette Park, which is recognized as a public forum 
for speech and assembly.
    The Park Police is accustomed to managing large and 
occasionally unruly public demonstrations and spontaneous 
events at Lafayette Park, as well as throughout the National 
Capital Area. In these instances, we have an obligation to 
protect the safety of peaceful demonstrators, maintain law and 
order, and keep our law enforcement officers safe.
    Beginning on Friday, May 29, public use of Lafayette Park 
became a danger to public safety, good order, and health, and 
was inconsistent with the preservation of National Park Service 
resources. Violent demonstrations occurred between May 29 and 
June 1, and included projectiles aimed at law enforcement 
officers, including bricks, rocks, caustic substances, frozen 
water bottles, lit flares, fireworks, and 2x4 sections of 
lumber. Protesters were physically combative with members of 
law enforcement. The violent protesters injured 50 officers 
from the United States Park Police alone. Eleven of my officers 
were transported to area hospitals and three of them were 
ultimately admitted.
    The unprecedented and sustained nature of violence and 
destruction associated with some of the activities in Lafayette 
Park and the surrounding areas required de-escalation. And late 
Saturday evening, on May 30 into Sunday morning, May 31, the 
U.S. Park Police, in consultation with our partners from the 
Secret Service, decided to temporarily restrict access to the 
park and the adjacent streets and sidewalks by ordering and 
installing anti-scale fencing across the north side of 
Lafayette Park.
    The installation of the fence met resource and protection 
de-escalation goals while enabling First Amendment activity to 
continue. Once we made that decision, installation of the fence 
was dependent on two factors. First, we were required to have 
sufficient resources on scene to safely clear Lafayette Park 
and H Street. And second, the fencing had to be present at the 
park. Both of these requirements were not met until later in 
the day on Monday, June 1. Once the fencing arrived, an on-the-
ground assessment of the violence and danger presented by the 
crowd led to the clearing of the park and the installation of 
the fence.
    The Park Police has faced a significant amount of criticism 
on the heels of the June 1 operation. However, the installation 
of the no-scale fence on the north side of Lafayette Park was a 
key tactic that served to greatly de-escalate the violent 
behavior of bad actors. Violence dropped dramatically on June 2 
and afterward in that area, and First Amendment activities 
continued.
    In this case, I believe the United States Park Police acted 
with tremendous restraint in the face of severe violence from a 
large group of bad actors, who again caused 50 of my officers 
to seek medical attention. Our actions that day centered around 
public safety and the safety of my officers. And the decision 
to install the fencing was in furtherance of that commitment 
toward de-escalation.
    Thank you, and I look forward to answering questions the 
Committee may have.

    [The prepared statement of Mr. Monahan follows:]
 Prepared Statement of Gregory T. Monahan, Acting Chief, United States 
              Park Police, U.S. Department of the Interior
    Good morning Chairman Grijalva, Ranking Member Bishop, and members 
of the Committee. My name is Gregory Monahan and I am the acting Chief 
of the United States Park Police.
    The United States Park Police, established in 1791, is the oldest 
uniformed Federal law enforcement agency in the United States. An urban 
law enforcement unit, the United States Park Police provides law 
enforcement services to designated areas administered by the National 
Park Service (NPS), primarily in the Washington, DC, New York City, NY 
and San Francisco, CA metropolitan areas, protecting the safety of 
visitors and park resources.
    In the District of Columbia, the Park Police has primary 
jurisdiction over Federal parkland, including the National Mall and 
Lafayette Park. Each year the Park Police facilitates hundreds of First 
Amendment demonstrations and special events in the Washington DC area, 
some with permits and some without, to ensure the safety of the public 
and the protection of national cultural assets. In facilitating these 
demonstrations, the Park Police partners and coordinates with numerous 
public safety and protection agencies within the National Capital Area 
of Region 1.
    In the days following the death of George Floyd in Minneapolis, 
Minnesota, videos from witnesses and CCTV became public and ultimately 
led to protests in cities throughout the United States and abroad. The 
Nation's capital became a focal point for demonstrators. One of the 
most highly concentrated areas of protest occurred in and around 
Lafayette Park, which sits on the north side of the White House on H 
Street between 15th and 17th Streets, NW. Lafayette Park is recognized 
as a public forum for freedom of assembly and speech. The Park Police 
is accustomed to managing large, and on occasion unruly public 
demonstrations and spontaneous events at the Park, as well as 
throughout the National Capital Area of Region 1. In these instances, 
we have an obligation to protect the safety of peaceful demonstrators, 
maintain law and order, and keep our law enforcement officers safe.
    Unfortunately, beginning on Friday, May 29, 2020, public use of 
Lafayette Park became a danger to public safety, good order, and 
health, and was inconsistent with the preservation of NPS resources. 
Violent demonstrations occurred between May 29 and June 1 and included 
projectiles aimed at law enforcement officers that included bricks, 
rocks, caustic liquids, water bottles, lit flares, fireworks, and 2x4 
sections of wood. Protestors were also physically combative with 
members of law enforcement. These violent protestors caused injuries to 
over 50 officers of the United States Park Police. Of those, 11 
officers were transported to the hospital and 3 were ultimately 
admitted.
    The unprecedented and sustained nature of the violence and 
destruction associated with some of the activities in Lafayette Park 
and surrounding park areas immediate and adjacent to the White House 
required de-escalation. Late Saturday evening of May 30 into Sunday 
morning May 31, the United States Park Police, in consultation with the 
United States Secret Service, decided to temporarily restrict access to 
Lafayette Park and the adjacent streets and sidewalks by ordering and 
installing no-scale fencing across the north side of the Park. The 
installation of the fence would meet the resource protection and de-
escalation goals while enabling First Amendment activity to continue.
    Once we made the decision to order the no-scale fence, the 
installation of the fence was dependent on two factors: the first was 
that we were required to have sufficient resources on scene to safely 
clear Lafayette Park and H Street; and the second was that the fencing 
had to be present at the Park. Both of these requirements were not met 
until later in the day on Monday, June 1. Once the fencing arrived, an 
on-the-ground assessment of the violence and danger presented by the 
crowd led to the clearing of the Park and the installation of the 
fence.
    The United States Park Police has faced a significant amount of 
criticism on the heels of the June 1 operation. However, the 
installation of the no-scale fence on the north side of Lafayette Park 
was a key tactic that served to greatly reduce the violent behavior of 
bad actors. The Park Police takes seriously its commitment to protect 
the public and our Nation's parklands and cultural assets, and the 
decision to install the fencing was in furtherance of that commitment. 
Fortunately, that decision had the intended effect--violence dropped 
dramatically on June 2 and afterward in that area and First Amendment 
activities continued.
    I believe the vast majority of law enforcement officers throughout 
this country are dedicated public servants who pursue this noble 
calling with courage in their hearts and decency in their actions. On 
the whole, the United States Park Police acted with tremendous 
restraint in the face of severe violence from a large group of bad 
actors who caused 50 of my officers to seek medical attention. Our 
actions as an agency on June 1 centered around public safety and the 
safety of my officers.
    I look forward to answering any questions the Committee has and I 
thank you for the opportunity to testify today.

                                 ______
                                 

    The Chairman. For the testimony, reminding the Members of 
the rule imposing a 5-minute limit on the questions. The Chair 
on our side of the dais will recognize the Chairs of the 
Subcommittees and then proceed on a first-come-first-served 
basis going forward.
    With that, let me turn to Mr. Huffman for your 5 minutes, 
sir.
    Mr. Huffman. Thank you, Mr. Chairman.
    Chief Monahan, welcome. You have spoken a lot in your 
testimony about the time frame from George Floyd's murder until 
June 1, and you have talked with respect to Lafayette Park 
about the period between--your words, between May 29 and June 
1. This Committee in this hearing is focused entirely on June 
1, and the chronology matters.
    Are you suggesting that some of these violent incidents by 
protesters, the throwing of caustic liquids and bricks and 
projectiles and harming officers occurred on June 1?
    Mr. Monahan. Yes, sir, I am. On June 1 and throughout that 
operational period, we saw sustained violence from a number of 
bad actors in Lafayette Park and on H Street.
    Mr. Huffman. Can you provide this Committee with 
documentation of that? Because that directly contradicts other 
firsthand evidence that we have, including video evidence.
    Mr. Monahan. Yes, sir. Any request for any documents, I am 
happy to----
    Mr. Huffman. We want to see everything you have on that.
    Now, did that happen before or after 6:35 p.m., when your 
officers and others began advancing on the protesters?
    Mr. Monahan. Yes, so the level of violence that we were 
subjected to on June 1 was----
    Mr. Huffman. No, no, no. A very direct question. Did the 
violence that you are referring to happen before 6:35 p.m.?
    Mr. Monahan. Yes, sir. I understand the question. And the 
violence that we were subjected to was throughout the entire 
operational period, before and after.
    Mr. Huffman. All right, thank you. And, again, we really do 
want to see that evidence, sir.
    Mr. Monahan, you have been with the Park Police for a long 
time, so you are surely familiar with the settlement your 
agency entered into in 2015 after 13 years of litigation. You 
ended up paying millions of dollars to almost 400 peaceful 
protesters that you had advanced on with forceful means. And as 
part of that legal settlement, the service police was required 
to make very specific policy changes. Are you familiar with 
that settlement?
    Mr. Monahan. Yes, sir.
    Mr. Huffman. Mr. Chairman, I ask unanimous consent to enter 
into the record that 2015 settlement agreement.
    At the top of page 8, that agreement requires the Park 
Police to update its procedure to provide audible warnings to 
protesters to disperse. And there are four significant parts of 
that legally enforceable commitment that your agency made. The 
first is officers must be positioned in the rear of the crowd, 
so that they can actually hear the warnings that are given 
before the police advance. The second is that they need to use 
sound amplification as needed. And, third, that they need to 
warn the protesters that they are in violation of a specific 
law. There is a substantive requirement as part of that 
warning. And fourth, maybe most significantly for June 1, the 
arresting officers positioned in the rear of the crowd are 
required to give a verbal and/or physical indication to the 
officers in the front who are giving that warning, so that your 
officers can confirm that it was audible and that it had been 
heard by the protesters.
    Were all of these procedures followed on June 1?
    Mr. Monahan. The directives on June 1 were followed.
    Mr. Huffman. All right. I just want to get your direct 
answer, and you say that every one of those procedures was 
followed.
    I am going to ask to play a video that we believe suggests 
otherwise, Mr. Chief. I would like to ask staff to play the 
clip entitled Warning One.
    [Video shown.]
    Mr. Huffman. Mr. Monahan, could you understand the warning 
that was recorded in this video? Could you hear it? Was it 
audible to you?
    Mr. Monahan. Yes, I could hear the warning. Yes.
    Mr. Huffman. You must have superhuman hearing. Because I 
don't think any of us could hear it. And wouldn't you agree, 
just from own lying eyes, we could see protesters who were 
clearly confused, who did not appear to be told that they were 
about to be advanced on, who did not appear to be told that 
they were in violation of a specific law, as your settlement 
requires.
    Do you feel that that was understood by those protesters as 
evidenced by that video footage?
    Mr. Monahan. I think when you take into account video 
footage, there is context. And based on other video that I have 
viewed from June 1 and specifically around this time frame when 
the first warning was given, throughout the first warning 
through the third warning, you can see a number of 
demonstrators leave the area and heed the warning that was 
given from the incident commander that----
    Mr. Huffman. All right, well, Chief Monahan, we do look 
forward to getting the evidence that backs up your account of 
this.
    But, Mr. Chair, from everything we have heard, from 
everything we have seen, it sure appears as if the Park Police 
ignored their own legal requirements in the settlement to 
follow these procedures, almost as if they wanted the crowd to 
be confused, so that they could go in with maximum force and 
perhaps appease a president who just hours earlier had urged 
police to act that way.
    I yield back.
    The Chairman. Thank you, Mr. Huffman. Let me recognize Mr. 
Westerman for your 5 minutes, sir.
    Mr. Westerman. Thank you, Mr. Chairman.
    Chief Monahan, thank you for your testimony. This hearing 
is about politics and I apologize to you and the rest of the 
officers in the United States Park Police for having to endure 
a political attack. This is not the first hearing we have had 
on this; it probably won't be the last hearing.
    If my colleagues across the aisle were concerned about 
police reform, I don't think that their colleagues in the 
Senate would have described Senator Tim Scott's bill as a token 
bill. I don't think the Speaker would have dismissed it as 
attempted murder or whatever words she used about Senator 
Scott's bill.
    We are here today to find out facts, not to play politics 
with a serious situation. My colleagues are supporting 
defunding the police. They seem to have no problem with 
defacing public property. And we all agree that Americans are 
allowed to protect peaceably, like the Constitution says. So, 
the question is, were these peaceful protests or were they 
violent protests?
    You have testified that 50 of your officers were injured. 
Can you describe some of those injuries?
    Mr. Monahan. Yes, sir. Like I said in my opening statement, 
50 U.S. Park Police officers were injured between May 29 and 
June 1. On May 29, we had 13 officers that were injured during 
violent protests at Lafayette Park and 1600 Pennsylvania 
Avenue. Eleven of those injuries were blunt trauma related 
injuries to the head, upper body, and lower body. One of those 
injuries was sustained by a sergeant from the United States 
Park Police, who was wearing this helmet here on the table. He 
was struck in the helmet by a brick that was thrown at him by a 
violent protester. And you can see the damage that had occurred 
to the left side of this helmet that is sitting here on the 
table. That officer was later hospitalized. To this date, he 
has still not returned to work.
    On May 30, there were 37 injuries up at the White House. 
Twenty of those were for the U.S. Park Police, and those 
injuries were blunt trauma related injuries to the head, upper 
body, and lower body, the most significant of which was an 
officer from the U.S. Park Police, who was on the line on the 
north end of Lafayette Park, and he was struck in the testicles 
by a protester who threw a brick and struck him in the groin. 
He suffered a significant injury. He just returned to work this 
past Sunday.
    On May 31, we had 16 patient encounters of U.S. Park Police 
personnel, six of those were blunt trauma related injuries to 
the head, upper body, and lower body. And on June 1, we only 
had one injury. An officer was punched in the face by a 
protester when we were clearing H Street, and he suffered a 
facial laceration.
    Mr. Westerman. I find it hard to see how anybody could call 
that a peaceful protest. And was the protocol followed to give 
three warnings? And what kind of device was used to do that?
    Mr. Monahan. Yes, sir. The protocol was followed to give 
three warnings, the first of which was given at 6:23 p.m. There 
were three warnings given. And they were given utilizing a 
long-range acoustic device, it is called an LRAD, and that is 
what it stands for. That was the device used.
    Mr. Westerman. I just want to get some things straight for 
the record here. Did Attorney General Barr order the Park 
Police to clear the square?
    Mr. Monahan. No, sir, he did not.
    Mr. Westerman. Did White House Chief of Staff Mark Meadows 
order the Park Police to clear the square?
    Mr. Monahan. No.
    Mr. Westerman. Did anyone at the White House order the Park 
Police to clear the square?
    Mr. Monahan. No, sir.
    Mr. Westerman. Did Secretary Bernhardt order the Park 
Police to clear the square?
    Mr. Monahan. No, he did not.
    Mr. Westerman. It seems pretty cut and dry to me what 
happened. I wish that Congress could work on renewing hope in 
America, on restoring the America that we love, and work on 
overcoming this pandemic and rebuilding our future, rather than 
continuing to drag issues like this through the mud, when it is 
clear that my colleagues across the aisle do not want to work 
for solutions. A very thoughtful, bipartisan bill was put out 
on police reform by Senator Scott and it was essentially 
laughed at.
    With that, I yield back.
    The Chairman. The gentleman yields. Let me now turn to the 
Vice Chair of the Committee, Ms. Haaland, for any questions you 
might have.
    Ms. Haaland. Thank you, Mr. Chairman.
    Thank you very much for being here, Mr. Monahan. I would 
like to talk about the missing Park Police radio recordings 
from June 1. Mr. Monahan, did the Park Police communicate over 
radio with other agencies regarding the orders and coordination 
of June 1 that we are talking about today?
    Mr. Monahan. In terms of the radio transmissions made by 
the United States Park Police, they were to other members of 
the United States Park Police. We had face-to-face contact with 
partner agencies on June 1.
    Ms. Haaland. So, just to be clear, the radio interaction, 
communication, was just between the Park Police, and any other 
communications between other agencies were in person?
    Mr. Monahan. Yes, ma'am.
    Ms. Haaland. OK. Is it standard procedure for Park Police 
to record radio transmissions between each other, like this?
    Mr. Monahan. Yes, standard procedure for every incident is 
to have a record of any radio transmissions.
    Ms. Haaland. And can you explain to us why the radio 
transmissions should be recorded?
    Mr. Monahan. Yes, ma'am. If you go back to September 2018, 
the United States Park Police were utilizing an analog radio 
system at the time. We were preparing to transition to a 
digital radio format.
    In September 2018, we experienced a critical failure in our 
analogue radio system. We transitioned to the digital format. 
When our radio technicians were conducting this transference, 
only our main radio channel was configured to record. Our 
administrative channel that we utilize for large special 
events, such as the one on June 1, was not configured to record 
at the time.
    Ms. Haaland. So, it was not configured to record at the 
time. Are there radio recordings of the Park Police for the 
time period between May 29 and June 2 at all?
    Mr. Monahan. For our normal operations, yes, but not for 
the special event in the demonstration at the White House.
    Ms. Haaland. And I'm sorry. Why is that?
    Mr. Monahan. So, again, when we transitioned to our digital 
radio system, the radio technicians that were setting up that 
system only set up our main dispatch channel to record. It was 
an error. They did not set up our administrative channel to 
record.
    Ms. Haaland. OK. So, that was an error you say?
    Mr. Monahan. Yes, it was.
    Ms. Haaland. OK. Were there any notes or logs of those 
transmissions because there was an error in having those 
communications recorded?
    Mr. Monahan. Yes. For any special event, a large special 
event or demonstration like the one on June 1, we establish a 
written record or a written log of transmissions that are 
utilized within the command bus to send out situational reports 
or updates via e-mail.
    So, that was done in this case.
    Ms. Haaland. Can you provide any notes or logs of those 
transmissions to the Committee please?
    Mr. Monahan. I will work with the Department's Office of 
Congressional and Legislative Affairs on any request that you 
have.
    Ms. Haaland. And is it regular practice to take such notes 
or logs or does it only happen when you know the radio 
recording is not working?
    Mr. Monahan. That is a good question. As I mentioned 
earlier, for large special events or demonstrations like we had 
on June 1 and the days leading up to June 1, we established a 
redundant process of having a written log.
    Ms. Haaland. OK. So, is it standard procedure to record 
radio transmissions, but there is no recording of radio traffic 
from Park Police for June 1, which just happens to be the day 
the Administration did a test run of the brutal crackdown on 
protestors we continue to see now in cities across America?
    And I would imagine having that recording would answer many 
of the questions that we and the public have at this moment.
    Mr. Monahan. Yes, ma'am, and I agree. I think every 
incident should have a complete record, and in this instance, 
we have a written record.
    Ms. Haaland. OK. And you will provide that written record 
to the Committee at your earliest convenience or make sure of 
that?
    Mr. Monahan. Yes. I will work with the Office of 
Congressional Legislative Affairs on fulfilling your request.
    Ms. Haaland. Thank you.
    Regarding your radio recording technology--you are saying 
it was not actually broken, it was just an error in making sure 
that the recordings actually recorded. So, it was not set up 
that way. It was not really broken. Is that correct?
    Mr. Monahan. That is correct, and we did not recognize the 
error until we attempted to pull the radio run on June 10. We 
have since, as soon as we were alerted to the fact that it was 
not configured to record, we have corrected that error.
    Ms. Haaland. OK. And I am sorry. Whose fault was the error?
    Mr. Monahan. If you go back to September 2018, the radio 
technicians, it was an oversight on their part and they did not 
configure the administrative channel to record.
    Ms. Haaland. OK.
    Mr. Monahan. And as I said, every incident should have a 
complete record, and in this instance, we have a written log.
    Ms. Haaland. OK. And right now the radio recordings are 
working. Is that what you are telling me?
    Mr. Monahan. Yes, ma'am, that is correct.
    Ms. Haaland. So, if we were to have a repeat of June 1, we 
would have the recordings that you could send over to us?
    Mr. Monahan. Yes. Our administrative channel is configured 
to record, yes.
    Ms. Haaland. OK. Thank you, Chairman. I am sorry. I yield.
    The Chairman. The gentlelady yields back.
    Mr. Hice, you are recognized.
    Dr. Hice. Thank you, Mr. Chairman.
    You mentioned the long-range acoustic device that was used. 
What is the range of that device when it comes to warning the 
crowd?
    Mr. Monahan. Sir, it has been some time since I read the 
actual specs of the long-range acoustic device, but I want to 
say it is 600 meters.
    Dr. Hice. OK. Were the protesters within that range?
    Mr. Monahan. Yes. I would estimate that they were where we 
had it set up, which was we were in the center of the park and 
on the northeast section of the center of the park, and I would 
say we were within 45 meters of the protesters.
    Dr. Hice. So, they were in range of hearing.
    I would also note that protesters must have the ability to 
leave an area. What courses of actions did the Park Police 
consider when discussing that issue?
    Mr. Monahan. Yes, sir. When implementing our plan to clear 
the north side of Lafayette Park and H Street, we moved the 
crowd from east to west, and then their path of exit was either 
north on 16th Street toward I, India, Street or continued west 
to 17th and H or Connecticut and H.
    Dr. Hice. So, that is the direction that the officers were 
pushing the protesters?
    Mr. Monahan. That was the movement from east to west, 
correct.
    Dr. Hice. OK. Were the protesters in any way prevented from 
leaving the Square by police?
    Mr. Monahan. No, they were not.
    Dr. Hice. OK. You mentioned earlier the various acts of 
violence, the projectiles that were being thrown, and the 
injuries that were sustained. There was everything from frozen 
water bottles to bricks, caustic liquids.
    In a weekend of violent protests, you mentioned 51 officers 
injured. Of course, we know about the arsons at the St. John's 
Church and so forth.
    I would also note from intelligence reports that there were 
calls by police officers, again, regarding violence against 
them. There were also caches found of glass bottles, baseball 
bats, and metal poles, along the way.
    I am curious from the time from then to now has there been 
any type of investigation to see whether or not there were any 
specific groups or a group that was involved in organizing all 
of this.
    Mr. Monahan. Yes. The United States Park Police has 
coordinated with a number of our Federal partners in follow-up 
investigations on some of the violence that we saw, the 
assaults on officers. We have been successful in obtaining a 
number of arrest warrants for individuals that were either 
involved in assaults against police officers or damage to park 
resources.
    In terms of a nexus to larger groups, that is an ongoing 
effort.
    Dr. Hice. When do you think that may be determined?
    Mr. Monahan. I don't know if I could say as I sit here 
today. Again, these are ongoing investigations, and as we 
gather more information and as additional arrests are made, all 
of the intel that is gathered from those arrests contributes to 
any nexus to a larger effort.
    Dr. Hice. It just appears that in some other places 
throughout the country there are specific groups that are 
behind it. I was curious if that was the same here, but that 
investigation is still underway is what you are saying?
    Mr. Monahan. Yes, sir, that is correct.
    Dr. Hice. Recently there was a video that was circulated 
that shows Representative Jerry Nadler, of course, Chairman of 
the Judiciary, stating that many of these protests were, in 
essence, a myth as far as the violence within the protests. 
Would you agree with that?
    Mr. Monahan. No, sir, I would not agree. I think based on 
the level of violence and sustained violence that we saw 
beginning on May 29 through June 1, this was one of the most 
violent protests that I have been a part of in my 23 years with 
the United States Park Police.
    Dr. Hice. One of the most. What would be another one that 
would rank up there in your memory?
    Mr. Monahan. The Occupy DC demonstrations from several 
years ago and then the World Bank demonstrations.
    Dr. Hice. OK. It is just amazing to me, as Representative 
Westerman mentioned, that this is just nothing more than 
political theater to come here and somehow pretend as though 
these were peaceful protesters where the evidence is abundant, 
everything from arson to vandalism to 51 injured officers. This 
was anything but peaceful, and the reason it did not sustain 
that kind of momentum in Washington, DC, is because the Park 
Police and others got involved to put a stop to it.
    So, I want to thank you for your service in that regard in 
maintaining the safety of Washington, DC, and beyond. We are 
appreciative of that.
    And, Mr. Chairman, before I yield, I do have a letter from 
the Federal Law Enforcement Officers that I would ask unanimous 
consent to have submitted to the record.
    The Chairman. Without objection.
    Dr. Hice. Thank you, sir. I yield.
    The Chairman. Mr. Lowenthal. You are recognized, sir.
    Dr. Lowenthal. Thank you, Mr. Chairman.
    And thank you, Acting Chief Monahan, for being here.
    The questions that I have, Mr. Monahan, have to do with the 
reasons given for clearing the protesters from Lafayette 
Square. I think you mentioned that the reason was that the area 
was needing be cleared to put up fencing to seal off Lafayette 
Park and create a new perimeter.
    When was that decision made?
    And was there any specific time when this fencing was 
supposed to go up?
    Mr. Monahan. Yes, sir. The decision to pursue other options 
based on the increased level of violence that we saw beginning 
on May 29 was initially discussed Saturday evening into Sunday 
morning.
    Based on a number of factors, we knew that we were likely 
going to have on Monday a late report time for our personnel, 
but also a late arrival time for the fencing.
    The fencing did arrive on Monday in the late afternoon. At 
3 p.m. on Monday, the site manager arrived. At 3:30 p.m., the 
employees arrived. The fencing arrived at 5:15 p.m. and then 
was staged on 17th Street by the United States Secret Service.
    As I spoke earlier, at 6:23 p.m., we gave the first of 
three warnings. The initial movement to clear the north side of 
Lafayette Park and H Street was commenced at 6:30 p.m., and it 
was concluded at 6:50 p.m.
    At 6:55 p.m., the Secret Service escorted the trucks with 
the fencing inside the White House area and staged them on the 
west side of Lafayette Park at Jackson Place. They began to 
install the fence at 7:30 p.m., and the fencing build-out was 
completed at 12:50 a.m.
    Dr. Lowenthal. Let me understand. You said this operation 
about the fencing, that its happening in the early evening was 
inevitable, given that you needed both the resources and the 
fencing to do this.
    Was there ever any discussion that it would be better to 
start this process of fencing after the curfew or at night to 
start it instead of in the evening when the crowd was going to 
be at its peak?
    What is the standard of timing for setting up security 
fencing and a new perimeter?
    Mr. Monahan. In this particular instance, we were not 
necessarily operating on a timeline. We were operating on the 
need for logistical strength in the terms of having ample 
resources to safely implement our plan and then having the 
fencing in place.
    In terms of the curfew, that was not something that factors 
into our decision making. And if you look at the level of 
violence that we were subjected to over the three previous 
operational periods, it increased throughout the day and as 
nightfall came upon us, it increased even from that point on.
    So, if the previous night was any indication, which was the 
first night where we had the curfew, waiting until curfew did 
not appear likely that the rioters in the crowd would 
peacefully disburse.
    Dr. Lowenthal. So, let me just understand this. In his 
statement, Major DeMarco also mentioned that shortly after 
Attorney General Barr left Lafayette Square at 6:20 p.m., after 
conferring with the Park Police, the inaudible warnings began.
    Shortly after the clearing finished in a fast paced and 
rushed manner, about 30 minutes later, the President was having 
his photo op at about 7:05 p.m.
    Now, I need to understand. Either the clearing was for a 
photo op or that is an amazing coincidence, do you not think, 
Mr. Monahan?
    Mr. Monahan. No, I do not think it is a coincidence. Our 
operation was solely centered around the clearing of H Street 
and the north end of Lafayette Park to de-escalate the 
sustained level of violence that we saw over the previous 3 
days and then again on June 1.
    In order to do that, in order to successfully de-escalate 
that, a common practice is to install physical barriers or 
boundaries between protesters and law enforcement. And in this 
case, the best avenue to do that was to install that anti-scale 
fencing. And to my point, if you fast-forward to June 2, we saw 
a dramatic decrease in violent behavior at Lafayette Park on 
June 2.
    Dr. Lowenthal. Thank you, and I am going to yield back. But 
it just strikes me as an amazing coincidence. I yield back.
    The Chairman. The gentleman yields. Ms. Gonzalez-Colon, you 
are recognized.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. I yield my 5 
minutes to Mr. Hice.
    Dr. Hice. I thank the gentlelady for yielding. Let's talk 
about this--the Democrats' second witness submitted written 
testimony that the materials to erect the fence did not arrive 
on the scene until around 9 p.m. Can you confirm that 
testimony? If not, what time did the material arrive and the 
fence start being erected?
    Mr. Monahan. Yes, sir. Mr. DeMarco was mistaken. The 
fencing--as I said earlier, the site manager arrived at 3 p.m. 
The employees arrived at 3:30 p.m. The first truck with the 
fencing arrived at 5:15 p.m. But they were staged on 17th 
Street south of Pennsylvania Avenue. They were escorted into 
the White House complex at 6:55 p.m. And that was after we 
cleared the north end of Lafayette Park and H Street. And at 
7:30 p.m., they began to build the fence.
    Dr. Hice. OK.
    Mr. Monahan. 7:30 p.m.
    Dr. Hice. All right. So, the testimony of the next witness 
is not accurate as it relates to the fence. Since the time that 
the fence was put up, how many officers have been injured?
    Mr. Monahan. After the fencing was built out, we have zero 
injuries from U.S. Park Police officers.
    Dr. Hice. All right. Why does Lafayette Park remain closed?
    Mr. Monahan. The fencing was taken down shortly after. I 
think June 10, it was taken down. We saw sort of a second phase 
of violence in DC that was directed at statues and other 
Federal property. And Lafayette Park was closed down through 
the 31st of this month in an effort to restore and repair some 
of the damage that was done in Lafayette Park.
    Dr. Hice. It seems clear to me that fencing is effective in 
deterring vandals. Would you agree with that?
    Mr. Monahan. In this case, just based on the geography, it 
was a meaningful and deliberate move and a change in tactics on 
our part in furtherance of de-escalation. So, yes, it did work.
    Dr. Hice. Yes, it did work. You had zero injuries since 
then. I think the evidence speaks for itself. Is there 
currently a fence around St. John's church?
    Mr. Monahan. There is anti-scale fencing around a portion 
of St. John's church, yes.
    Dr. Hice. Has there been any further damage or vandalism 
done to the church since the fence was erected around the 
church?
    Mr. Monahan. Not to my knowledge.
    Dr. Hice. Not to my knowledge either. Who requested this 
fence to be erected?
    Mr. Monahan. The concept or the idea of utilizing anti-
scale fencing was a conversation that we had between the U.S. 
Park Police and our counterparts with the United States Secret 
Service. And, again, that discussion began Saturday evening 
into Sunday morning.
    Dr. Hice. According to your testimony, the fence was a key 
tactic that served to greatly reduce the violent behavior of 
bad actors. And from your testimony here this morning, it was 
effective in accomplishing that strategic mission. The Park 
Police has an obligation to protect the safety of peaceful 
demonstrators while, at the same time, maintaining law and 
order. We get that. And we have to protect our law enforcement 
officers. So, how does the erection of the fence in this case 
and in other cases help accomplish these obligations?
    Mr. Monahan. Yes. It is a good question. It is a physical 
barrier. And what we saw on the days preceding it, so on the 
29th, 30th and the 31st, the barriers that we had between 
protesters and law enforcement in the park were two rows of 
bike rack, which is maybe 4 feet high. And we had numerous 
attempts, successful attempts, of demonstrators jumping over 
the bike rack that was lined with police tape to not cross.
    Erecting an anti-scale fence was a logical move and a 
change in tactic to prevent those types of behaviors. It did 
not prevent projectiles from continuing to be thrown in the 
days subsequent to that. But it provided a suitable barrier 
between law enforcement and those bad actors that were showing 
their violence toward law enforcement.
    Dr. Hice. Well, let me ask you this in my final question 
here. Who specifically were the personnel involved in the 
actual installation of the fence? Were the national guardsmen 
who are part of the detail installing the fence? Who was it?
    Mr. Monahan. No. The fencing company itself installed the 
fence.
    Dr. Hice. OK. Thank you very much. I yield.
    The Chairman. The gentleman yields. Let me now recognize 
Mr. Gallego for his questions.
    Mr. Gallego. Thank you, Mr. Chair. Acting Chief, who 
ordered the clearing on June 1? Who told the men to advance?
    Mr. Monahan. I am sorry. Your second question?
    Mr. Gallego. Who told the men to advance on the crowd?
    Mr. Monahan. The order was given by the Incident Commander 
from the United States Park Police.
    Mr. Gallego. Great. Were you on site?
    Mr. Monahan. Yes, I was.
    Mr. Gallego. Did you have any conversations with Attorney 
General Barr on site?
    Mr. Monahan. No, I did not.
    Mr. Gallego. You did not interact with him at all when he 
came outside of the White House?
    Mr. Monahan. I saw him in the park, but I did not have any 
interaction with him.
    Mr. Gallego. OK. So, tell me again why you didn't wait 
until 7 p.m., because that actually sounds totally illogical to 
me. At 7 p.m., you could probably actually make a statement 
saying now this is an illegal operation. You need to disperse 
because there is a curfew. But you decided to do it, 
coincidentally, 40 minutes earlier, because somehow you think 
that de-escalates.
    Mr. Monahan. Yes. Again, as I mentioned earlier, we were 
not operating on a timetable.
    Mr. Gallego. But why didn't you? It actually makes more 
logical sense for you to wait until 7 p.m.
    Mr. Monahan. I would respectfully disagree. And I say that 
based on our experience the night before--when the 7 p.m. 
curfew arrived the night before, no one left the area.
    Mr. Gallego. But that day, you only had one injury. What 
time was that injury at? You testified June 1, one injury. What 
time was that injury at?
    Mr. Monahan. The injury on June 1 was during the clearing 
operation of H Street.
    Mr. Gallego. So, that whole day was peaceful protesting 
until the clearing. And, yet, you decided that somehow there 
was going to be violence. So, therefore, you initiated 
something before the 7 p.m. curfew.
    Mr. Monahan. No, sir. That is inaccurate. What I stated 
earlier was that we saw violence throughout the operational 
period.
    Mr. Gallego. I am not asking that. I am asking on June 1.
    Mr. Monahan. Yes.
    Mr. Gallego. Let me give you an example. When I was in the 
Marine Corps and I had to clear all these cities, I had to 
react to what was happening that day. I may have gotten shot 
at, thrown at, tried to be mortared, IED'd--actually, it 
happened every day. The next day, I went out and patrolled like 
a professional. On June 1, by your testimony, you had largely 
peaceful protesters up until the time you actually forcibly 
tried to remove them. Your decision-making process should have 
been based on the ground on what was happening on that day.
    Mr. Monahan. All of our decisions on June 1 were based on 
an on-the-ground assessment of the level of violence that was 
directed at law enforcement.
    Mr. Gallego. But not of that day.
    Mr. Monahan. My testimony today----
    Mr. Gallego. But not of that day.
    Mr. Monahan. No, sir. That is inaccurate.
    Mr. Gallego. That is very unprofessional if you were 
actually telling me that you made decisions of what to do June 
1, and you decided that that date required a level of 
escalation because, later on, one person would get injured once 
you start moving through the crowd.
    Mr. Monahan. My testimony to you today is our operation on 
June 1 was solely based on an effort to de-escalate the 
violence. And it was based on an effort to provide for the 
safety of those----
    Mr. Gallego. No, no. You claimed that you want to de-
escalate the violence by putting the fence up, which I actually 
agree with. That is actually a very good move. And I think that 
was important to actually de-escalating. But de-escalating the 
violence does not mean sending men swinging their batons and 
using pepper spray or CS gas, whatever you guys claimed it to 
be, 40 minutes prior to a curfew. It just doesn't make logical 
sense. Anybody who--and I actually have been trained in de-
escalation. I have been trained in riot control also.
    The one thing you try to do is you try to find the moments 
to actually de-escalate. So, 7 p.m. when the curfew is about to 
hit, when you are also probably going to have some backing at 
least maybe from the Washington Police Department, would have 
been the most logical sense. Instead, we have this weird 
scenario that you are telling me that there was so much 
violence that day that nobody was injured, by the way, until 
you guys advanced on them that you had to make that decision 
then. It makes no sense. If I had acted this way when I was in 
the Marine Corps, I probably would have been busted down a 
couple of reps. Also, there were two police officers that 
assaulted Australian TV news crew. Are they being held 
responsible?
    Mr. Monahan. Yes. The incident on June 1 involving the 
Australian media is being investigated by the Office of 
Professional Responsibility for the United States Park Police. 
That investigation is underway at this time.
    Mr. Gallego. Did you see the video yourself?
    Mr. Monahan. I have seen the video, yes.
    Mr. Gallego. Was the conduct professional that these police 
officers were engaging in?
    Mr. Monahan. It is an ongoing investigation, and it would 
be inappropriate for me to comment on that officially.
    Mr. Gallego. And just to be clear, your police officers 
that day, on June 1, they were all Park Police officers. People 
weren't brought in for ICE or DHS. That was all Park Police?
    Mr. Monahan. On June 1, we were operating under unified 
command with the United States Secret Service.
    Mr. Gallego. No, I get that. The National Guard was here. 
Who were the people that were assaulting and pushing forward on 
the protesters? Were they all Park Police?
    Mr. Monahan. No. The other agencies that have assisted with 
the operation and the clearing of H Street and the north end of 
Lafayette Park----
    Mr. Gallego. So, you cleared protesters with people that 
have different standards, different procedures for clearing, 
because you train your Park Police all along one standard--
right?--in terms of riot control. Did you know what standards 
and procedures those other elements were used to?
    Mr. Monahan. Yes. They receive the same training that we 
do.
    Mr. Gallego. They do?
    Mr. Monahan. Yes, sir.
    Mr. Gallego. OK. Can you provide documentation for that?
    Mr. Monahan. I am sorry?
    Mr. Gallego. Can you provide documentation for that?
    Mr. Monahan. Yes, any request you have, I will facilitate 
and work with the Office of Congressional Legislative Affairs 
from the Department on addressing.
    Mr. Gallego. I yield back.
    The Chairman. Mr. Cox, you are recognized.
    Mr. Cox. Thank you so much, Chairman. And thank you so much 
for being here today, Chief. The hearing today isn't so much 
about whether the fence went up, or people were painting in the 
park, or peaceful protests--well, in fact, it really was 
peaceful protests--it is whether or not that the Park Police 
and yourself really have a duty and obligation and a fealty to 
the Constitution. Chief, I am sure that you and your officers 
take note to protect and defend the Constitution.
    Mr. Monahan. Yes, sir.
    Mr. Cox. And if you were given an order to forcefully bear 
Blacks or women from voting at polling places, would you abide 
by that order?
    Mr. Monahan. I am sorry, sir. Can you repeat the question?
    Mr. Cox. If you were given an order to forcefully bear 
women or African-Americans from polling places, would you abide 
by that order?
    Mr. Monahan. I am not sure I understand your question, sir.
    Mr. Cox. Let me ask you another question. If you were given 
an order to have your officers forcefully take firearms away 
from law-abiding citizens, would you abide by that order?
    Mr. Monahan. Again, I don't know the context in which you 
are asking the question, I guess----
    Mr. Cox. It is going to get down to the point that--if you 
and your officers are asked to violate the very First Amendment 
of the Constitution which allows people to peacefully assemble, 
would you abide by that order?
    Mr. Monahan. On June 1, there were peaceful demonstrators 
on H Street, and there were bad actors on H Street. When we 
gave the first of three warnings, those were warnings that we 
were clearing this area for safety reasons and it was a 
temporary closure. Once that third warning was given, everyone 
on the north end of Lafayette Park and H Street was required to 
vacate that area. When we did the operation from east to west 
to clear H Street, we gave them avenues of exit.
    Mr. Cox. Well, thanks very much. We have heard that 
explanation. Now, we are going to hear from the next witness--
right?--that what they were asked to do was contravene their 
oath to the Constitution. All right? And what we are being 
asked today, and what you are basically testifying to, is that 
there was no correlation at all between your orders to clear 
the square and with the President's photo op. Now, would you 
agree or tell me otherwise? Did the park need to be cleared in 
order for the President to take his photo op?
    Mr. Monahan. Our goal that day was to----
    Mr. Cox. No, no. Would you answer that question? Did that 
park need to be cleared? Did that area need to be vacated by 
any other citizens for the President to take his photo?
    Mr. Monahan. We did not clear the park for a photo op.
    Mr. Cox. No, no, no.
    Mr. Monahan. We cleared the park for public safety reasons.
    Mr. Cox. No, that is not the question, whether or not you 
did. Did it need to be cleared? In your professional opinion--
and you are not with the Secret Service. But did that area need 
to be cleared in order for the President to march from the 
White House to Lafayette Square to take a photo in front of St. 
John's Square?
    Mr. Monahan. I don't think I am the person to answer that 
question. Our focus was on public safety that day.
    Mr. Cox Well, you are a national citizen. You have been 
around. Would you think that the place needed to be cleared? 
And it was just a convenient coincidence.
    Mr. Monahan. I am only here to speak to----
    Mr. Cox. You see, I mean, I hope you can appreciate how--I 
mean, it begs to reason that the place would have to be 
cleared. And all of a sudden, as my colleague, Mr. Lowenthal 
was saying, that just magically and very coincidentally that 
area was cleared. And you just happened to be doing that 
because fencing absolutely had to go up right at 6:30 p.m. 
because you have been waiting because contractors were making 
overtime.
    Mr. Monahan. Our focus that day was to install that 
fencing. And as I spoke earlier, the timing of that was 
somewhat----
    Mr. Cox. So, what you are absolutely testifying--and I'd 
like you to make the statement that there was absolutely no 
correlation, no direction to clear the square for the 
President's photo op?
    Mr. Monahan. There is 100 percent zero correlation between 
our operation and the President's visit to the church.
    Mr. Cox. OK. And what would the President have done if the 
square hadn't been cleared? Would he have gone out there?
    Mr. Monahan. I don't know if I can answer that question, 
respectfully, sir.
    Mr. Cox. OK. And, as I said, we are going to hear from our 
next witness about why he has come forward to testify today 
because what he was asked to do is to contravene his oath to 
the Constitution. Do your officers ever get any training when 
they are put into these types of situations, when they are 
asked to contravene their oath and their duties to the 
Constitution when they are given an order that they can't abide 
by?
    Mr. Monahan. I believe every action taken by the United 
States Park Police on June 1 is----
    Mr. Cox. No, no. Are they ever given any training with 
regard to that situation when they are put into an untenable 
situation like that?
    Mr. Monahan. I wouldn't characterize the situation as 
untenable.
    Mr. Cox. OK. Thanks so much for your time.
    The Chairman. The gentleman yields back. Mr. Gosar, you are 
recognized, sir.
    Dr. Gosar. Thank you. Well, this is like living in 
Groundhog's Day, an alternative universe. The other side is on 
a fishing expedition here, trying to get you to say something 
very different, Chief. Now, real quick question to you, a quick 
yes or no. As your officers worked to clear Lafayette Square, 
were they aware that a mob had attempted to burn down St. 
John's Church?
    Mr. Monahan. Yes.
    Dr. Gosar. Is that an exercise of the First Amendment, 
burning down a church?
    Mr. Monahan. No, sir. It is not.
    Dr. Gosar. Hmm, interesting. So, now, in Lafayette Square, 
your officers were facing off against violent anarchists who 
spent the better part of several days there, true?
    Mr. Monahan. Yes, sir. That is accurate.
    Dr. Gosar. Defacing the World War II Memorial, a 
remembrance of a grateful nation to all who served actually 
during the fighting, fascism, damaging the Lincoln Memorial, a 
tribute to the Republican president who led a nation to end 
slavery and saving our union, tearing down monuments around the 
city and attempting to burn down and deface the historic St. 
John's Church. Meanwhile, as your officers on foot attempted to 
push these anarchists away from the White House, their real 
target to destroy and deface, they were pelted with water 
bottles, fireworks, and called some of the most vile, 
disgusting names directly to their faces.
    Yet, at all times, your officers behaved, by all reports, 
responsibly and worked in a tremendous professional manner. Now 
that the area has been cleared, I have a few questions about 
the statues on Lafayette Square. Chief, counter to the 
narrative being pushed by the media, Lafayette Square was 
cleared in order to allow for a fence to be erected. The fence 
was put up as a means to enhance security at the square. In the 
time since the fence has been put up, how many officers have 
been injured?
    Mr. Monahan. There have been no injuries sustained by the 
United States Park Police since the fence was put up on June 1.
    Dr. Gosar. Once again, I want to ask why does Lafayette 
Square remain closed.
    Mr. Monahan. Currently, it is closed due to ongoing 
restoration efforts and damage assessments based on the damage 
to the statues and other areas within the park, to include the 
comfort station that was burned down in the days preceding June 
1.
    Dr. Gosar. So, once again, the First Amendment, does it 
allow you to desecrate, destroy, and defame public property?
    Mr. Monahan. No, sir. It does not.
    Dr. Gosar. Wow. But I keep hearing that it is a peaceful 
demonstration. Do you keep hearing that too?
    Mr. Monahan. Yes, sir.
    Dr. Gosar. That is that alternative universe again. Is 
there currently a fence around St. John's Church, the church in 
which a fire was lit the night before the square was cleared?
    Mr. Monahan. Yes. There is currently fencing around the 
front of the church.
    Dr. Gosar. Who requested that fence to be erected?
    Mr. Monahan. Metropolitan Police from DC.
    Dr. Gosar. Since the fence has been put up, has there been 
any further destruction or vandalism of the church?
    Mr. Monahan. Not to my knowledge, sir.
    Dr. Gosar. So, according to your written testimony, the 
fence was a key tactic that served to greatly reduce the 
violent behavior of the bad actors. And that violence dropped 
off dramatically. The Park Police has an obligation to protect 
the safety of peaceful demonstrators, maintain law and order, 
and keep our law enforcement officers safe. How does a fence 
help promote those obligations?
    Mr. Monahan. I am sorry, the last part?
    Dr. Gosar. How does the fence help you keep those 
obligations?
    Mr. Monahan. Yes, so, I mean, based on the previous day's 
violence, it was clear to us that the longer we waited to 
install the fence, the likelihood that the situation would get 
worse on June 1. We saw acts of violence on June 1 throughout 
the day. We saw projectiles being thrown at officers. We had 
angry protesters and rioters attempt to, and in some cases, 
jump over the double row of bike rack on the north side of the 
park.
    Our assessment from those that were on the ground who 
witnessed the previous day's violence and were faced with the 
violence in front of them on that day was that the aggression 
from the crowd, the increased aggression that got even worse 
after 7 p.m. and the curfew even though we were not abiding by 
a curfew, was that to erect that fence was a logical next step 
for de-escalation.
    Dr. Gosar. No, I think everybody here at the dais would say 
that we want to make sure to protect a citizen's right to 
protest peacefully. Can you describe the typical role Park 
Police plays during these protests and marches?
    Mr. Monahan. It is our goal--excuse me. Our goal for any 
demonstration is to provide for the safety of those that are 
there to peacefully assemble, to protect the resources, to 
maintain law and order, to ensure that any lawful demonstration 
can continue uninterrupted but also to ensure the safety of our 
personnel.
    Dr. Gosar. What we are seeing is anarchists. We are seeing 
desecration and hiding behind people claiming for peaceful 
assembly. I yield back.
    The Chairman. Mr. Levin, you are recognized.
    Mr. Levin. Thank you, Mr. Chairman. I ask unanimous consent 
to enter into the record a New York Times article from June 18, 
2020, entitled, ``Park Police Head Had Been Accused of Illegal 
Searches and Unreliable Testimony.'' This is an article about 
Mr. Monahan.
    Mr. Monahan, I want to get your reaction to additional 
video from June 1. These clips show the moments immediately 
before and then during the law enforcement surge around 6:30 
p.m., a half hour before the Washington, DC curfew went into 
effect. Please pay particular attention to whether the police 
were responding to any actual physical threats from the crowd, 
the speed and aggression of the police surge, and the weapons 
officers used on the protesters. Can the Committee staff please 
play the clips?
    [Video shown.]
    Mr. Levin. I believe there is one more.
    [Video shown.]
    Mr. Levin. Mr. Monahan, our time is limited, so I ask that 
you please answer these questions with a simple yes or no. Were 
the officers that we saw surging against the crowd and 
assaulting a news crew? Yes or no? The officers you saw in 
those clips, were they surging against the crowd and assaulting 
a news crew? Yes or no?
    Mr. Monahan. So, again, as to the----
    Mr. Levin. That is not yes or no, Mr. Monahan. I am just 
asking you, yes or no.
    Mr. Monahan. And respectfully, I don't think I can answer 
it with a yes or no.
    Mr. Levin. So, it is your contention they weren't surging 
against the crowd? They weren't assaulting the news crew? A 
picture speaks a thousand words.
    Mr. Monahan. Sure. And I think the video shows a moment in 
time. As to the second video, I will not comment on it. It is 
an ongoing investigation.
    Mr. Levin. Yes. I heard you say that. Did the clip show any 
violence from the protesters before the officers surged on 
them? Simple yes or no.
    Mr. Monahan. Again, I don't think there is a simple yes or 
no. If you look at the first video that you showed, it has some 
content----
    Mr. Levin. I think we all saw the video and I think you 
would acknowledge that there was no such violence. And the 
Administration has contradicted itself on whether the alleged 
violence was actually the reason for the use of force. Other 
statements, including from Attorney General Barr, said the area 
was cleared to move the perimeter one block. I think we have 
seen statements that water bottles and such were thrown. But it 
is obviously not justification for such a response. Did you see 
the officers shove protesters with their shields in that video? 
Again, simple yes or no.
    Mr. Monahan. I saw the video that you showed, and it shows 
officers clearing H Street.
    Mr. Levin. So, that is a yes. We are getting somewhere. 
That is good. Did you see officers attack reporters, one of 
whom was an Australian correspondent, Amelia Brace, who 
testified at our last hearing, even as they tried to get away? 
Again, yes or no?
    Mr. Monahan. Again, respectfully, I won't comment on an 
ongoing investigation.
    Mr. Levin. Well, it was on the video that that happened, 
and we heard from Ms. Brace that it happened. Did you see 
officers throw or fire chemical munitions into the crowd?
    Mr. Monahan. Yes, I did.
    Mr. Levin. Thank you for acknowledging that. And did 
officers throw flashbang or Stinger Ball Grenades into the 
crowd?
    Mr. Monahan. Yes. And our rules of engagement dictated on 
June 1 that we would only use force if we were met with violent 
resistance.
    Mr. Levin. And did we see any of that violent resistance in 
those videos, Mr. Monahan?
    Mr. Monahan. Again, looking at a video----
    Mr. Levin. It is a simple yes or no question.
    Mr. Monahan. Not in the context of the video that you 
showed.
    Mr. Levin. So, that is a no. So, are you willing to tell 
this Committee and the American people that the force those 
officers used against the crowd was not excessive and 
unjustified?
    Mr. Monahan. The use of force that the United States Park 
Police employed on June 1 was in line with our policies and 
procedures.
    Mr. Levin. Well, I heard you in your introduction say that 
this was tremendous restraint used by your officers. And I just 
find that hard to believe. But do you stand by that statement 
based on the video we just saw that this was tremendous 
restraint?
    Mr. Monahan. Yes, sir. I do.
    Mr. Levin. Well, I will just remind my fellow colleagues of 
the title of that New York Times article from June 18 and ask 
you to read it. With that, I will yield back.
    The Chairman. The gentleman yields. Let me recognize Mr. 
Garcia.
    Mr. Garcia. Thank you, Mr. Chairman, and thank you, Mr. 
Monahan, for being here today where we finally get to have a 
dialogue with you about the events of June 1. My first question 
relates to the first video clip that I think Mr. Huffman had 
played at the beginning of the hearing. Did you see any 
violence on the part of the protesters in that brief clip?
    Mr. Monahan. The video that was shown----
    Mr. Garcia. Yes or no, the first clip.
    Mr. Monahan. It captures a moment in time, and in that 
clip--you would have to play it again for----
    Mr. Garcia. It was a peaceful assembly that we saw per that 
clip. You mentioned that on June 1, there was actually only one 
officer who regretfully had to be treated because of some 
injury, not 50 as you had stated previously over a several-day 
period. Do you know the circumstances of that treatment, what 
led to those injuries or his treatment?
    Mr. Monahan. Yes, sir. His injury was sustained during the 
clearing operation of H Street. During that clearing operation, 
he was engaged in a violent interaction with a protester, and 
he was punched in the face by the protester.
    Mr. Garcia. Fair enough. One officer. Do you know the 
approximate size of the crowd that had assembled at Lafayette 
Square?
    Mr. Monahan. It varied throughout the day. I would say----
    Mr. Garcia. At about 6:30 p.m., sir.
    Mr. Monahan. I would say several thousand people.
    Mr. Garcia. One thousand, 50,000?
    Mr. Monahan. It was less than 50,000. I would estimate 
1,000 to 3,000.
    Mr. Garcia. Good. Any guesstimate of what percent of those 
assembled were behaving in violent ways?
    Mr. Monahan. No, I don't. But the only thing that the----
    Mr. Garcia. Let the record show that you do not know.
    With respect to the use of tear gas, are you aware that 
tear gas is a chemical weapon banned in war?
    Mr. Monahan. No, I am not aware of that.
    Mr. Garcia. I am glad we are having this conversation.
    We have all seen the chilling images of peaceful 
demonstrators being attacked and gassed by Federal law 
enforcement officers, including those under your command, and 
it should never again be used against demonstrators, but 
especially not during a pandemic.
    That is why Representatives Takano and Ocasio have joined 
me in a bill that seeks to ban the use of this chemical agent, 
especially during a pandemic against peaceful demonstrators.
    Mr. Monahan, do you believe in the First Amendment and 
people's rights to organize peacefully?
    Mr. Monahan. Yes, sir, of course I do.
    Mr. Garcia. I am glad to hear that.
    Do you believe that people are reasonably upset over the 
deaths of George Floyd, Breonna Taylor, and other Black lives 
taken by police officers?
    Mr. Monahan. Yes, sir.
    Mr. Garcia. And do you believe that demonstrators are in 
their right to take to the streets after persistent police 
brutality against communities of color?
    Mr. Monahan. I believe that individuals have the right to 
peacefully assemble and demonstrate, yes.
    Mr. Garcia. Then why were you on board with the eagerness 
to disburse the crowd when it was maybe 30 minutes before the 
curfew was to take effect, a curfew that people were quite well 
aware of by the time of this violent encounter in Lafayette 
Square?
    What was so urgent about things when we saw a video that 
the protesters were, in fact, largely peaceful?
    And one of the witnesses that appeared before this 
Committee, the head of the church that was referred to earlier, 
said that they were participating and the members of that 
church were participating in peaceful actions, and that it 
included many gatherings of family members, including children 
that were participating in their right to free speech.
    Mr. Monahan. To your first question, the United States Park 
Police did not use tear gas on June 1.
    To your second question, were there people there peacefully 
demonstrating? Yes, but there were a number of bad actors, and 
once the three warnings were given, everyone there needed to 
vacate that area.
    Mr. Garcia. But were there other chemical agents that your 
forces used?
    Mr. Monahan. Yes, our rules of engagement specifically 
prohibited the use of CS gas on June 1. We utilized pepper 
balls. We utilized smoke canisters, which do not have an 
irritant in them, and we also used Stinger balls.
    Mr. Garcia. Thank you very much.
    I think my time has run out, Mr. Chair. I yield back.
    The Chairman. I recognize Ms. Velazquez for her time.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. Monahan, did you have any communications from President 
Trump, Vice President Pence, Attorney General Barr, or 
Secretary Esper encouraging you not to testify on June 29?
    Mr. Monahan. No, ma'am.
    Ms. Velazquez. Have you ever had conversations with a 
subordinate encouraging them not to cooperate with this 
Committee's investigation?
    Mr. Monahan. No.
    Ms. Velazquez. Mr. Monahan, the USPP has a history of 
engaging in abuse of powers during peaceful protests. A 2015 
court ordered settlement required the USPP to provide three 
audible warnings at least 2 minutes apart to disburse crowds 
and identify avenues for protesters to scatter.
    Did you comply with that, to identify audibly and avenues 
for protesters to scatter?
    Mr. Monahan. Yes, ma'am. As we discussed earlier, there 
were three warnings given, and in terms of an avenue to leave 
the area, the way the crowd was moved, they could either go 
north on 16th Street to I, India, Street or continue west on H 
Street to either Connecticut Avenue or 17th Street.
    Ms. Velazquez. That does not match the testimony of 
previous witnesses nor the testimony that will be provided by 
Major Adam DeMarco regarding audible warnings.
    And we just saw the video that was played, and to say 
otherwise is just really outrageous. I was watching it. I 
couldn't hear anything. The people that were there even said, 
``What were they saying? What do they mean?''
    Mr. Monahan, you also watched the video of the female 
reporter, Ms. Brace. My question to you is--does any action by 
her, and she was standing there, warrant being attacked and 
shot at with rubber bullets?
    Mr. Monahan. So, ma'am, I take seriously any allegation of 
misuse of force by any of our members, and we have policies and 
procedures that direct how those things are handled.
    In this instance, there is a current internal affairs 
investigation that is underway. That is, as I said, it is 
currently under investigation. If at the end of that 
investigation there is a finding----
    Ms. Velazquez. OK. I am asking you, sir, reclaiming my 
time, I am asking you. The video that was played, you watched 
it. I watched it. Were there any actions committed by Ms. Brace 
that required the type of action and attack by the police?
    Mr. Monahan. Again, as I stated earlier, I will not comment 
on an ongoing investigation. I will just commit to that we will 
hold our officers accountable for any actions that are deemed a 
violation of force policy, and that investigation is still 
underway.
    Ms. Velazquez. Mr. Monahan, are you aware that COVID-19 
affects the respiratory system?
    Mr. Monahan. Yes, ma'am.
    Ms. Velazquez. So, why would you use any type of chemical 
agent in the midst of a pandemic?
    Mr. Monahan. And, again, as I stated earlier, our rules of 
engagement on June 1 were that we would not use any force 
unless we were met with violent resistance from the protesters.
    Ms. Velazquez. My question to you is--why, knowing that 
this country is dealing with a pandemic, and one of the areas 
known to be impacted by COVID-19 is the respiratory system--
knowing that, why did you use such chemical agents against 
peaceful protesters?
    Mr. Monahan. And, again, the use of force that we utilized 
was in response to the violent behavior exhibited by a number 
of bad actors that were in the midst of others that were there 
to peacefully assemble.
    Ms. Velazquez. Well, as I mentioned to you before, sir, 
witnesses who came before this Committee, and Major Adam 
DeMarco, they are all testifying that those were peaceful 
protesters. That was covered widely by the media, widely. The 
Nation was watching while they saw how the police attacked 
peaceful protesters.
    Immediately following the incident, the Arlington County 
Board Chair said that she was appalled that their corporation 
agreement with the Trump administration has been abused to 
endanger their and others' safety for the photo op, and media 
reports indicate that the USPP directly misled the Arlington 
County Police about the nature of the operation.
    How would you respond to the comments made by the Board 
Chair and the allegations that the USPP misled the Arlington 
County Police about the nature of the operation?
    Mr. Monahan. Yes, ma'am. The United States Park Police 
enjoys a very long and storied history with the Arlington 
County Police Department in terms of mutual aid over the last 
numerous years.
    In terms of their assistance and their vital assistance to 
our operation on June 1, that was a request that was made 
through mutual aid. In terms of----
    Ms. Velazquez. Sir, why do you think that the Chair of the 
Board is saying that you misled them? Is she implying that you 
lied to them?
    Voice. Mr. Chairman, has the time expired?
    The Chairman. Yes. You may answer the last question.
    Ms. Velazquez. I yield back.
    The Chairman. The gentlelady yields.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And thank you, Chief Monahan, for being here today.
    I come from a more rural part of the world, northeastern 
Pennsylvania, where we haven't had these types of violent 
interactions. In fact, all of our George Floyd demonstrations 
and protests have been peaceful, have been joined in with by 
the local police forces.
    So, this is something new for me to jump into the world of 
these things, but I want to see if we can agree on some things. 
I suspect we will.
    You mentioned before that you said that you believe every 
incident should have a complete record, right?
    Mr. Monahan. Yes, sir.
    Mr. Cartwright. And the idea is not only to do the job, but 
to improve the way you do the job, to make sure regrettable 
incidents are not repeated, right?
    Mr. Monahan. Yes. That is a fair statement, yes.
    Mr. Cartwright. And to do that what we are looking for is 
accountability. I think you used the word yourself, Chief. We 
want accountability on the part of our police forces, including 
the Park Police, right?
    Mr. Monahan. Yes, I would agree.
    Mr. Cartwright. And to do that, it is fitting and proper 
for us to engage in these exercises where we flesh out the 
facts of incidences. Is that fair?
    Mr. Monahan. Yes, sir.
    Mr. Cartwright. OK. So, anybody who says that to flesh out 
the facts of a violent confrontation between police and 
protesters is some sort of political charade, some kind of a 
show, that is not necessarily true. What we are looking for is 
fleshing out the facts to find accountability, and that is a 
good thing, is it not, Chief?
    Mr. Monahan. In terms of fleshing out for accountability, 
yes, I would agree.
    Mr. Cartwright. Absolutely. Well, all right. What I want to 
do is I want to go over some of your testimony from this 
morning. Again, I thank you for being here and going through 
this.
    One of the things I wanted to clear up was Congressman 
Lowenthal asked you a question about whether it was a 
coincidence between the timing of the clearing of Lafayette 
Square and the photo op that the White House engaged in, and 
you said it was not a coincidence, and I don't think that is 
what you meant, and I want to give you a chance to clear that 
up.
    Mr. Monahan. Our decision and the timing of implementing 
our plan to clear the north side of Lafayette Park and H Street 
was irrespective of any decision from the White House or the 
President to visit the park, to visit the church. It was 
completely irrespective of that.
    Mr. Cartwright. That is what I thought your position was. 
It was a complete coincidence, according to your testimony.
    Mr. Monahan. Yes, sir.
    Mr. Cartwright. OK. I also wanted to talk about the timing 
a little bit. What time was the curfew for, 7 p.m.?
    Mr. Monahan. Yes, sir. It was a 7 p.m. curfew.
    Mr. Cartwright. OK. And what did the curfew call for, 
Chief?
    Mr. Monahan. No members of the public could be out after 7 
p.m.
    Mr. Cartwright. OK. And how was that communicated to the 
public?
    Mr. Monahan. I believe it was an order from the Mayor's 
Office in DC.
    Mr. Cartwright. And was that communicated clearly and 
cogently so that people and the public understood what that 
curfew was calling for?
    Mr. Monahan. I was aware of the curfew in my role as the 
Acting Chief of the U.S. Park Police. I can't speak to what 
every member of the public understood or were aware of.
    Mr. Cartwright. Well, did the Park Police help to reinforce 
that 7 p.m. curfew that people had to disburse by 7 p.m.?
    Mr. Monahan. No, we did not play a role in enforcing the 7 
p.m. curfew.
    Mr. Cartwright. OK. You mentioned another injury on June 1, 
and obviously that was regrettable, a facial laceration when an 
officer was punched in the face. You said that was in the 
clearing of H Street. Is that right?
    Mr. Monahan. Yes, sir.
    Mr. Cartwright. Now, H Street, of course, forms the 
northern boundary of Lafayette Park. Am I correct in that?
    Mr. Monahan. It does, yes.
    Mr. Cartwright. OK. So, when did that happen? What time of 
day on June 1, if you recall?
    Mr. Monahan. I do not know the exact time, but it was 
between 6:30 p.m. and 6:50 p.m., which was the time for the 
clearing of H Street.
    Mr. Cartwright. OK. So, would it be fair to say that that 
injury occurred after the so-called surge to disburse the crowd 
in Lafayette Park?
    Mr. Monahan. It was during the, as you describe it, the 
surge to clear H Street.
    Mr. Cartwright. OK. So, that injury did not happen before 
the surge. It happened during the surge.
    Mr. Monahan. It did. Throughout the operational period, our 
officers were subjected to a number of projectiles. They did 
not sustain any injuries. The only injury we sustained on June 
1 was that instance.
    Mr. Cartwright. Thank you, Chief, for answering my 
questions.
    I yield back, Mr. Chairman.
    The Chairman. Ms. DeGette is recognized for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Monahan, you said in your written testimony that the 
police have dealt with and your agency had dealt with hundreds 
of First Amendment demonstrations at special events. Is that 
correct?
    Mr. Monahan. Yes, ma'am. Every year we facilitate 
hundreds----
    Ms. DeGette. Thank you, sir. I only have 5 minutes.
    You also testified that there were violent protests between 
May 29 and June 1. Is that correct?
    Mr. Monahan. Yes, ma'am.
    Ms. DeGette. You just told Mr. Cartwright that on June 1 
the one injury to the officer occurred during the clearing of H 
Street. Is that correct?
    Mr. Monahan. Yes, ma'am.
    Ms. DeGette. Mr. Chairman, I would like to ask for 
unanimous consent to enter into the record the U.S. Park 
Police's Use of Force Policy, General Order 3615, updated 
November 1, 2019.
    The Chairman. Without objection, so ordered.
    Ms. DeGette. Thank you.
    I discussed this policy at the previous hearing, and Mr. 
Monahan, are you familiar with this policy?
    Mr. Monahan. Yes, ma'am, I am.
    Ms. DeGette. And the policy governs the conditions under 
which the Park Police's use of force is appropriate. I am going 
to ask about some of those parts of the policy.
    One section of the policy says, ``An officer is expected to 
employ only the minimum level of reasonable force necessary to 
control a situation.''
    We have heard testimony and seen video evidence of the use 
of chemical irritants and of officers chasing protesters to 
beat them with batons.
    Mr. Monahan, do you believe that represented only the 
minimum level of reasonable force necessary to control the 
situation of Lafayette Square on June 1?
    Mr. Monahan. Yes, in terms of the rules of engagement on 
June 1, again, I will reiterate that----
    Ms. DeGette. You believe you complied with the rules that 
those tactics were the minimum level of reasonable force given 
to control that situation. Is that right?
    Mr. Monahan. Yes. We stressed that we would only utilize 
force if we were met with violent resistance.
    Ms. DeGette. OK, thank you. Another section says, ``Once a 
level of force is no longer required, it must be decreased or 
discontinued.''
    Did you conclude at any point on the evening of June 1, 
after the push into the protesters began, that the level of 
force being used was no longer required to clear the square?
    Mr. Monahan. Yes, I think if you watch it----
    Ms. DeGette. What time was that? What time was that that 
you decided that the level of force was no longer required?
    Mr. Monahan. I am not sure I understand your question, 
ma'am.
    Ms. DeGette. OK. At some point after the push began, did 
you conclude that the level of force that was being used was no 
longer required to clear the square? That is what your rules 
require.
    Mr. Monahan. Yes, I guess it requires a little bit of 
explanation. It is a very fluid situation when we are clearing 
H Street. So, throughout that operation, there was an instance 
where an officer was wrestled to the ground by an angry 
protester and a violent protester. He attempted to hold----
    Ms. DeGette. Excuse me, sir. You are not answering my 
question. Did you at any time during the clearing of the Square 
determine that a de-escalation was appropriate? Yes or no?
    Mr. Monahan. Yes, and I'm trying to give you a good example 
of how that----
    Ms. DeGette. You are not. You are just--OK. I am going to 
move on. You are not going to answer my question.
    Finally, the policy says ``the goal of de-escalation 
tactics is to gain the voluntary compliance of a subject when 
appropriate and consistent with personal safety to reduce or 
eliminate the use of force.''
    Now, I want to ask you. Do you believe the Park Police's 
sudden surge into the entire protest crowd on June 1 was a 
genuine effort to get the protesters to voluntarily comply and, 
most importantly, to reduce or eliminate the necessity to use 
force?
    Mr. Monahan. Yes, I do.
    Ms. DeGette. OK. Now, I want to ask you one more question 
since you have shown familiarity with these policies. Is there 
a section in the policies that allows the police to use force 
based on events of previous days' demonstrations?
    And I ask you this question because you have testified 
throughout this hearing today that in the previous days before 
June 1, there were a number of officers injured, and that there 
was a lot of violence used.
    But on June 1, you are using that as your rationale for 
using violence from the beginning on June 1, based on what 
happened in days before. Can you point me to a section of the 
policy that allows pre-emptive use of force based on previous 
demonstrations?
    Mr. Monahan. Ma'am, my testimony to you today is that the 
use of force that we utilized on June 1 was in direct 
correlation to the level of violence that we were subjected to 
on June 1.
    Any reference to anything that occurred on May 29, 30, or 
31 was for context.
    Ms. DeGette. OK. So, you are saying that what we were 
seeing the Park Police do on June 1, the surge into the crowd, 
you are saying it is your position that that was directly 
related to the force that was being used by the protesters on 
that day immediately before the surge. Is that your testimony?
    Voice. Mr. Chairman, there is a pattern going on here.
    The Chairman. I am trying to. Thank you.
    Ms. DeGette. I am sorry?
    The Chairman. Time is up.
    Ms. DeGette. OK. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I recognize Mr. Brown for 5 minutes, sir.
    Mr. Brown. Thank you, Mr. Chairman.
    And, Chief Monahan, thank you for testifying today.
    Let me just start by saying I do appreciate the 
responsibility that you and your officers have to maintain 
public safety, and I do understand the level of force and 
engagement that you need to take when you are dealing with 
unlawfulness, whether it is arson, looting, or other violence.
    But I think many on this Committee are also concerned about 
how we engage peaceful protesters, and there seems to be a 
blurring of the lines between peaceful protesters and 
unlawfulness that perhaps you and your officers did not 
recognize.
    Let me ask you this question. The Washington Post reported 
that 6:10 p.m. on June 1, Attorney General Barr could be seen 
in CNN's live shot of the area at Lafayette Park, and at one 
point, Barr was speaking to a man who looked like a Park Police 
official. The official could be seen dropping his head in what 
looked like exaggerated resignation. One of the men with Barr 
even patted him on the back, as though consoling him.
    And I am going to ask the Committee to show that video, and 
as they do, as they pull up the video, I want you to focus on 
the man, Chief Monahan, who approaches Attorney General Barr 
and appears to be a law enforcement official.
    Can we show that video please?
    [Video shown.]
    Mr. Brown. Chief Monahan, can you identify that law 
enforcement official in the video?
    Mr. Monahan. Captain Russell Fennelly.
    Mr. Brown. And was that captain the Incident Commander?
    Mr. Monahan. No, he was not.
    Mr. Brown. No? Have you spoken with the captain who spoke 
with Attorney General Barr since June 1?
    Mr. Monahan. Yes, I have.
    Mr. Brown. And was that part of a sort of after-action 
review or to sort of learn about events on that day?
    Mr. Monahan. Yes, sir.
    Mr. Brown. Can you say the captain's name again, please?
    Mr. Monahan. His first name is Russell. His last name is 
Fennelly.
    Mr. Brown. Fennelly. Did Captain Fennelly receive any 
instructions from Attorney General Barr?
    Mr. Monahan. No, he did not. If you look at the video, he 
proactively walks over to the group. You can see him with his 
hands----
    Mr. Brown. What was the nature of the conversation that he 
had with Attorney General Barr? What did our Attorney General 
Barr ask him to do or what information did Attorney General 
Barr give him?
    Mr. Monahan. Yes, sir, that is what I am trying to explain 
to you. You can see him gesture to the left, to his left and to 
his right. His point in addressing the group was that they were 
very close to the north end of Lafayette Park. They were very 
close to an area where we saw and had our officers subjected to 
projectiles being thrown at them earlier in the day on June 1.
    And based on Captain Fennelly's assessment, they were way 
too close to the line and in a position of danger. He went over 
there----
    Mr. Brown. Do you have any idea why Captain Fennelly 
dropped his head and in response a member of Attorney General 
Barr's detail patted him on the back?
    Mr. Monahan. Yes, I do. His purpose in addressing them was 
to ask them to move away from the area so they were in a safer 
location, and at the end of that exchange with the Attorney 
General's protective detail, they moved south in the park away 
from the demonstration area.
    Mr. Brown. And what information did Attorney General Barr 
convey to the captain?
    Mr. Monahan. I think it was the opposite, sir, to be honest 
with you. It was Captain Fennelly conveying to the Attorney 
General.
    Mr. Brown. Chief Monahan, your officer responded to 
something that Attorney General Barr said. What did Attorney 
General Barr say to your officer on the ground?
    Mr. Monahan. Again, sir, it was our captain addressing the 
Attorney General and the group and his detail and requesting 
that they move away from the area toward a position of safety 
as opposed to being up there on the line. It was not----
    Mr. Brown. And what was Barr's response? What was Attorney 
General Barr's response?
    Mr. Monahan. I think you can see the response on the video. 
They all moved south through the park. They heeded his warning.
    Mr. Brown. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman yields.
    We will turn to Mrs. Dingell. You are recognized.
    Mrs. Dingell. Thank you, Mr. Chairman and Ranking Member 
Bishop, for convening this hearing to answer some of the 
unanswered questions from last month's hearing on the June 1 
Lafayette Square protest.
    As my fellow Committee members have stated, this sort of 
action, unarmed protesters being forcibly attacked by armed 
police without provocation, both violates our fundamental 
principles and calls for us to closely examine how the events 
in question could have occurred.
    And I am very grateful we have an Administration witness 
here so that we can try to get some answers to some of these 
questions.
    Mr. Monahan, I think you would agree that managing large 
crowds like protests is a law enforcement challenge that 
requires specific knowledge and skills. If officers on duty are 
not properly trained, what are the potential consequences for 
protesters or the officers themselves?
    Mr. Monahan. So, ma'am, the United States Park Police 
officers are properly trained, and our focus that day was 
centered around the protection of life, the protection of those 
that were there to peacefully assemble, to maintain law and 
order, and to ensure the safety of our officers. That is our 
focus for that demonstration on June 1 and any demonstration 
that we facilitate.
    Mrs. Dingell. And am I correct though? And you just said 
that all of your officers were trained. If you do not have 
trained officers, is it not the case that situations can 
quickly escalate and become violent?
    Mr. Monahan. Based on the scenario that you just mentioned, 
ma'am, yes, I would agree.
    Mrs. Dingell. So, in cases where there are singular 
instances of violence, would the training advise attacking the 
entire crowd or would it advise them to isolate and remove the 
individuals perpetrating that violence. And I'll give you an 
example. I have done 20 peaceful marches, walks, protests at 
home. And in a number of them, people have shown up with bricks 
and other things, yet there has not been one episode of 
violence; because is it not true that you should try to isolate 
and remove those that are trying to perpetrate the problem?
    Mr. Monahan. Yes. And our----
    Mrs. Dingell. I'm not asking you trick questions.
    Mr. Monahan. Again, our rules of engagement that day were 
focused on--we would not use force unless we were met with 
violent resistance from the crowd. And those bad actors in the 
crowd subjected violent behavior against law enforcement 
throughout the operational period on June 1.
    Mrs. Dingell. Let me ask you about the other law 
enforcement units that were there on Lafayette Square that day. 
Do you know if there were any officers from any other agency 
present that were not trained in civil disturbance?
    Mr. Monahan. The agencies that we partnered with that day 
that were involved in the clearing operation on H Street were 
all trained in civil disturbance.
    Mrs. Dingell. So, every officer to your knowledge that was 
present was trained that day.
    Mr. Monahan. Yes, ma'am. To my knowledge, yes.
    Mrs. Dingell. So, you commanded the police force at the tip 
of the spear that day. The Arlington County Police Department 
and the D.C. National Guard were there specifically to help the 
Park Police, so your presence was central. And you do know that 
everybody there was trained to deal with high-pressure, high-
visibility, high-consequence historic events?
    Mr. Monahan. Yes, ma'am. The United States Park Police, 
Secret Service Uniformed Division who were operating under a 
unified command, and the partner agencies that assisted with 
that operation are all trained in civil disturbance. And our 
duty at an event like that where we have sustained violence 
being directed at law enforcement is to protect the safety of 
the officers and for those that are there to peacefully 
demonstrate.
    Mrs. Dingell. Let me ask you a question. How do you know 
that everybody there--I think it is very important, having been 
places where people have tried to cause trouble--how do you 
know it is true? How do you know that everybody you are working 
with has been trained in dealing with these kinds of 
situations?
    Mr. Monahan. The agencies, again, that were part of the 
clearing operation on H Street, the partner agencies that we 
dealt with, participate in the same training that we do.
    Mrs. Dingell. And do you make sure of that ahead of time?
    Mr. Monahan. Yes, ma'am. These are regional partners that 
we collaborate with on a yearly basis for hundreds of 
demonstrations. Larger demonstrations, such as the one that we 
saw on June 1, larger demonstrations such as the inauguration, 
things like that.
    Mrs. Dingell. Thank you, Mr. Monahan.
    The Chairman. The gentlelady yields back.
    Let me recognize Mr. Graves for 5 minutes.
    Mr. Graves. Mr. Chairman, would you mind going to a 
Majority Member and then coming back, please?
    The Chairman. Let me recognize Mr. Soto. Five minutes, sir.
    Mr. Soto. Thank you, Mr. Chairman.
    Acting Chief Monahan, I am sure you understand we are not 
here because you all erected a fence. But no one here is 
disputing the need for an appropriate response to the protests 
when they got violent on May 29. And to the extent that your 
officers were injured, we are all very sorry about that.
    You are here because it appears that the President of the 
United States cleared peaceful protestors to have a photo op: 
to create a false appearance that he had protests under control 
and to intimidate Americans from exercising their First 
Amendments rights. And as a result, there were numerous 
protestors who were there peacefully and were grievously 
injured as a result of the clearing.
    Do you think it is appropriate to forcefully clear 
protestors to pave the way for a photo op for President Trump?
    Mr. Monahan. No, sir, and that was not our objective on 
June 1, that was not what we accomplished on June 1. Our focus 
on June 1 was centered around the safety of the demonstrators 
to maintain law and order and to ensure the safety of our 
officers and we accomplished that goal.
    Mr. Soto. What are the usual reasons you are ordered to 
remove Americans from Lafayette Square in other instances in 
your career?
    Mr. Monahan. In this particular instance----
    Mr. Soto. I am asking about in the past.
    Mr. Monahan. From a historical basis, there are oftentimes 
throughout the course of a year, there are demonstrations on 
the south side of the White House sidewalk; and at times, based 
on what the group is and what they are there for, there are 
routes that are made, it is more of an organized affair if you 
will. But it is markedly different from what we saw on June 1.
    What we saw on June 1 was a need to clear that area to 
create a safe space for the fencing company to install the 
fence. The whole concept of installing the fence was based on 
an effort to de-escalate the violence that was rising from May 
29 through June 1, and throughout the operational period on 
June 1. That was our goal; those were the objectives on June 1.
    Mr. Soto. Acting Chief Monahan, if you are given an illegal 
order by a superior, you have a duty to refuse that order. Is 
that correct?
    Mr. Monahan. Can you repeat the question? You said if I was 
given an illegal order?
    Mr. Soto. Yes. If you have been given an illegal order by a 
superior, you have a duty to refuse that order. Is that 
correct?
    Mr. Monahan. That is accurate, yes.
    Mr. Soto. So, if you were given an order to clear Lafayette 
Square for campaign purposes for the President of the United 
States, would that be an illegal order?
    Mr. Monahan. That is not my testimony today, sir. Our 
operation and our objective on June 1 was to clear that area to 
establish the anti-scale fencing in an effort to de-escalate 
the violence that was on the rise since May 29 with the 
condition to provide for the safety of the protestors, to 
maintain law and order, and to provide for the safety of our 
officers.
    Mr. Soto. I understand what your interpretation was, Acting 
Chief Monahan. I am asking more in theory since many of us have 
disagreements on what happened that day. Would it be illegal 
for you all to clear Lafayette Square for campaign purposes for 
a President of the United States?
    Mr. Monahan. Sir, respectfully, I am not here to engage in 
theoretical conversations about what transpired on June 1. I am 
here to give you an accurate accounting of what happened. And 
on June 1, as I described, our focus was to clear Lafayette 
Park, install that anti-scale fencing for the safety of those 
that were there to peacefully assemble, to maintain law and 
order, and to provide for the safety of our officers.
    Mr. Soto. Thank you, Chief. I agree we need to maintain law 
and order, which is why it is important to refuse illegal 
orders, particularly when they are wholly of a political 
nature.
    With that, I yield back.
    Mr. Huffman. Here we go. The Chair now recognizes Mr. 
Graves for 5 minutes.
    Mr. Graves. Thank you, Mr. Chairman.
    I want to start out by saying, No. 1, I believe that there 
are racial injustices and inequities that we absolutely need to 
address as the U.S. Congress, and I do believe in some cases 
those are systemic.
    I also want to commend on the next panel, Major DeMarco, 
for him stepping up and expressing concern about what he viewed 
as something that was inappropriate.
    And last in this regard, I want to say that some of the 
reports of folks being detained and questioned without any 
charges, not by you, but by some of the protestors out West and 
law enforcement out West, I do support the investigation of 
those, and I want to be clear that I do not believe that 
protests provide an opportunity to infringe on people's 
Constitutional rights.
    That being said, Chief, I believe I heard you earlier--I 
have been hearing bits and pieces of this hearing--I believe I 
heard you earlier say that Park Police have participated in 
hundreds of demonstrations across the Washington area and other 
areas. Is that correct?
    Mr. Monahan. Yes, sir. And on an annual basis----
    Mr. Graves. OK. So, probably fair to say that you and your 
officers are more practiced in dealing with protestors than 
most police forces around the United States?
    Mr. Monahan. Yes, sir, I would like to think so. Yes.
    Mr. Graves. And probably get more training in that regard 
as well.
    Mr. Monahan. I can only speak to the level of training that 
we get, but yes.
    Mr. Graves. OK. So, the next question is, of the hundreds 
of protests that you and your officers have participated in, 
how many of those have included the violence that your officers 
saw in the preceding days to what we are discussing today? 
Meaning the injury of officers, the fires, the damage to public 
property, and things along those lines.
    Mr. Monahan. They happen from time to time. In my 
experience, they are the exception, not the rule.
    Mr. Graves. So, is it fair to say--and do not let me put 
words in your mouth--that this was really an extraordinary 
protest in regard to the damage, in regard to the intensity, in 
regard to the injury to your officers. I believe I read 
somewhere where 50 officers were injured?
    Mr. Monahan. Yes, that is accurate.
    Mr. Graves. OK. So, Mr. Chairman, I think that we first of 
all need to be very clear that there is nothing normal about 
this. This was an absolutely extraordinary effort and you had 
folks that were extraordinarily experienced and trained to deal 
with this.
    Mr. Chairman, I believe it was last week, or the week 
before, we had the Great Outdoors Act, or whatever, under the 
jurisdiction of this Committee, though the Bill did not 
actually come through the Committee, where we appropriated 
mandatory spending billions of dollars to maintain fences, 
signs, toilets, and other things at our national parks and 
other Federal lands that comprise 28 percent of the United 
States of America. We did this as mandatory spending billions 
of dollars. It goes on in perpetuity, no end; 200 years from 
now, we are still spending it under the law that was passed.
    This is the second hearing that we are having on an 
incident that happened at Lafayette Park, one square block 
across the street from the White House.
    Mr. Chairman, there is a global pandemic right now. We have 
record unemployment, we have a record recession right now, we 
are seeing the virus take off everywhere, and we are wasting 
time on this.
    And I will say it again, I absolutely believe that we need 
to protect the Constitutional rights of our citizens, but this 
is ridiculous, and the way the Chief is being treated is 
absolutely ridiculous. Think about it for just a minute. Your 
line of questioning is that the President was trying to advance 
a campaign initiative, yet what you are doing is you are trying 
to advance a campaign initiative using official resources right 
here. The hypocrisy is absolutely disgusting watching what is 
happening here.
    Chief, everybody is showing clips that promote their 
narrative. There were fires, there were dozens of your officers 
that were being injured as a result of this protest. I think it 
is absolutely disgusting that folks are trying to spin this 
narrative.
    Now I understand the next panel, Major DeMarco, is going to 
be talking about his perspective--as I understand, there was a 
meeting on Saturday that determined the need for a fence. Was 
the Major involved in those meetings that talked about the 
justification for erecting the fence in the meeting with the 
Park Police?
    Mr. Monahan. No, sir, he was not.
    Mr. Graves. OK. So, again, I commend him for sharing what 
he viewed as being inappropriate, but I also think it is 
important to note that perhaps he was not aware of all of the 
information that was out there.
    Chief, I have a lot of other questions, but there are 20 
seconds left. Very quickly, are there any other things that you 
would like to share with the Committee or the public? I know 
you were cut off repeatedly in your questions, so I will give 
you the last few seconds here.
    Mr. Monahan. Yes, again, I would just go back to my 
original point that our objective on June 1 was to provide for 
public safety. Our objective on June 1 was to maintain law and 
order, to ensure that any lawful demonstration could continue 
uninterrupted, and to provide for the safety of our officers, 
and I think we accomplished that goal.
    Mr. Graves. Thank you.
    Thank you, Mr. Chairman. I want to ask just for the record 
if the Chief could please provide the Committee with 
information indicating whether those protestors that were 
closer to the LRAD system that were announcing the distribution 
of protesters, if they seemed to leave more so or 
disproportionally to those that were further away, meaning your 
folks who were actually responding to the announcements or not.
    I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. And yes, there is a 
severe and cruel pandemic going on and your lecture 
notwithstanding, that lecture would be very appropriate with 
your President so he can understand there is a cruel and vast 
pandemic going on in this country.
    With that, let me recognize Mr. Sablan.
    Mr. Sablan. Yes. Thank you, Chairman Grijalva, for holding 
this hearing to actually learn why Federal law enforcement may 
have violated the First Amendment rights of the peaceful 
demonstrators at Lafayette Park, and for some even thinking 
that this was done so the President would get a chance to go 
and stand in front of the church and hold a Bible, and actually 
never went in to kneel and say a prayer.
    But I yield my time at this time to Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman. Thank you, 
Representative Sablan.
    I have a couple of questions. Who were the other police 
officers and departments that were there besides the National 
Park Service?
    Mr. Monahan. The agencies that assisted us in the clearing 
of H Street were Park Police, U.S. Secret Service, the 
Arlington County Police Department, and that is it. We had 
Federal Protective Service inside the park.
    Mr. Gallego. I want to run something, a couple timelines 
through you, so I can get them straight. At 6:10 p.m., that 
meeting happened with whatever captain that was, and Barr. At 
what time does the Incident Commander give the order to start 
pushing on the protesters?
    Mr. Monahan. The first warning that was given to the 
protesters?
    Mr. Gallego. Yes.
    Mr. Monahan. That the area was being closed so we can 
install the fence was given at 6:23 p.m.
    Mr. Gallego. 6:23 p.m. And then they started moving on the 
protesters at what time?
    Mr. Monahan. Our operation began right around 6:30 p.m.
    Mr. Gallego. Yes, I have 6:35 p.m., but I will give you the 
5 minutes.
    At 6:43 p.m., as you guys are pushing, I want to read you 
exactly what the President is saying at 6:43 p.m.--``I am also 
taking swift and decisive action to protect our great capital, 
Washington, DC. What happened in the city last night was a 
total disgrace. As we speak''--he said as we speak--``I am 
dispatching thousands and thousands of heavily armed soldiers, 
military personnel, and law enforcement officers to stop the 
rioting, looting, vandalism, assaults, and wanton destruction 
of property.''
    In his remarks, the President is bragging about--bragging 
about--ordering law enforcement to take on protesters in DC. 
Yet, you are arguing that the police, the Park Police solely 
made its decision about when to push based on the best scenario 
and situation for putting up the fencing. Is that correct?
    Mr. Monahan. No, sir, I am not arguing with you. I am 
telling you factually what happened. And that was our----
    Mr. Gallego. Your story isn't factual.
    So, at 6:43 p.m. this is happening. And then also, 
coincidentally, there is no radio recording of that day. So, 
there is this timeline that kind of all makes sense if you put 
it together. I mean, if I was prosecuting somebody, I probably 
would have them dead to rights right now: 6:10 p.m., first 
meeting; 6:23 p.m., first warning order; 6:35 p.m., push on the 
protesters; 6:43 p.m., the President gives his rah-rah speech. 
No radio comms, we can't find anything. And then you claim that 
you were meeting violent resistance. But yet there is no 
violent resistance. You claim, and I think you are accurate 
about this, that the only violent resistance that was met that 
day was after the initial push. There was no officer that was 
injured prior to your order. Is that correct?
    Mr. Monahan. Sir, I would not equate violent resistance 
with injured force members. We were subjected to projectiles 
throughout the day on June 1. We were met with violent 
resistance on the clearing operation of the north end of 
Lafayette Park----
    Mr. Gallego. Of course, you are going to meet with violent 
resistance. You threw pepper balls and you were batoning 
people.
    Mr. Monahan. And, again, our rules of engagement, sir, were 
to only use force if we were met with violent resistance.
    Mr. Gallego. So, you claim there was violent resistance 
prior to the clearing that started at 6:35?
    Mr. Monahan. Yes, and I believe I gave you numerous 
examples. There were individuals that jumped over the police 
line several times that day. There were projectiles being 
thrown at officers throughout the day.
    Mr. Gallego. So, this is all one big coincidence that at 
that point, this is when the violent resistance had finally 
swelled, that you had to do it at the exact point which happens 
to be probably 7 minutes before the President starts his 
speech? It just happened, you could not wait until 7 p.m. to do 
it, when there are probably people actually starting to retreat 
because of the curfew. At that exact same moment, which we have 
no radio comms whatsoever, coincidentally, that one day, that 
all happens in that span of 30 minutes, and it all happened 
exactly how you are reporting it?
    Mr. Monahan. And we have a written record of radio comms 
that day. But our decision to clear H Street at the time that 
we did was based on an on-the-ground assessment of the violence 
that was subjected at law enforcement that day. That is a fact, 
yes.
    Mr. Gallego. Well, your assessment was totally off.
    Last question. Did the U.S. Park Police coordinate with 
anybody in the White House or the Secret Service?
    Mr. Monahan. As I stated earlier, we were operating under 
unified command with the United States Secret Service.
    Mr. Gallego. And that day, did you have communication with 
the White House or Secret Service at that time?
    Mr. Monahan. Communication with the Secret Service, I would 
not say it was with the White House. I think they are two 
separate things.
    Mr. Gallego. OK, thank you, sir.
    Dr. Gosar. Mr. Chairman? Mr. Chairman, question of the 
Chair.
    The Chairman. Mr. Gosar.
    Dr. Gosar. Yes, Mr. Chairman, was it the order of the Mayor 
of DC to have no public at 7 o'clock? Is that the order that I 
keep hearing about?
    The Chairman. That was part of the testimony, that that was 
the order----
    Dr. Gosar. So, it would make sense that you would start 
clearing earlier, so that they could achieve that goal of the 
Mayor.
    The Chairman. Convenient, but no cigar.
    Dr. Gosar. I think very much cigar.
    The Chairman. Let me ask Mr. Cunningham, I will recognize 
Mr. Cunningham for his 5 minutes. Sir, you are recognized.
    [No response.]
    The Chairman. Mr. Clay, if he is still online?
    [No response.]
    The Chairman. If there is no objection, unanimous consent 
that Mr. Beyer be allowed to join the Committee and ask 
questions.
    Hearing none, Mr. Beyer, you are recognized for 5 minutes.
    Mr. Beyer. Mr. Chairman, thank you very much. And thank you 
for waving me on. And I certainly want to object to Mr. Graves' 
notion that we are sponsoring a narrative.
    This is right across the river from my district, my 
goodness.
    I hope this is coming in. It has been fine all day. Mr. 
Chairman, I hope this computer is working well but it does not 
seem to be.
    The Chairman. Mr. Beyer?
    Mr. Beyer. Mr. Chairman, apparently the video traffic in 
Alexandria has crushed this, so if I can go on with an audio, 
if that would be permissible?
    The Chairman. If there are no objections? Mr. Beyer.
    Mr. Beyer. OK, thank you.
    So, Acting Chief Monahan, I had and continue to have three 
key behavioral worries over the incident that day. First and 
foremost, for my constituents, this is right across the river 
from my district, as you know. And many of my constituents were 
in the crowd and in physical danger, including my daughter and 
her fiance. I talked to many, many people who were there who 
described a completely different picture than what you did, and 
I remain very worried about how police engagement has 
endangered many lawful and peaceful protesters.
    The second big worry is what happened to the Arlington 
County Police, who are also my constituents and our local 
police force, who were weaponized under your authority that 
day. They were the front lines to push the protesters; that was 
wholly inappropriate and not the understanding that the county 
had for any sort of peaceful protest engagement that routinely 
happens in the Nation's capital. That's why the chairman of the 
board pulled them back as soon as she heard about that. Their 
actions under the Park Police cost them local trust that they 
are actively working to rebuild, and I know it was a cause of 
embarrassment and regret for them.
    And third, and most importantly, the behavior of the Park 
Police officers, many of whom again I know are my constituents, 
but with the behavior that day, they lost our community's 
trust. And why is this important? Because in the National 
Capital Region, Park Police are an important law enforcement 
entity and we depend on them to do the right thing, and here 
they failed us.
    This was not the first problematic incident, nor should I 
say that Bijan Ghaisar's death in November 2017, either. But 
Lafayette compounded my concerns. You talked about you couldn't 
talk about the interaction with the press because there was an 
ongoing investigation. We are in the same position with Bijan 
Ghaisar. I wrote you back in November 2019 to get an update on 
the Bijan Ghaisar investigation. I got a letter back this 
month, 8 months later, saying that you could not comment 
because there was an ongoing investigation over a murder that 
happened almost 3 years ago.
    In the months after Bijan's murder, I met with then-Chief 
McClain, who committed to me that the Park Police would adopt 
body cameras and I thought that was smart and an excellent 
commitment to future accountability and transparency. In fact, 
the only reason we know about Bijan Ghaisar was because the 
Fairfax County Police had their dash cameras on.
    And now it is 2020, we have this weird deal where the comms 
did not work for the Park Police that day, no record. And 
Lafayette was another flagrant red flag for Park Police 
behavior. And, again, because there were no body cameras, much 
of what we know happened was because of other law enforcement 
communications.
    I have been following up with your department for years now 
and asking for body cameras to be adopted since they were 
committed to me. But the Park Police has not, nor have I been 
provided with any rationale for a lack of adoption. And, 
ironically, largely every other law enforcement in the 
Department of the Interior has adopted body cameras. There is 
language in the House Interior Appropriations Bill that we just 
passed last week that gets you the money and addresses any 
policy concerns you may have, thanks to Betty McCollum's 
leadership. So, there is literally no excuse for the Park 
Police not to adopt body cameras. In fact, you would be in a 
much better position today with your testimony if you had them.
    So, Chief, can you commit to me, to the Natural Resources 
Committee today, that you will adopt body cameras?
    Mr. Monahan. Yes, thank you for the question, sir. It is 
true, the United States Park Police does not currently have a 
body-worn camera program. We are supportive of such a program. 
We acknowledge its alignment with contemporary trends in law 
enforcement, as well as the expectations from the public. 
However, at this time, we are not in a position to successfully 
implement, manage, and sustain a body-worn camera program.
    Mr. Beyer. Mr. Chairman, let me just ask, the money and the 
policy is in the Appropriations Bill, so I hope that will not 
be your ongoing answer.
    With that, I yield back.
    The Chairman. First of all, Mr. Monahan, thank you for 
appearing today. And we do have more questions to follow.
    I think in all the discussion, we have heard many things. 
And why the June 1 incident in Lafayette is so important, 
because of everything else that is going around, the issue not 
only of questions of police reform, abuse, the calls by this 
Administration and the President specifically of sending more 
and more Federal presence into communities, whether they want 
them or not. I think the precursor to much of this discussion 
began June 1, with the President's presence there and the 
premature clearing of the park.
    And just out of my own curiosity, when did you, Chief, know 
that the President was coming to St. John's and how did you 
learn about it?
    Mr. Monahan. Yes, sir. We were notified earlier in the day 
that the President was going to visit Lafayette Park to conduct 
a--to view the damage that was done to the park over the course 
of the preceding days. But we were not given a time on when he 
was visiting.
    The Chairman. And on the scene on that day, who had the 
tactical command on the scene? In particular, who ordered the 
officers to move forward on the first surge at 6:30 p.m.? Who 
said, now, go, or gave the command of the clearing? Did the 
order go through you to move forward at that time?
    Mr. Monahan. Yes, sir, the order was given by the Incident 
Commander from the United States Park Police. And on June 1, 
the Incident Commander was Major Mark Adamchik.
    The Chairman. And go over for me the chain of command. I'm 
following up on Mr. Gallego's and some other people's 
questions, the chain of command you were going through, all the 
way from the President down, in terms of your role in 
commanding the U.S. Park Police as you do, literally leading 
the charge, and the two other agencies, Arlington County that 
was supporting the police, and D.C. National Guard. What is the 
chain of command in that process?
    Mr. Monahan. The chain of command for an incident such as 
the one on June 1, we are operating under an ICS model, our 
incident command system model. The Incident Commander for the 
United States Park Police, again, was Major Mark Adamchik. We 
were operating under unified command, so he had a counterpart 
on the Secret Service side.
    The Chairman. And who was above the Incident Commander from 
the Park Police?
    Mr. Monahan. He has full command and control of that 
operation and he has the authority to make any and all 
decisions for that operation.
    The Chairman. And the order was given verbally, in person, 
over the--well, not over the radio. Or using some other means?
    Mr. Monahan. Which order are you referring to, sir?
    The Chairman. The order to remove the crowd at 6:30 p.m.
    Mr. Monahan. Yes, in terms of the warnings that were given 
to the public, they were given via the use of a long-range 
acoustic device that we described earlier. He gave the first of 
three warnings beginning at 6:23 p.m. Prior to giving those 
warnings, he gave a briefing to all of the commanders that were 
going to be involved in the clearing of H Street, so that they 
understood what the operation was and what the rules of 
engagement were.
    The Chairman. And who authorized the Park Police to use 
weapons, munitions and devices that were used, in particular 
the chemical irritants? Did any of the lawyers that were 
supposed to review the actions say that it was OK? Who would 
that be to authorize that?
    Mr. Monahan. Yes, so the authorization on the rules of 
engagement lies with the Incident Commander. I concurred with 
the change in our rules of engagement for June 1, which 
expressly prohibited the use of CS gas.
    The Chairman. Much has been said for the people under your 
command, the officers that were hurt. We are glad that they 
have made a recovery and they are doing well. But I think one 
of the issues here today, too, is like I said, it is a 
precursor to much of the discussion that is going on about law 
and order and how politicized it has become.
    Part of the question we have is whether our government even 
understands the difference between an unruly, violent mob and 
people peacefully exercising their First Amendment rights. And 
even worse, Chief, is the fact that we are seeing the 
Administration continue to expand this authoritarian approach 
to law enforcement with the issues in Portland and in other 
major cities. And, like I said, June 1 stands out as a date and 
we will continue to pursue.
    With that, I do not have any other questions. Chief, we 
appreciate your time and your cooperation.
    Mr. Monahan. Thank you, sir. Thank you.
    Dr. Hice. Mr. Chairman? Can I ask unanimous consent?
    The Chairman. Absolutely.
    Dr. Hice. OK. Unanimous consent to add to the record a fact 
sheet from DOI regarding June 1, the events?
    The Chairman. Without objection.
    Dr. Hice. Thank you.
    The Chairman. So ordered.
    There are no other questions. Thank you, Chief Monahan. And 
we will invite our next witness forward.
    Now we will begin our second panel if Major DeMarco will 
join us. Thank you.
    Adam DeMarco is the Strategy and Operations Consultant for 
a consulting firm here in DC. He is also a major in the 
District of Columbia Army National Guard, where he has served 
since completing his active duty with the U.S. Army in 2014. He 
is testifying pursuant to the Military Whistleblower Protection 
Act.
    I want to take a brief moment to recognize his father, Mr. 
Frank DeMarco.
    Thank you for joining us, sir.
    He has traveled a long way to be here in the room with his 
son.
    And as a reminder, under Committee Rules, Mr. DeMarco, your 
oral statement is 5 minutes. Your entire statement is part of 
the record.
    Again, thank you very much, and you are recognized for 5 
minutes.

   STATEMENT OF ADAM D. DEMARCO, MAJOR, DISTRICT OF COLUMBIA 
                         NATIONAL GUARD

    Major DeMarco. Thank you for the opportunity to testify 
today. I come before the Committee to help ensure that there is 
a fair, factual record of what happened at Lafayette Square, 
based on what I saw and experienced firsthand. I especially 
want this Committee, the residents of Washington, DC, and the 
American people to know that the D.C. National Guard performed 
with the utmost professionalism and integrity, faithful to our 
Constitution under the most challenging circumstances.
    On June 1, I served as a liaison between the District of 
Columbia National Guard and the Park Police at Lafayette 
Square.
    The role of the National Guard was to support the Park 
Police operation to clear demonstrators from the vicinity of 
Lafayette Square. The immediate objective of this clearing 
operation, as the Park Police informed me, was to install a 
larger security barricade on H Street, along the northern edge 
of Lafayette Square.
    The D.C. National Guard was not to be actively engaged in 
the clearing operation. Rather, we would follow behind Park 
Police units and help to secure an expanded security perimeter, 
once established by the Park Police.
    National Guardsmen were outfitted with standard riot gear, 
such as face masks, shields, shin guards, and batons for 
defensive purposes. But no National Guardsmen were armed with 
lethal or non-lethal munitions that evening.
    From what I observed, the demonstrators were behaving 
peacefully, exercising their First Amendment rights. At around 
6:20 p.m., the Park Police issued the first of three warning 
announcements to the demonstrators, directing them to disperse. 
I did not expect the announcements so early, as the DC curfew 
was not to go into effect until 7 p.m. that evening, 40 minutes 
later. The warnings were conveyed using a megaphone near the 
statue of President Andrew Jackson, approximately 50 yards from 
the demonstrators. From where I was standing, approximately 20 
yards from the demonstrators, the announcements were barely 
audible, and I saw no indication that the demonstrators were 
cognizant of the warnings to disperse.
    At approximately 6:30 p.m. the Park Police began the 
clearing operation led by the civil disturbance units and 
horse-mounted officers. No National Guard personnel 
participated in the push or engaged in any other use of force 
against the demonstrators.
    As the clearing operation began, I heard explosions and saw 
smoke used to disperse the protesters. The Park Police liaison 
officer told me that the explosions were stage smoke, and that 
no tear gas is being deployed against the demonstrators. But I 
could feel irritation in my eyes and nose. And based off my 
previous exposure to tear gas in training, I recognized that 
irritation as effects consistent with CS or tear gas. And later 
that evening, I found spent tear gas canisters on the street 
nearby.
    As Park Police pushed the demonstrators further down H 
Street, I saw demonstrators scattering and fleeing as Park 
Police charged toward them. I observed people fall to the 
ground, and some Park Police used their shields offensively as 
weapons. As I walked behind Park Police pushing westward on H 
Street, I also observed unidentified law enforcement personnel 
behind our National Guardsmen using paintball-like weapons to 
discharge what I later learned to be pepper balls into the 
crowd as demonstrators continued to flee.
    After H Street had been cleared, I took up a position on 
16th Street near St. John's Church. At around 7:05 p.m., I saw 
the President walking onto H Street from Lafayette Square, near 
St. John's Church. The President's arrival was a complete 
surprise, as we had not been briefed that he would enter our 
sector.
    As for the new security barrier, whose installation was the 
stated purpose for the clearing operation, the materials to 
erect it did not arrive on scene on H Street until around 9 
p.m. that evening, and it was not completed until later on.
    Members of the Committee, the events I witnessed at 
Lafayette Square on the evening of June 1 were deeply 
disturbing to me and fellow National Guardsmen. Based on my 
training and experience, at no time did I feel threatened by 
the protesters or assess them to be violent. And based on 
established U.S. military protocols concerning proportionality 
of force in dealing with civil disturbances both within the 
United States and overseas, it was my observation that the use 
of force against demonstrators in the clearing operation was an 
unnecessary escalation of the use of force.
    From my observation, those demonstrators, our fellow 
American citizens, were engaged in the peaceful expression of 
their First Amendment rights. Yet, they were subjected to an 
unprovoked escalation and excessive use of force. As the late 
Representative John Lewis said, ``When you see something that 
is not right, not just, not fair, you have a moral obligation 
to say something, to do something.'' The oath I swore as a 
military officer to support and defend the United States 
Constitution is a bedrock guiding principle for me. It is the 
foundation of the trust safely placed in the armed forces by 
the American people. And it compels me to say something, to do 
something about what I witnessed on June 1 at Lafayette Square.
    I thank you for your time and this opportunity and look 
forward to your questions.

    [The prepared statement of Major DeMarco follows:]
      Prepared Statement of Adam DeMarco, Major, DC National Guard
                              introduction
    Chairman Grijalva, Ranking Member Bishop, and members of the 
Committee, thank you for the opportunity to testify regarding the 
events at Lafayette Square in Washington, DC, on June 1, 2020.
    I come before the Committee to help ensure that there is a fair 
factual record of what happened at Lafayette Square, based on what I 
saw and experienced firsthand. I especially want this Committee, the 
residents of Washington, DC, and the American people to know that the 
Soldiers and Airmen of the DC National Guard performed with the utmost 
professionalism and integrity, faithful to our Constitution, under the 
most challenging of circumstances.
    I regard my testimony today as fulfilling my oath to support and 
defend the Constitution, and as an extension of my public service--
service that began as a cadet at the United States Military Academy at 
West Point and has continued for over a decade as a commissioned 
officer both in the Army and the National Guard.
    During my 5 years on active duty, I had the privilege of serving in 
the 1st Cavalry and 1st Armored Divisions, and the honor of leading 
America's sons and daughters in three overseas deployments, including a 
combat deployment to Iraq. In 2014, after completing my active duty 
obligation, I elected to continue to serve in uniform by joining the 
District of Columbia National Guard. Through my military service, I 
have continued a family tradition of public service dating back to my 
grandfathers, Charles Woodrow Wilson Lohrig and William Holmes.
    My paternal grandfather, Grandpa ``Woody,'' enlisted in the Navy in 
the 1930s and was assigned to the USS Houston, said to be President 
Franklin Roosevelt's favorite ship. On February 28, 1942, the Houston 
encountered an overwhelming Japanese force in what is known as the 
Battle of the Sunda Strait. Surviving the initial battle only to be 
captured by the Japanese, Grandpa Woody and his shipmates endured a 
brutal 42 months of forced labor, torture, and starvation in captivity 
until liberated by Allied forces in 1945.
    My maternal grandfather enlisted in the United States Marine Corps 
after the end of World War II. He later fought in the Korean War and 
received the Purple Heart for wounds sustained in combat. He never 
talked about his time in Korea, but he was a proud Marine until his 
dying day and always christened his boats with the name, ``Semper Fi.''
    In the 1980s, my father also engaged in public service--first as a 
law enforcement officer in Pinellas County, Florida, and subsequently 
as a Special Agent at the Department of Defense and the Department of 
Transportation. His example imparted to me essential core values that I 
strive to live up to each and every day.
                  events at lafayette square on june 1
    In March 2020, I was activated by the DC National Guard to assist 
in the District of Columbia's response to the coronavirus pandemic. In 
that capacity, I was selected to serve as a liaison between the DC 
National Guard and the DC Government's Department of Health and local 
hospitals to facilitate immediate needs requests, surge capacity 
planning, and emergency events associated with the pandemic.
    On the evening of May 29, 2020, I received notification that the 
entire DC National Guard was to be activated to help respond to ongoing 
civil disturbances within the District of Columbia, specifically in the 
vicinity of Lafayette Square.
    Over the next 2 days, the DC National Guard deployed forces to 
Lafayette Square in support of the U.S. Park Police. During that time, 
I received reports that six DC National Guard personnel had sustained 
injuries as a result of violent unrest outside of the White House. I 
also learned that Federal law enforcement officers from the Park Police 
and the U.S. Secret Service had sustained injuries.
    On June 1, 2020, I was tasked to serve as a liaison between the DC 
National Guard's ``Task Force Civil Disturbance'' and the Park Police 
at Lafayette Square. As events unfolded that evening, I was one of the 
senior DC National Guard officers within the area of operations.
    The Task Force consisted of approximately 250 personnel from the DC 
National Guard, and its mission was to provide support for the Park 
Police in the vicinity of the White House and national monuments. DC 
National Guard personnel were outfitted with standard riot gear, such 
as face masks, shields, shin guards, and batons for defensive purposes. 
But no National Guardsmen were armed with lethal or non-lethal 
munitions that evening.
    Staging from the DC Armory, we arrived at the White House complex 
around 5:35 p.m. and formed up in front of the Department of the 
Treasury to minimize our footprint and avoid antagonizing demonstrators 
positioned along the fence line on H Street on the northern edge of 
Lafayette Square. Upon arrival, I received a briefing from my liaison 
with the Park Police and learned that the DC National Guard's task 
would be to support a Park Police operation to clear demonstrators from 
the vicinity of Lafayette Square. The Park Police plan was to clear H 
Street between Vermont Avenue to the east and Connecticut Avenue to the 
west, and move north on Vermont Avenue, 16th Street, and Connecticut 
Avenue to extend the security perimeter from H Street to I Street. The 
immediate objective of this clearing operation, I was told, was to 
install a larger security barricade on H Street along the northern edge 
of Lafayette Square.
    From a briefing I received from the Park Police, I learned that the 
Park Police, along with the Secret Service, would conduct an operation 
to clear demonstrators on H Street between Vermont Avenue and 
Connecticut Avenue. The DC National Guard was not to be actively 
engaged in the clearing operation. Rather, our job was to move behind 
the Park Police as H Street was cleared and the new northern security 
perimeter was established on I Street, then reinforce and relieve the 
Park Police on the new perimeter and hold a static line there. I 
understood that a curfew imposed by the DC Mayor was not going into 
effect until 7 p.m., so I was not expecting any clearing operation to 
commence before then.
    I did not know what orders or rules of engagement had been issued 
to the Park Police concerning the use of force against the 
demonstrators. I asked my Park Police liaison if tear gas would be used 
because I had observed tear gas canisters affixed to Park Police 
officers' vests, and I knew that tear gas had been used against 
demonstrators the previous evening. The Park Police liaison told me 
that tear gas would not be employed.
    A few minutes before 6 p.m., I was standing near the statue of 
Andrew Jackson in the middle of Lafayette Square as DC National Guard 
personnel formed up behind Park Police units positioned in a line 
behind the perimeter fence on the H Street side of the square, facing 
demonstrators on the other side of the fence. From what I could 
observe, the demonstrators were behaving peacefully, exercising their 
First Amendment rights.
    At approximately 6:05 p.m., after I had repositioned myself close 
to the line, I observed Attorney General William Barr and Chairman of 
the Joint Chiefs of Staff, General Mark Milley, walking across 
Lafayette Square from the direction of the White House toward the 
security perimeter on H Street. Attorney General Barr walked right up 
to the line of Park Police and DC National Guard, in front of the 
demonstrators, then walked down the line of Park Police officers and 
National Guardsmen. The Attorney General then headed toward the statue 
of President Jackson where he appeared to confer with Park Police 
officers.
    General Milley walked toward the area where I was standing. As the 
senior National Guard officer on the scene at the time, I gave General 
Milley a quick briefing on our mission and the current situation. 
General Milley asked for an estimate of the number of demonstrators, 
and I estimated 2,000. General Milley told me to ensure that National 
Guard personnel remained calm, adding that we were there to respect the 
demonstrators' First Amendment rights.
    At around 6:20 p.m., after the Attorney General and General Milley 
departed Lafayette Square, the Park Police issued the first of three 
warning announcements to the demonstrators, directing them to disperse. 
I did not expect the announcements so early, as the curfew was not due 
to go into effect until 7 p.m., 40 minutes later.
    The warnings were conveyed using a megaphone near the statue of 
President Jackson, approximately 50 yards from the demonstrators. From 
where I was standing, approximately 20 yards from the demonstrators, 
the announcements were barely audible and I saw no indication that the 
demonstrators were cognizant of the warnings to disperse.
    At approximately 6:30 p.m., the Park Police began the clearing 
operation, led by Civil Disturbance Units and horse-mounted officers. 
The Secret Service, and other law enforcement agencies I was unable to 
identify, also participated in the push. No National Guard personnel 
participated in the push or engaged in any other use of force against 
the demonstrators.
    By then I had moved to the northeast corner of Lafayette Square 
near the statue of General Kosciuszko. As the clearing operation began, 
I heard explosions and saw smoke being used to disperse the protestors. 
The Park Police liaison officer told me that the explosions were 
``stage smoke,'' and that no tear gas was being deployed against the 
demonstrators. But I could feel irritation in my eyes and nose, and 
based on my previous exposure to tear gas in my training at West Point 
and later in my Army training, I recognized that irritation as effects 
consistent with CS or ``tear gas.'' And later that evening, I found 
spent tear gas canisters on the street nearby.
    During the initial push, I had relocated to a position near the 
northeast corner of Lafayette Square, next to the Comfort Station that 
had been burned the previous evening, in order to closely observe the 
clearing operation. As the horses began to move from east to west along 
H Street, they stopped in the vicinity of St. John's Church and the 
Park Police's Civil Disturbance Unit then took the lead and pushed the 
demonstrators further down H Street. From my vantage point, I saw 
demonstrators scattering and fleeing as the Civil Disturbance Unit 
charged toward them. I observed people fall to the ground as some Civil 
Disturbance Unit members used their shields offensively as weapons. As 
I walked behind the Civil Disturbance Units pushing westward on H 
Street, I also observed unidentified law enforcement personnel behind 
our National Guardsmen using ``paintball-like'' weapons to discharge 
what I later learned to be ``pepper balls'' into the crowd, as 
demonstrators continued to retreat.
    About 10 minutes after the clearing operation began, the Park 
Police ordered the DC National Guard to move up behind the Park Police 
clearing elements pushing north on Vermont Avenue, 16th Street, and 
Connecticut Avenue to reinforce and relieve the Park Police on the 
newly established northern perimeter.
    I took up a position on 16th Street between St. John's Church and 
the AFL-CIO building. By then, H Street had been cleared of 
demonstrators. Soon thereafter, several black sport utility vehicles 
pulled up at the intersection of 16th Street and H Street, and 
uniformed Secret Service officers began to establish an inner security 
cordon between the SUVs and our perimeter on I Street. At around 7:05 
p.m., I saw the President walking onto H Street from Lafayette Square, 
near St. John's Church, accompanied by his security detail. The 
President's arrival was a complete surprise, as we had not been briefed 
that he would enter our sector.
    As for the new security barrier, whose installation was the stated 
purpose of the clearing operation, the materials to erect it did not 
arrive on the scene until around 9 p.m., and it was not completed until 
later that night.
                               conclusion
    Members of the Committee, the events I witnessed at Lafayette 
Square on the evening of June 1 were deeply disturbing to me, and to 
fellow National Guardsmen. Having served in a combat zone, and 
understanding how to assess threat environments, at no time did I feel 
threatened by the protestors or assess them to be violent. In addition, 
considering the principles of proportionality of force and the 
fundamental strategy of graduated responses specific to civil 
disturbance operations, it was my observation that the use of force 
against demonstrators in the clearing operation was an unnecessary 
escalation of the use of force. From my observation, those 
demonstrators--our fellow American citizens--were engaged in the 
peaceful expression of their First Amendment rights. Yet they were 
subjected to an unprovoked escalation and excessive use of force.
    As the late Representative John Lewis said, ``When you see 
something that is not right, not just, not fair, you have a moral 
obligation to say something, to do something.''
    The oath I swore as a military officer, to support and defend the 
Constitution of the United States, is a bedrock guiding principle and, 
for me, constitutes an individual moral commitment and ethical 
instruction. It is the foundation of the trust safely placed in the 
Armed Forces by the American people. And it compels me to say 
something--and do something--about what I witnessed on June 1 at 
Lafayette Square.

                                 ______
                                 

 Questions Submitted for the Record by Chair Grijalva to Adam DeMarco, 
               Major, District of Columbia National Guard

                                    WIGGIN AND DANA

                                                    August 28, 2020

Hon. Raul M. Grijalva, Chair,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20515

Re: Responses to Questions for the Record

    Dear Chairman Grijalva:

    On behalf of my client, Adam D. DeMarco, I am forwarding the 
enclosed written responses to Questions for the Record that he received 
concerning the July 28, 2020 hearing of the House Committee on Natural 
Resources (``Committee'') titled ``Unanswered Questions About the U.S. 
Park Police's June 1 Attack on Peaceful Protestors at Lafayette 
Square.''

    The responses that Mr. DeMarco is submitting concern events he 
participated in while activated as a reservist in the District of 
Columbia National Guard. Accordingly, as in the case of his July 28 
testimony before the Committee, Mr. DeMarco is providing this 
information to the Committee pursuant to the Military Whistleblowers 
Protection Act, 10 U.S.C. Sec. 1034.

            Sincerely,

                                           David H. Laufman

                                 ______
                                 

    Question 1. You testified that the device law enforcement used on 
June 1, 2020, at Lafayette Square to provide the mandatory warnings to 
protestors to disburse was not a Long Distance Acoustic Device (LRAD), 
but a standard hand-held megaphone. Please provide any knowledge you 
may have about whether there was an LRAD on site that day, whether any 
LRAD was used at all, whether anyone attempted to use an LRAD, and 
whether there was any intended use of an LRAD. Please identify anyone 
else who would have knowledge of whether an LRAD was used, procured for 
use, or attempted to be procured for use at Lafayette Square on June 1, 
2020.

    Answer. At approximately 11:35 a.m. on June 1, while I was still at 
Ft. Belvoir, I was copied on an email from the Provost Marshal of Joint 
Force Headquarters National Capital Region (JFHQ-NCR), the lead 
military police officer in the Department of Defense for the National 
Capital Region, asking if the DC National Guard possessed ``a Long 
Range Acoustic Device (LRAD) or the Active Denial Systems (ADS).'' The 
email stated that ``ADS can provide our troops a capability they 
currently do not have, the ability to reach out and engage potential 
adversaries at distances well beyond small arms range, and in a safe, 
effective, and non-lethal manner. The ADS can immediately compel an 
individual to cease threatening behavior or depart through application 
of a directed energy beam that provides a sensation of intense heat on 
the surface of the skin. The effect is overwhelming, causing an 
immediate repel response by the targeted individual.''
    At approximately 12:04 p.m., I responded that the DC National Guard 
was not in possession of either an LRAD or an ADS.
    That evening, after the DC National Guard had deployed to Lafayette 
Square, I asked my U.S. Park Police (USPP) liaison, Sgt. Glick, if the 
USPP had an LRAD on-site. He responded that the USPP did not have an 
LRAD on-site, and that the USPP typically uses the DC Metropolitan 
Police Department's LRAD when such a device is needed.
    Sgt. Glick then asked if the DC National Guard possessed an LRAD in 
its equipment inventory. I replied that I would inquire about the 
possibility of obtaining an LRAD.
    According to a Situation Update Brief by JFHQ-DC on June 1 at 6 
p.m., at that time there was a pending request for an LRAD by the DC 
National Guard to JFHQ-NCR. To my knowledge, however, there was no LRAD 
on-site at or near Lafayette Square on June 1.
    On June 2, I began working with JFHQ-NCR to learn if they could 
procure an LRAD. I made an informal request to the Provost Marshal at 
JFHQ-NCR about the feasibility of procuring an LRAD. The Provost 
Marshal subsequently received a response from Marine Corps Base 
Quantico, advising that Marine Corps Base Quantico had several LRADs 
on-site. I subsequently advised logistics officials in the DC National 
Guard, but they informed me that they were no longer seeking to procure 
an LRAD from the JFHQ-NCR.

    Question 2. Please provide any information regarding the audibility 
of the mandatory warnings that you may not have had a chance to present 
at the hearing or would like to clarify, or respond to.

    Answer. The warnings to disperse issued by the USPP at Lafayette 
Square on June 1, 2020, did not come from an LRAD. Rather, I observed 
that the device used to give the warnings was a red-and-white megaphone 
laying on a bench near the statue of President Andrew Jackson in the 
middle of Lafayette Square. An individual I later learned was the USPP 
Incident Commander gave the warnings using a handheld microphone 
attached to the megaphone.
    As I stated in my previous testimony, at the time of the warnings 
the individual giving the warnings (i.e., the USPP Incident Commander) 
was approximately 50 yards from the demonstrators. I was positioned 
approximately 30 yards from the Incident Commander, and approximately 
20 yards from the front line of the demonstrators. From my position, 
the USPP warnings to disperse were barely audible and I was only able 
to discern several words.

    Question 3. Please describe any knowledge you may have, or 
statements you may have heard from others, regarding whether any law 
enforcement used rubber bullets on protesters. Please include any 
observations or knowledge you may have about which law enforcement 
agency used rubber bullets.

    Answer. I do not possess any first-hand knowledge that rubber 
bullets were used against protesters on June 1. But I observed 
Stingball grenades affixed to the ballistic vests of law enforcement 
officers deployed to Lafayette Square. (I was unable to determine the 
law enforcement agency with which these officers were associated.)
    Several days later, a DC National Guardsman who was at Lafayette 
Square on June 1 told me that he saw protesters being shot with these 
non-lethal munitions. This DC National Guardsman told me how disturbed 
he was at seeing an innocent civilian being shot with rubber bullets 
and falling to the ground in front of him--seemingly indiscriminately.

    Question 4. You mentioned the pre-positioning of M4 carbines by 
National Guardsmen by transferring them from Fort Belvoir to the DC 
Armory. When did this transfer occur and how did you become aware of 
it? Do you have any knowledge of whether any ammunition was also pre-
positioned? If so, how did you become aware of it?

    Answer. According to contemporaneous information I was receiving 
from another DC National Guardsman in my unit, this transfer of weapons 
occurred on June 1, 2020, at approximately 1:30 p.m. The order to 
transfer the weapons to the DC Armory had come from the Commander of 
the 260th Regiment, a unit of the DC National Guard.
    On June 4, 2020, I received notice from the logistics component of 
the DC National Guard that ammunition (not further described) was 
arriving at the DC Armory from supporting states, including Missouri 
and Tennessee.
    On or about June 5, 2020, I learned from officers in the Joint 
Operations Center at the DC Armory that 5.56 mm and 7.62 mm ammunition 
had been transferred to the DC Armory.
    On or about June 12, 2020, I learned from the chief operations 
officer (J-3) for the DC National Guard that approximately 7,000 rounds 
of ammunition had been transferred to the DC Armory.

    Question 5. Acting Chief Monahan testified that the U.S. Park 
Police used Stinger Balls. Please describe what a Stinger Ball is and 
how it works. Are there any Army rules or regulations that would be 
violated if Stinger Balls were used on a peaceful crowd?

    Answer. According to the Department of Defense's Non-Lethal Weapons 
(NLW) Reference Book, non-lethal weapons are defined as ``weapons, 
devices and munitions that are explicitly designed and primarily 
employed to incapacitate targeted personnel or materiel immediately, 
while minimizing fatalities, permanent injury to personnel, and 
undesired damage to property in the targeted area or environment.'' A 
``Stingball grenade'' is among the types of munitions classified as a 
non-lethal weapon. It is ``a hand-thrown or shotgun launched rubber 
grenade that releases rubber pellets and delivers blunt trauma effects 
against single and multiple targets to deny access, move, and/or 
suppress individuals. Stingball grenade uses include crowd control, 
detainee operations, and cordon and search operations.''
    It is my understanding that the U.S. Army's use of non-lethal 
weapons and riot control agents is governed by the Department of 
Defense's Law of War Manual, and by Executive Order No. 11850, issued 
on April 8, 1975 (40 Fed. Reg. 16187). I defer to legal experts on how 
these rules would apply, in a given scenario, to the U.S. Army's use of 
Stingball grenades ``on a peaceful crowd.'' As I testified, however, DC 
National Guardsmen deployed to Lafayette Square on June 1, 2020, were 
not equipped with lethal or non-lethal munitions.

                                 ______
                                 

    The Chairman. We will begin in the same way as the last 
time.
    Mr. Huffman, you are recognized for 5 minutes, sir.
    Mr. Huffman. Thank you, Mr. Chairman.
    And Major DeMarco, you were not part of the Park Police 
force, so you may not be as familiar with the night--the 2015 
legal settlement that I discussed with the Acting Chief, but 
you did hear, I think, the elements of that settlement, the 
specific requirements of how, when confronting protesters, the 
Park Service Police are required to stage in a very specific 
way with officers in the back of the crowd who would visually 
and verbally confirm that warnings were loud enough to be heard 
and understood, that those warnings needed to include a very 
clear reference to specific legal violations and a warning that 
arrests would ensue.
    So, you were on the ground. You have testified that you 
were just a few yards from the front line here. Tell me, if you 
can, if you believe that Chief Monahan's version of this, that 
every one of those elements was complied with to the letter, 
was that your experience, as a firsthand witness?
    Major DeMarco. Sir, on the ground I am not aware of a long-
range acoustic device being in position or utilized for the 
proclamation to disperse.
    Mr. Huffman. You talked about a megaphone, a standard 
megaphone. Maybe that is what they mean when they say long-
range acoustic device. But the only thing you heard was a 
standard megaphone, correct?
    Major DeMarco. That is correct, a megaphone placed on a 
bench, utilized through a handheld microphone.
    Mr. Huffman. All right. And do you believe that it was 
audible enough to be understood by the protesters throughout 
the crowd?
    Major DeMarco. Negative, sir. I could barely understand the 
message that was being delivered.
    Mr. Huffman. Did you see anything to suggest that there 
were officers in the back of the crowd that were somehow 
confirming that it was loud enough to be understood?
    Major DeMarco. I did not observe that, sir.
    Mr. Huffman. What about the behavior of the protesters? Did 
anything in their reaction or behavior suggest to you that they 
had either understood or not understood what had been said in 
the megaphone?
    Major DeMarco. I saw no change in their disposition or 
posture.
    Mr. Huffman. All right. And in the warning, did you hear 
any reference to a specific law that was being violated?
    Major DeMarco. I could just make out every other word in 
the statement that was being delivered.
    Mr. Huffman. All right. I want to ask about the fencing 
that has been offered as a justification for why this all had 
to happen. And the Acting Chief said that the fencing, contrary 
to your testimony, had arrived several hours earlier. But I 
think he had said it was staged a couple of blocks away.
    Is there any reason why, if it was important to install 
that fencing as soon as it was on site, that it wouldn't have 
happened a couple of hours earlier, if that fencing had already 
arrived by that point?
    Major DeMarco. Sir, I can't get into hypotheticals as to 
why or why it was not installed at that time. Based off of the 
Army training publications and the various doctrine that we use 
in installing and maintaining defensive static positions, 
certainly, I would have looked at other time frames to install 
that fence.
    Mr. Huffman. Yes, but you found it odd that you had a 7 
p.m. curfew coming up, just 25 minutes later, and the fencing 
could have been installed at that point in a manner that 
avoided a confrontation, potentially. Am I understanding your 
suggestion correctly?
    Major DeMarco. At the time, I didn't make that correlation. 
I was just there, focused on getting the mission and getting 
our soldiers safely off the LMTVs that they arrived on, and 
into position to support the Park Service----
    Mr. Huffman. So, about the mission, were you told that this 
was about fencing?
    Major DeMarco. Yes, sir.
    Mr. Huffman. OK, let me just ask, if I could, about the 
timing of the clearing of the crowd. There is some live 
tweeting from CNN, a CNN reporter, that suggests from that 
moment that the advance began--I believe it was 6:35 p.m.--
within 10 minutes this crowd of several thousand people, by all 
accounts, was gone. That suggests to me that there was great 
urgency, that there was a very rapid clearing of the crowd. 
What was your observation?
    Major DeMarco. Based off of Army training publication 3-
39.33, entitled ``Civil Disturbance,'' that escalation to 
rapidly move and disperse people is not in accordance with what 
I understood as to be the suggested and guided practice to 
clear the sector.
    Mr. Huffman. So, the urgency, the speed of that clearing, 
was unusual in your experience. Is that correct?
    Major DeMarco. I was taken by surprise, correct.
    Mr. Huffman. Do you infer from that, that that was part of 
the objective by the Park Police, that clearing with speed was 
their intention?
    Major DeMarco. Yes.
    Mr. Huffman. All right. Thank you, Mr. Chair. I yield back.
    The Chairman. Mr. Hice, sir, you are recognized.
    Dr. Hice. Thank you, Mr. Chairman.
    Thank you, Mr. DeMarco, for being here. In the previous 
panel, Chief Monahan testified that the decision to install the 
fencing was actually made 2 days before June 1. It was on 
Saturday, May 30. And that, of course, was in the aftermath of 
the most violent protests that took place over the weekend. The 
Park Service and the U.S. Secret Service rightfully wanted to 
take steps to prevent that from happening. Were you a part of 
those discussions 2 days prior?
    Major DeMarco. No, sir.
    Dr. Hice. On June 1, what kind of role did you have? Were 
you in a senior position of command and control, or were you 
there primarily as a supportive role?
    Major DeMarco. I was not a commander, nor was I the officer 
in charge. I was simply the liaison between the Park Police and 
the D.C. National Guard. I would receive the missions and 
taskings, and then alert the senior OIC, Officer in Charge, on 
the ground of what the Park Police was requesting.
    Dr. Hice. So, a supportive role.
    Major DeMarco. Yes, sir.
    Dr. Hice. In that regard. OK, thank you.
    You state that the fencing did not arrive until 9 p.m. on 
June 1. Is that correct?
    Major DeMarco. Yes, sir.
    Dr. Hice. The folks on the ground with the Park Police and 
the Secret Service share a different timeline. Here is the 
timeline that they have. The fencing company site manager 
arrived at 3:30 p.m. on June 1. The company staff arrived 
shortly thereafter. The fencing material was delivered at 5 
p.m. The order was given at 6:23 p.m. The square was cleared by 
6:50 p.m., and trucks with material reportedly moved in the 
Square immediately, and construction began at 7:30 p.m.
    So, I mean, there was not a match-up in your timeline and 
what actually took place. How do you reconcile this?
    Major DeMarco. Yes, sir. From my position, which was on H 
Street and 16th Street, the first sighting I had of the 18-
wheeler carrying the non-scalable fence was at 9 p.m. that 
evening, on or around. And the completion of that fence did not 
occur until about 10:30 p.m. later that evening.
    Dr. Hice. So, I guess from what you are saying, there is at 
least the possibility that, from the location where you were, 
you were not able to see all the activity and realize what was 
taking place elsewhere.
    Major DeMarco. That is correct, sir. However, the fence was 
only being installed along H Street from Connecticut to 
Vermont.
    Dr. Hice. OK, but the timeline, it actually started at 7:30 
p.m., so I am giving you the benefit of the doubt that your 
location--you didn't perhaps see all that was taking place.
    Major DeMarco. It is possible, sir.
    Dr. Hice. You stated just a few moments ago about the three 
warnings. Your testimony here, I ran back and was looking at 
it. You said that, at 6:20 p.m., the Park Police issued--and 
these are your words--the Park Police issued the first of three 
warning announcements to the demonstrators, directing them to 
disperse.
    And you just said you didn't hear that. But your testimony 
says they gave three warnings.
    Major DeMarco. They did, but I did not hear the full 
proclamation that was being given. But around that time, at 
6:20 p.m., the warnings began.
    Dr. Hice. OK. So, if you didn't hear them, how were you 
aware that they took place?
    Major DeMarco. Because I was approximately 30 yards away, 
and I saw the Park Police officer with the megaphone laying on 
a bench, holding----
    Dr. Hice. You were 30 yards away from where? I am trying to 
picture this.
    Major DeMarco. From, essentially, the President Jackson 
statue.
    Dr. Hice. OK, so you heard the announcement.
    Major DeMarco. But I couldn't make out exactly what they 
were saying, sir.
    Dr. Hice. OK, but enough to where you knew it was the first 
of three warnings to disperse.
    Major DeMarco. Negative, sir.
    Dr. Hice. That is your testimony. That is your written 
testimony.
    Major DeMarco. Correct. If I was standing up at the line, I 
would have no idea what they were actually saying. I was in a 
position of privilege, where I could hear, and I expected 
something to be coming from them.
    Dr. Hice. OK. Again, your written testimony says at 6:20 
p.m.--it is very precise--that they gave the first of three 
warnings.
    Anyway, we will go on from there. Let me just ask in 
closing, Mr. DeMarco--I thank you for your service and a great 
deal of service that you have done, and even politically--have 
you ever run for Congress?
    Major DeMarco. Yes, sir.
    Dr. Hice. And when did you do that?
    Major DeMarco. In 2018.
    Dr. Hice. And what party were you?
    Major DeMarco. A Democrat.
    Dr. Hice. OK. I think it is very interesting how a lot of 
these dots connect, as we continue defaming the police 
department and attacking them for their stated purpose of 
protecting public safety, and the rule of law, and the safety 
of our law enforcement.
    And, Mr. Chairman, I will yield back for now.
    The Chairman. The gentleman yields.
    Ms. Haaland, you are recognized.
    Ms. Haaland. Thank you, Chairman.
    Thank you, Major DeMarco. Major DeMarco, it seems that some 
law enforcement officers at Lafayette were not pleased about 
what they were asked to do on that day. Arlington County pulled 
their police officers from their role in assisting the U.S. 
Park Police because they were shocked about how their officers 
were used to attack peaceful protesters. It seemingly just 
wasn't what they had signed up for.
    We have heard about how members of the National Guard who 
were at Lafayette Square have struggled with the things they 
were asked to do on June 1, because it runs directly counter to 
the very reasons they decided to serve their country, and to 
their oath to support and defend the Constitution.
    In your testimony today, you courageously expressed similar 
sentiments, that what you saw our government do was wrong, and 
that it was difficult to reconcile being put in that situation 
with your commitment to your country and your fellow Americans. 
Could you tell us a bit more about how this affected you 
personally, as an officer in the National Guard?
    Major DeMarco. Yes, ma'am. And thank you for that question.
    In the days following June 1, I struggled to process 
exactly what had happened and taken place, to the point where I 
was sleeping very little, and I started trying to figure out 
what the next steps were. I had confided in several other 
officers in the District of Columbia National Guard, as well as 
other friends and advisers that I have served with, both on 
active duty and in support of active duty operations.
    A couple of days later I decided that I needed to 
memorialize my record, or my memory, and I wrote my own sworn 
statement on my own volition. And I read it in front of another 
officer, and he signed off on it, because I knew something was 
wrong, but I didn't know what.
    And then it was shortly thereafter that I started reaching 
out to seeing what could be done, because I truly felt 
compelled that I had to say something.
    I started talking to other soldiers, soldiers that are in 
my unit, soldiers that I have a supervisory authority over, and 
they were expressing many of the same consternations and 
concerns. So, I knew that it wasn't just me who had witnessed 
this, and felt that there was something both morally and 
legally wrong.
    And in trying to process that, I realized that I am in a 
position, as a major in the United States Army National Guard, 
where I can do something. And that is why I decided to come 
forward.
    Ms. Haaland. Thank you, Major. And I am sorry you were put 
in that position.
    Are you aware of any other concerns from other people, your 
colleagues in the D.C. National Guard, that were there that 
day? And have they shared with you how this incident has 
affected them?
    Major DeMarco. Yes, ma'am. One of the soldiers in my unit, 
without giving out any personally identifiable information, is 
not a native-born American citizen from a developed country. 
And in talking to him, and helping him try to understand what 
he saw and his role in that, which he acted honorably, he said 
that the events of June 1 were those that he expected to see in 
his home country, not here in the United States.
    And that was a very troubling statement that I heard from 
him, but I told him that we were doing the right thing. And it 
is another reason on a long litany of reasons why I am here 
today to testify.
    Ms. Haaland. And along these same lines, what does being 
put in this kind of situation do for the morale and the mental 
health of the people you serve with?
    Major DeMarco. The District of Columbia National Guard has 
been outstanding in ensuring that our soldiers and airmen have 
received the support from both chaplain and emotional support 
counselors to ensure that they understand and they have the 
resources available if they need any further counseling.
    Ms. Haaland. And Major DeMarco, as an officer, would you 
ever put your fellow guardsmen or women in a position where 
they were attacking citizens who were largely peacefully 
protesting?
    Major DeMarco. Absolutely not, ma'am.
    Ms. Haaland. And you mentioned in your statement that Mark 
Milley reminded you that the D.C. Guard was there to respect 
the rights of protesters. Were you and your Guard members 
confused why you had been told you were there to protect the 
rights of Americans, and then realized that you were asked to 
back up officers as they attacked these same protesters you 
were supposed to respect?
    Major DeMarco. Negative, ma'am. When we arrived in support 
of the United States Park Police, we arrived to help them, but 
also to maintain our--or to serve under our oath to support and 
defend the Constitution. Just because we were in a supporting 
role, did not change the way that we operate, or the laws that 
we abide by.
    Ms. Haaland. Thank you for answering my questions.
    I yield, Chairman.
    The Chairman. Thank you very much.
    Mr. Gohmert. You are recognized, sir.
    Mr. Gohmert. Thank you.
    Major DeMarco, since you brought up the First Amendment at 
least three times, maybe more, in your statement--you said, 
``We were there to respect the demonstrators' First Amendment 
rights.'' Was that the order that was given to you guys in the 
National Guard, ``Get out there, and your job is to respect the 
demonstrators' First Amendment rights''?
    Who gave that order?
    Major DeMarco. Negative, sir. That was a statement from the 
Chairman of the Joint Chiefs, General Mark Milley.
    Mr. Gohmert. Oh, yes. That is the same Chairman of the 
Joint Chiefs that went out and criticized the President of the 
United States.
    This is a different military than the one I served in, 
because when I was in the Army at Fort Benning, commanders 
constantly reminded us that everybody knows that President 
Carter is doing terrible damage to the military. But if anyone 
criticizes their Commander in Chief anywhere but very 
privately, they will either get an Article 15 or they will be 
court martialed.
    So, this is a new military, I am finding, where the Chair 
of the Joint Chiefs feels it is perfectly OK to demean his 
Commander in Chief, and then you felt the need to come out and 
testify differently from what we have heard from people within 
the Administration and others that were out there. I am trying 
to get used to this new military, where you don't really feel 
an obligation to answer to the civilian-elected Commander in 
Chief. This is really intriguing.
    Now, the rules of evidence and relevance here are much more 
relaxed than they are in a jury trial, but even in a jury trial 
you would be compelled to ask, did the Democratic Party give 
you any financial assistance when you ran against John Sarbanes 
for Congress?
    Major DeMarco. No, sir, I was all self-financed.
    Mr. Gohmert. Yes. Do you have any idea how many 
publications have mentioned your name since you came out 
against the reports by people within the Administration at 
Lafayette Park? Any idea?
    Major DeMarco. Negative, sir. I put my phone on Do Not 
Disturb last night.
    Mr. Gohmert. Yes, OK. Well, apparently, it is a whole lot 
more than you ever got when you got that 8.5 percent or so 
running for Congress. So, it looks like this is going to serve 
you well with the Democratic Party.
    But I am still quite concerned about our military. Your job 
was to observe the First Amendment rights of the demonstrators. 
Were you out there when St. John's was set on fire, there were 
two fires set in the church?
    Major DeMarco. Sir, I was there that evening. By the time 
the church fire was reported, I was over by the Lincoln 
Memorial.
    Mr. Gohmert. Do you happen to know, of your own personal 
knowledge, who the peaceful, loving demonstrator was, or 
demonstrators, that set the church on fire?
    Major DeMarco. I have no knowledge of who was 
demonstrating, sir.
    Mr. Gohmert. There apparently were some injuries out there. 
Are you familiar with how many law enforcement officers have 
been hurt by peaceful, law abiding, loving demonstrators?
    Major DeMarco. I am aware of the injuries that occurred 
between the periods of May 29 to May 31, which is abhorrent. I 
am also aware of the injuries of six National Guard personnel 
that were injured during that time frame.
    Mr. Gohmert. Were they injured by Park Police?
    Major DeMarco. Negative, sir. They were injured--one was 
concussed, I believe, from a projectile, and then others----
    Mr. Gohmert. But that was from one of the people that was 
just observing his First Amendment rights.
    Do you know what Supreme Court cases included in the First 
Amendment rights the right to concuss law enforcement?
    Major DeMarco. Sir, I have no legal background, so I can't 
answer that.
    Mr. Gohmert. OK, all right. I am just curious.
    Well, I really have no other questions for this witness. I 
yield back.
    The Chairman. Mr. Lowenthal, you are recognized.
    Dr. Lowenthal. Thank you.
    Major DeMarco, let me just get the question. Major, first, 
thank you for testifying. And I am concerned about what I had 
read about, or learned a little bit about--do you know anything 
about army helicopters hovering low over Washington, DC, 
relating to the event on June 1?
    Major DeMarco. Yes, sir.
    Dr. Lowenthal. Can you discuss these, and how you know 
these claims--what is said to be true? Can you discuss what you 
know?
    Major DeMarco. Yes, sir. After the clearing of H Street, I 
was informed by the United States Park Police that there will 
be low-flying military helicopters in our area of operations.
    Shortly thereafter, I observed the first UH-60 Blackhawk 
helicopter flying north of my position, which was at that point 
16th and I Street. I observed the helicopter had no distinctive 
markings on it. However, the doors were open. When I made that 
observation, I then assumed that it was a public affairs 
helicopter going around, taking photos of our response, in 
support of the United States Park Police.
    Later that evening, as the wall, or fence, was being built 
along H Street, I then heard radio transmissions over the 
radio, the D.C. National Guard internal communications network, 
that there was a low-flying helicopter in the vicinity of 15th 
Street and F Street, which is near Chinatown. The transmissions 
that I was receiving were that there was a low-flying 
helicopter, and it was making the pepper spray of the D.C. 
Metro Police Department ineffective. I kept hearing this over 
the radio. I didn't know what was going on in that area of 
operations, as it was out of our sector.
    I then called over to the D.C. Armory Joint Operations 
Center and spoke to an officer there, and asked him if he had 
any information as to what was happening. I told him the report 
that I had heard. He then communicated with someone within the 
operations center. And I hung up the phone, and that was the 
last that I heard of it.
    Dr. Lowenthal. Were there any that had medical markings on 
them?
    And you mentioned earlier that you believe that the Park 
Police knew it in advance, or at least that some of these 
helicopter operations were to occur. Can you explain that?
    Major DeMarco. Yes, sir. To your first question, later 
reporting indicates that one of the helicopters flying in the 
vicinity of 15th Street and F Street had a medical Red Cross 
designation on it.
    To your second point, the first that I learned about Army 
aviation assets being used in this mission was from the United 
States Park Police.
    Dr. Lowenthal. When helicopters fly this low, is that an 
intimidation maneuver?
    The Metropolitan Police Department, I believe, complained 
that the rotor wash made it hard for them to use pepper spray 
or pepper balls.
    Major DeMarco. Sir, I am not a pilot, and my aviation 
experience is very limited, so I can't speak to the tactics, 
techniques, and procedures of our aviation assets and pilots.
    Dr. Lowenthal. Does using helicopters in this way strike 
you as a sensible or safe way to do it, these operations?
    Major DeMarco. Sir, I am not in a position to talk about 
the safety or unsafe actions of pilots.
    Dr. Lowenthal. But you are aware that the Park Police knew 
in advance, at least, that some of these helicopters were going 
to be there.
    Major DeMarco. Based off of the timeline and the 
notification, yes, sir.
    Dr. Lowenthal. Again, can you just explain how were these 
helicopters to be used? Or did you know that they were used?
    Major DeMarco. I was not aware of their task and purpose 
within the area of operations.
    Dr. Lowenthal. OK, thank you. And I am going to yield back.
    The Chairman. The gentleman yields. I recognize the 
gentleman from Arizona. Mr. Gosar, sir.
    Dr. Gosar. Yes, Major DeMarco, you reached the conclusion 
that protesters were subject to an unprovoked escalation on 
June 1. However, this is a historically different 
characterization of events in comparison to what we just heard 
from the Chief.
    You testified that the D.C. National Guard was outfitted 
with standard riot gear. I assume you were, too. Did you not?
    Major DeMarco. Negative, sir. We actually had a shortage of 
riot gear. So, when I was on the scene, I had a protective 
mask, I had a ballistic vest, but I did not have a baton, a 
riot shield, shin guards, or a face visor.
    Dr. Gosar. In your testimony, you claim to be the senior 
National Guard officer on the scene. Did you make the decision 
to fully outfit the D.C. National Guard in riot gear that day?
    Major DeMarco. Negative, sir. That came from the District 
of Columbia National Guard commander and commanding general.
    Dr. Gosar. So, somebody more senior than you must have 
anticipated some level of violence. And you told us six of your 
fellows were injured. Did you express any disagreement with 
your senior officer about the anticipation of violence prior to 
your deployment to the area?
    Major DeMarco. Negative, sir. The uniform and kit that they 
were outfitted with is a part of the standard operating 
procedures for a response to civil disturbance.
    Dr. Gosar. OK. So, you are a military officer. We had a 
Member from the other side of the aisle earlier ask the chief 
law enforcement officer for our Park Police about the following 
of illegal orders. If you thought the protesters were so 
peaceful--and again, you were the senior National Guard officer 
on the scene--why did you have your soldiers participate in 
this mission?
    Major DeMarco. Sir, we were there in a static defensive 
line. We did not engage in the act of clearing of H Street.
    Dr. Gosar. By the way, whose order was it for curfew at 7 
o'clock?
    Major DeMarco. That was the District of Columbia mayor, 
Mayor Muriel Bowser, who instituted that curfew, sir.
    Dr. Gosar. Can you tell us just a little bit more about the 
six members that were injured? You said one was hit by a 
projectile, a concussion.
    Major DeMarco. That was the report I received. Yes, sir.
    Dr. Gosar. And would you consider that peaceful----
    Major DeMarco. Negative, sir.
    Dr. Gosar. Now, while you described the protesters as 
peaceful, Chief Monahan testified that many protesters were 
violent. Please answer the following questions, as we have very 
little time, yes or no.
    Chief Monahan's written testimony describes bricks and 
rocks being thrown at law officers. Would you consider that 
peaceful or violent?
    Major DeMarco. Violent, sir.
    Dr. Gosar. Chief Monahan continued, stating caustic liquids 
and water bottles were also projectiles aimed at law 
enforcement officers. Would you consider these actions peaceful 
or violent?
    Major DeMarco. Violent.
    Dr. Gosar. Chief Monahan also shared that they lit flares, 
and fireworks were even thrown at law enforcement officers. 
Would you consider that peaceful or violent?
    Major DeMarco. Violent, sir.
    Dr. Gosar. Finally, 2x4 sections of wood were thrown at law 
enforcement officers. Does this seem peaceful or violent to 
you?
    Major DeMarco. Violent, sir.
    Dr. Gosar. So, let me ask you another question. The 
conversation was talking about helicopters. And you said that 
you were privy to exactly what was happening. Could it have 
been used to take photographs?
    Major DeMarco. Yes, sir.
    Dr. Gosar. Wouldn't that be a smart, intelligent 
application, to find out how things are moving from the skies? 
Because you are kind of blinded on the ground, are you not?
    Major DeMarco. Use of aviation asset for aerial 
observations would give you a different lens to look at the 
mission, as it unfolded----
    Dr. Gosar. Yes, and it would make it more effective, would 
it not?
    Major DeMarco. It would add a different lens to view the 
mission, sir.
    Dr. Gosar. But it would make it more effective.
    Major DeMarco. There is nothing more effective than the on-
the-ground truth from the Incident Commander or commanders, 
sir.
    Dr. Gosar. Oh, no, no, no. You want to make sure that you 
are seeing all the things happening as they are working. And 
you can't see that from your perspective on the ground. You 
don't have a 365 viewpoint. You don't know what is being 
anticipated, what front is moving, what front is retreating. 
You don't know any of that. That is why air power or air 
traffic is very good.
    I mean, we use it in everyday life in cities for traffic 
control, do we not?
    Major DeMarco. Sir, I would respectfully disagree from my 
time overseas in combat zones. There is nothing more important 
than the sensors on the ground, which are our young men and 
women in uniform.
    Dr. Gosar. Well, I totally disagree with you. Because, I 
mean, if we use it for city traffic, why wouldn't we look at 
pedestrian traffic, as well?
    And the comments to Mr. Gohmert about the church--you 
weren't there, so you didn't know what was going on with the 
church. So, from my standpoint, coordinated effect, nothing 
erroneous about that application.
    And once again, I find it disenfranchising to say this is a 
peaceful demonstration. Peaceful demonstrations have an 
obligation, when they see violence, to turn them in. Otherwise, 
you are as guilty by association.
    I yield back.
    The Chairman. The gentleman yields. I would like to place 
into the record information relative to Major DeMarco having to 
do with West Point, family issues, anticipating questions about 
his own character and background, and not only questions, but 
attacks in those regards. If there is no objection, so ordered.
    And one of the pictures has him taking a picture with him 
and George Bush when he was a senior at West Point, George W. 
Bush, a known subversive to some people. But nevertheless, I 
thought that was important.
    Let me recognize Mr. Gallego. Five minutes, sir.
    Mr. Gallego. Thank you, Mr. Chair.
    Major DeMarco, how long were you at Lafayette Square? When 
did you get there?
    Major DeMarco. Yes, sir. I arrived at approximately 5:30 
p.m. that evening.
    Mr. Gallego. Which evening, May 29?
    Major DeMarco. June 1.
    Mr. Gallego. June 1?
    Major DeMarco. Yes, sir.
    Mr. Gallego. OK. What time, again?
    Major DeMarco. About 5:30 p.m. that evening.
    Mr. Gallego. Had you been on site before this?
    Major DeMarco. Yes, sir.
    Mr. Gallego. OK. And would you describe the civilians, the 
protesters--how would you describe them on June 1, when you 
arrived?
    Major DeMarco. On June 1, it was drastically different than 
the night before. On June 1, I would describe them as 
peacefully assembled.
    Mr. Gallego. And we can agree that May 29 there were 
violent protesters.
    Major DeMarco. Sir, I was only there on May 31.
    Mr. Gallego. Oh, OK. What did you observe on May 31?
    Major DeMarco. On May 31, I observed a riot.
    Mr. Gallego. OK.
    Major DeMarco. Based off of Army training publication 3-
39.33, it was classified as a riot.
    Mr. Gallego. I would say it was a riot, also. But June 1, 
from your estimation, that was not the case. There was peaceful 
protesting happening.
    Major DeMarco. Based off of that same Army training 
publication, correct.
    Mr. Gallego. Great. You have extensive training in riot 
control and de-escalation training?
    Major DeMarco. No formalized training, except for what I am 
able to ascertain from our Army training publications and field 
manuals. I have never attended the military police course, or 
any other additional courses.
    Mr. Gallego. Someone within your unit had, though, I am 
assuming.
    Major DeMarco. Yes, sir.
    Mr. Gallego. OK, give me 1 second here.
    So, at 5:30 p.m. you arrive on the scene. Did you get an 
assessment report from somebody? Obviously, you were taking 
over duty for that time period.
    Major DeMarco. Negative, sir. We were actually just 
arriving. The D.C. National Guard was just arriving.
    Mr. Gallego. Just arriving, OK.
    Major DeMarco. Yes, sir.
    Mr. Gallego. Who did you meet with there to give you an 
assessment of what was happening on the ground?
    Major DeMarco. When I first got there, I linked up with my 
Park Police liaison, who I had met the previous night.
    Mr. Gallego. Yes.
    Major DeMarco. And then was introduced to another Park 
Police officer, who then gave me the task and purpose.
    Mr. Gallego. The Park Police officers, how did they 
describe the day to you?
    In their connecting with you, did they describe how the day 
was, what was the scenario, what was the climate?
    Major DeMarco. In the situation brief that I received, it 
was much different than the day before.
    Mr. Gallego. OK, so what was that, specifically?
    Major DeMarco. I can't remember, sir.
    Mr. Gallego. OK. Can you describe it? Did they at any point 
seem to indicate that the crowd was calmer and more peaceful?
    Major DeMarco. That was the general atmosphere, yes, sir.
    Mr. Gallego. At what point were you told that you were 
going to stand in line and form, essentially, a wall, while the 
Park Police pushed on the protesters?
    Major DeMarco. That was about 5:40, 5:45 p.m.
    Mr. Gallego. So, probably like 10 minutes after you 
arrived?
    Major DeMarco. Yes, sir.
    Mr. Gallego. And the reasoning for that was?
    Major DeMarco. The stated objective was to, essentially, 
clear the area to facilitate this wall or fence to come into 
the AO.
    Mr. Gallego. But there was never anything that indicated 
that this had to happen at X amount of time, or that there was 
a sense of urgency that they would have to rush these 
protesters for that.
    Major DeMarco. So, there was, sir.
    Mr. Gallego. OK.
    Major DeMarco. When I asked----
    Mr. Gallego. Describe that.
    Major DeMarco. When I received the mission briefing, I 
specifically asked for a timeline of events.
    Mr. Gallego. Yes.
    Major DeMarco. And I said, ``When is this going to 
commence?''
    What I heard back was, ``As soon as possible,'' and then I 
also heard that they were expecting us to be there much earlier 
in the evening.
    Mr. Gallego. OK, got it. So, when the protesters actually 
started getting pushed back, your standing orders were to what?
    Major DeMarco. The D.C. National Guard's standing orders 
were to maintain a static perimeter along H Street. And then, 
once the sector was cleared, they would then reinforce and 
relieve the Park Police on the border.
    Mr. Gallego. So, essentially, what you are saying, for my 
civilian colleagues, that you were basically owning territory 
as you moved.
    Major DeMarco. Yes.
    Mr. Gallego. So, as the protest pushed out, you guys were 
put in lines, a phalanx, not a fence, but a wall, essentially, 
and occupying territory so that way no protesters can sneak 
through.
    Major DeMarco. Yes, sir.
    Mr. Gallego. Have you or has anyone in your unit--when you 
saw how they were clearing the protesters, from your 
experience, did you find it odd that that was the manner in 
which they cleared protesters?
    Because, from my experience, and the training I had, I 
never would have imagined that the way to clear--especially 
peaceful protesters--is by swinging your batons and throwing 
tear gas or chemicals into a crowd. Because that only induces 
chaos, which creates more resistance.
    Did you feel that, or did anyone in your unit think that, 
this was a very odd way to clear people?
    Major DeMarco. Based off of the application of Army 
training publications, I saw that as an ineffective way to de-
escalate the situation.
    Mr. Gallego. Right. Did you see any attempts of de-
escalation prior to them moving on the crowd and, not taking 
into consideration, obviously, the radio comms situation, which 
we heard was problematic?
    Major DeMarco. The only other attempt that would fit the 
parameters of the Army training publications would be the 
proclamation that was given.
    Mr. Gallego. Great. Thank you.
    I yield back.
    The Chairman. Mr. Cox, sir, you are recognized.
    Mr. Cox. Thank you, Chairman.
    Major DeMarco, in his answers to our questions, Acting 
Chief Monahan characterized the crowd at Lafayette Square on 
June 1 prior to 6:35 p.m. as violent. In fact, he said in his 
written testimony, ``An on-the-ground assessment of the 
violence and danger presented by the crowd led to the clearing 
of the park and the installation of the fence.''
    I would like to play some video from Lafayette Square on 
the evening of June 1 and ask you a few questions about it. 
Unlike the videos my Republican colleagues played at the last 
meeting, this video is actually from Lafayette Square on June 
1, not from some other cities or other days or other countries. 
Let's play the video.
    [Videos shown.]
    Mr. Cox. Thanks so much. Those videos show the protest 
crowd before the Park Police and the other officers attacked.
    Major DeMarco, did that video show a riot or other violent 
activity?
    Major DeMarco. No, sir.
    Mr. Cox. I would certainly agree with that. Did anything 
you see in either of those videos justify the way law 
enforcement cleared the protesters from the area?
    Major DeMarco. Not from those videos. No, sir.
    Mr. Cox. I would agree with you on that, again.
    And from what you saw, do these videos represent the 
overall demeanor of the crowd attending the protests that day?
    Major DeMarco. I can't generally characterize the crowd, 
but from what I observed, that is correct.
    Mr. Cox. Thank you so much. The fact that Mr. Monahan can't 
even acknowledge that the protest day was peaceful tells us 
something very troubling about the Administration's conduct 
that day. And it should make us all wonder whether our 
government even understands the difference between an unruly, 
violent mob, and people peacefully exercising their First 
Amendment rights.
    And even worse is the fact that we are seeing this 
Administration continue and expand this authoritarian approach 
with these crackdowns in Portland and other major cities. To 
me, this is an attack on our democracy. This is an attack on 
our Constitution.
    Now, I remember when the other side used to call themselves 
constitutionalists. We pledge fealty to the Constitution. We 
are a constitutional conservative. Where has that gone?
    In your testimony here today, I can imagine that this is 
putting you in grave, great, maybe professional personal 
jeopardy. Would that statement be true?
    Major DeMarco. Recent events certainly have me concerned, 
sir.
    Mr. Cox. And just getting back to the oath that we both 
swore to protect and defend the Constitution of the United 
States, is that not the bedrock guiding principle that defends 
our way of life?
    Major DeMarco. I would agree with you 100 percent, sir.
    Mr. Cox. And is that why you are here today?
    Major DeMarco. Absolutely, sir.
    Mr. Cox. Well, I think it is a great tribute to our late, 
great colleague, Representative John Lewis, that when you see 
something that is not right, not just, not fair, you have a 
moral obligation to say something, to do something. With your 
presence here today you are saying something and doing 
something. And on behalf of, certainly, a grateful Congressman 
here, I want to thank you for your service, and to your family 
express my sentiments. I think you are a hero.
    With that, I will yield the balance of my time.
    The Chairman. Thank you very much. Let me recognize Miss 
Gonzalez-Colon for her 5 minutes.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. I want to 
yield my time to Mr. Gohmert.
    Mr. Gohmert. And I appreciate my colleague so much, 
personally and professionally. Thank you.
    Major, there is a significant difference between Members of 
Congress taking the oath office and those of us who have taken 
a commissioned officer oath of office, because, obviously, we 
are in the military. We have superior officers, whereas in 
Congress my superiors are the 800,000 or so that I serve. And I 
can't be court martialed for disrespecting the people that I 
serve, not that I would do that.
    But I am curious. You mentioned in your written statement--
you said, ``I was tasked to serve as a liaison between the DC 
National Guard's ``Task Force Civil Disturbance'' and the Park 
Police at Lafayette Square.'' Who else was a liaison? You say 
you were one of them. You were a liaison. Who else was a 
liaison in that capacity?
    Major DeMarco. Yes, sir. We had several officers that were 
liaisons to different agencies across the National Capital 
Region. I was just the Park Police liaison for that specific 
operation.
    Mr. Gohmert. And who tasked you? Who ordered you to take 
that position?
    Major DeMarco. That was the commander of the Task Force 
Civil Disturbance.
    Mr. Gohmert. Who?
    Major DeMarco. It was the commander, sir. I would rather 
not reference his name.
    Mr. Gohmert. Oh, so we can't verify that you were tasked 
with that position, we are just forced to take your word for 
it.
    When you say commander, commander of what?
    Major DeMarco. The commander of the task force, sir.
    Mr. Gohmert. So, that is the D.C. National Guard's Task 
Force Civil Disobedience.
    Major DeMarco. Disturbance.
    Mr. Gohmert. Disturbance, OK.
    In your testimony, you stated the materials to erect the 
security barrier did not arrive--and I am quoting--``did not 
arrive on the scene until around 9 p.m.'' Chief Monahan 
testified to a much different timeline, with materials arriving 
earlier in the afternoon.
    Are you feeling strongly enough about them arriving at 9 
p.m. that you would believe Chief Monahan was lying?
    Major DeMarco. Sir, I can only speak to my account. And as 
a fact witness, the times that I have presented are accurate.
    Mr. Gohmert. So, it is not possible, according to you, that 
the materials to build the security barrier did not arrive 
earlier that afternoon?
    Major DeMarco. Sir, I can't talk about hypotheticals. I 
could only give you----
    Mr. Gohmert. It is not a hypothetical. I am asking you 
specifically, is it possible, based on your knowledge and what 
you saw and observed, that those materials could have arrived 
much earlier?
    Major DeMarco. It is certainly a possibility. However, 
based off of my statement and timeline of events as a fact 
witness, the materials did not arrive on H Street until 9 p.m. 
that evening.
    Mr. Gohmert. Well, you keep saying you are a fact witness, 
but you are also apparently being put up as a legal expert, 
because you have indicated a number of times these people were 
there to observe their First Amendment rights. And I 
understand, with your MBA, that apparently qualifies you to 
make constitutional judgments like that.
    But isn't it possible that those materials did arrive 
earlier, and were at another location at the staging area?
    Major DeMarco. It is certainly possible, sir.
    Mr. Gohmert. All right. I have nothing further. I yield 
back.
    The Chairman. The gentleman yields.
    Mr. Garcia, you recognized.
    Mr. Garcia. Thank you, Mr. Chairman.
    Major DeMarco, thank you for being here today, and for 
providing your honest testimony. Your testimony has been 
extremely enlightening, and I think that it makes it even more 
clear that what this Administration did that day was not only 
inappropriate, but also reckless, and most likely 
unconstitutional.
    One of the things that you said in your testimony was the 
Chairman of the Joint Chiefs of Staff, General Milley, 
approached you before the incident. After you briefed him, 
General Milley told you to ensure that the National Guardsmen 
remained calm, and that you all must respect the demonstrators' 
First Amendment rights.
    Before the law enforcement surge, did you see protest 
activity that crossed the line from First Amendment-protected 
activity to violence, rioting, and other behavior that we don't 
generally consider protected under the Constitution?
    Major DeMarco. Sir, based off of Army training publication 
3-39.33, specifically chapter 2-14, crowd management tactics, 
the situation there would be construed as lawfully assembled.
    Mr. Garcia. Thank you. Aside from the general's comments to 
you about the First Amendment, did the general give you any 
indication or show any concern that the protesters' rights may 
be violated?
    Major DeMarco. Negative, sir.
    Mr. Garcia. OK. What was your reaction to seeing what the 
Federal Government did to those protesters as they exercised 
their First Amendment rights?
    Major DeMarco. I was certainly surprised at the timeline of 
events, and certainly the escalation of events.
    Mr. Garcia. Very well. Black and Brown communities are 
already being ravaged by the deadly virus and an unprecedented 
economic crisis. Now they are being terrorized by a threat of a 
militarized secret and Federal police force in Washington, DC--
we have discussed it at length today--in Portland, possibly in 
Chicago. Trump's violent suppression of demonstrators in 
Lafayette Square was not only reckless, it is a direct threat 
to our democracy, and it is staring at us in the eye.
    The actions leading up to Trump's photo op have drawn 
outrage from around the world. The kind of actions we would 
normally condemn in other countries are now happening here at 
home. Demonstrations like the ones we have witnessed in the 
wake of the killings of George Floyd, Breonna Taylor, and many 
others should never be met with deadly force by law 
enforcement.
    I yield.
    The Chairman. Mr. Levin, sir, you are recognized.
    Mr. Levin. Thank you, Mr. Chairman.
    Major DeMarco, you mentioned in your statement that you 
have served in combat zones, and understand how to assess 
threat environments. With regard to Lafayette Square, you said 
that at no time did you feel threatened by the protesters, or 
assess them to be violent. Is that correct?
    Major DeMarco. Yes, sir.
    Mr. Levin. You also mentioned in your statement that it was 
your observation that the use of force against protesters in 
the clearing operation was an unnecessary escalation. Is that 
correct?
    Major DeMarco. Yes, sir.
    Mr. Levin. And you also have had extensive training in 
dealing with protests and protestors known technically as 
``civil disturbances,'' as have all the D.C. National Guard 
that were there on June 1. Is that correct?
    Major DeMarco. Yes, sir.
    Mr. Levin. Could you please explain the fundamental 
strategy of graduated responses specific to civil disturbance, 
and why that is important?
    Major DeMarco. Yes, sir. A graduated response process, as 
annotated in Army Training Publication 3-39.33, entitled 
``Civil Disturbances,'' is a measured approach to a response--
or in response to a crowd gathering. By recognizing a use-of-
force policy, soldiers must be taught and to understand that 
they use the minimum force necessary.
    Mr. Levin. Thank you. Please continue.
    Major DeMarco. It continues, sir. Without the appearance of 
a graduated response, the gathering crowd may consider actions 
as excessive, causing a possible escalation of hostilities or 
violence.
    Mr. Levin. So, what we are hearing is that the widespread 
violation of rights at Lafayette Square was acceptable, because 
there was violence happening before June 1 and in other places. 
In your training, should the events of prior days be used as a 
pretext to immediately escalate force?
    Major DeMarco. Absolutely not, sir.
    Mr. Levin. Now, let's say hypothetically that there was 
truly widespread violence. In fact, let's say this was an 
actual war zone, where violence was persistent and ubiquitous. 
But on one particular day the protests were peaceful.
    Major DeMarco, you have done tours of duty in different 
places across the globe, including Iraq. If the events on June 
1 in Lafayette Square were happening in Iraq when you were 
serving, would you have been able to handle protests the way 
the Park Police and their partners handled them on June 1?
    Major DeMarco. Negative, sir. Based off of the Chemical 
Weapons Convention of 1993, ratified by the Senate in 1997, and 
FM 6-7, that is incorrect. We would not be able to handle or 
use riot control agents in dispersing the crowds.
    Mr. Levin. And Major, could you describe in the broadest 
terms what the Geneva Convention is, who it is meant for, and 
what happens to someone that violates it?
    Major DeMarco. Sir, I am not a legal expert. I can't talk 
about what happens in violation of the Geneva Convention. But I 
can say that it specifically prohibits riot control agents from 
being used in a war zone.
    Mr. Levin. Major DeMarco, earlier this morning we heard 
from Acting Chief Monahan, who said the officers used--and I 
quote--``tremendous restraint.'' Based on your training and 
your experience, what do you think of that statement from 
Acting Chief Monahan?
    Major DeMarco. Sir, my opinion, tremendous restraint does 
not involve the use of defensive equipment as weapons.
    Mr. Levin. So, it wouldn't be tremendous restraint.
    Major DeMarco. Yes, sir.
    Mr. Levin. Thank you. I will yield back.
    The Chairman. The gentleman yields back. Mr. Soto, you are 
recognized, sir.
    [No response.]
    The Chairman. Ms. DeGette, you are recognized for 5 
minutes.
    [No response.]
    The Chairman. Mr. Beyer?
    Mr. Beyer. Yes, sir. I am here and thrilled to be included.
    The Chairman. You are recognized for 5 minutes, sir.
    Mr. Beyer. Thank you, Mr. Chairman.
    Major DeMarco, the Administration has given the operation 
to install fencing as one excuse why the protesters were 
violently cleared from Lafayette Square on June 1, but we know 
that the clearing commenced around 6:30 p.m. And you have also 
said in your testimony that the crowd did not appear to hear 
the warnings, and it was cleared well before the curfew at 7 
p.m. You also said in a written statement that the crowd was 
peaceful.
    You testified that the fencing arrived around 9 p.m. How 
did you know that?
    Major DeMarco. Sir, I had made visual observations of the 
fencing as it arrived on H Street.
    Mr. Beyer. And you were pushed back on that by some of my 
Republican friends earlier. You were at 16th and H Street, 
right? And the fence was supposed to go up along H?
    Major DeMarco. That is correct, sir.
    Mr. Beyer. And the fence was going to go from Connecticut 
Avenue along H, all the way to Vermont along H?
    Major DeMarco. Yes, sir.
    Mr. Beyer. And that is about two blocks. And isn't 16th 
Street right in the middle of those two blocks?
    Major DeMarco. Yes, sir.
    Mr. Beyer. Wouldn't it have been almost impossible not to 
see big trucks pulling up with fences at either end of those 
blocks?
    Major DeMarco. Yes, sir.
    Mr. Beyer. Well, I think your testimony on the 9 p.m. is 
very, very credible.
    Major, based on your training in civil disturbances, when 
is the best time to set up a new perimeter or install a fence?
    Major DeMarco. Sir, to set up a new perimeter or a new 
defensive or security posture would certainly be in the early 
morning hours, before the general public would be awake.
    Mr. Beyer. Why would it be unwise to set up a new 
perimeter, a new fence, in the middle of the day, when the 
number of protesters is at its peak?
    Does it present any danger to law enforcement personnel, or 
to the protesters?
    Major DeMarco. Yes, sir. I can't speak for law enforcement 
personnel. I can tell you, as a commander, or if I were the 
officer in charge, I certainly would not look for the high time 
of foot traffic to set those up.
    Mr. Beyer. Were you ever told, Major, why the fence 
operation was going to go forward during the peak time of the 
late afternoon or evening, while the protest was at its peak, 
rather than at night, or rather than the next morning?
    Major DeMarco. No, sir.
    Mr. Beyer. So, I mean, it would certainly make sense that 
it should have been set up some time later, when the crowd was 
smaller, or after the curfew.
    Major DeMarco. Yes, sir.
    Mr. Beyer. Major, you mentioned in your written testimony 
that Attorney General Barr was on the scene, talking with the 
Park Police shortly before the clearing happened. Is that 
correct?
    Major DeMarco. That is correct, sir.
    Mr. Beyer. Do you think he had something to do with the 
order to clear protesters, or do you believe that this was 
simply a remarkable coincidence?
    Major DeMarco. Sir, I can't offer my opinion. I can just 
give you the facts as I saw them.
    Mr. Beyer. Thank you. I appreciate that.
    So, we have heard a few things: installing fencing in the 
middle of a protest is not a sound practice; the fencing didn't 
even arrive until hours after the protesters were cleared; the 
crowd was peaceful, not adequately warned, dispersed suddenly, 
shortly after Attorney General Barr left Lafayette Square; and 
President Trump just happened to have a photo op shortly after 
the clearing.
    Major DeMarco, the crowd wasn't violent, the fencing didn't 
arrive until much later. What is the most logical reason you 
can think of for why the violent clearing of protesters 
happened, given your knowledge and expertise?
    Major DeMarco. Sir, I can't hypothesize or speculate onto 
the events and why they transpired along the timeline that they 
did.
    Mr. Beyer. OK, I appreciate your sticking to the facts. 
Major, my No. 1 constituent complaint is helicopter noise, 
because I represent the district that includes the Pentagon and 
much else.
    I am trying to think, in the 70 years I have lived in and 
around Washington, inaugurations, the Women's March, lots and 
lots and lots of marches and demonstrations, any other time 
unmarked, low-flying helicopters were used.
    Can you remember any other time, with the many different 
demonstrations that we have had?
    Major DeMarco. No, sir.
    Mr. Beyer. Nor can I, which I think was why it was so 
upsetting for so many people to have these things that once 
again suggested that we are in Afghanistan, rather than in 
downtown Washington, DC.
    Major, thank you very much for coming forward.
    And Mr. Chairman, I yield back.
    The Chairman. Major DeMarco, let me thank you, and I 
appreciate the information, your testimony, and the fortitude 
to come forward. Given the reputation and the actions of this 
Administration, retaliation and retribution is not beyond them. 
And we have many cases to point in that direction. So, I 
appreciate it, and all of us do.
    Let me ask you some quick questions. And there was one--
yes, Major, does running for Congress disqualify you for being 
a truthful person?
    Major DeMarco. No, sir.
    The Chairman. And I am glad you answered it that way. 
Otherwise, many of us would be in a considerable amount of 
trouble right now.
    Attorney General Barr has said that the June 1 incident was 
a result of ordinary planning to extend the perimeter line--we 
have already talked about that--around Lafayette Square, having 
absolutely nothing to do with giving the President his photo 
opportunity at the church.
    Based on what you witnessed, what you know about that day, 
your testimony, is this satisfactory? Is that explanation 
satisfactory?
    Major DeMarco. Sir, respectfully, I am not here to 
hypothesize. I am just a fact-based witness. I can't talk about 
the causation or correlation of events----
    The Chairman. One other thing I was going to ask you, 
Major, is you testified that no National Guardsman had lethal 
or non-lethal munitions that evening at Lafayette Square. Are 
you aware of any munitions being readied for use by the 
National Guard?
    Major DeMarco. On the evening of June 1, the only munitions 
that I am aware of is the transfer of weapons from Fort Belvoir 
up to the D.C. Armory. And that was my unit.
    The Chairman. OK, and what kind of----
    Major DeMarco. They were M4 carbines, sir.
    The Chairman. And that is an assault rifle?
    Major DeMarco. It is an assault rifle variation.
    The Chairman. And do you know what the reposition was in 
preparation for?
    Major DeMarco. I don't know what it was in preparation for, 
I just know that my soldiers executed that movement.
    The Chairman. OK, thank you. The issue that we are 
confronting across this country right now is the question of 
the protests across this country. And I think Lafayette was a 
precursor and a pretext to a lot of the discussion that is 
going on.
    And this hearing is not just simply about what happened in 
Lafayette Square, but also the pretext and the precedent there.
    You might not want to speculate or state the opinion on 
that, Mr. DeMarco, but I firmly believe that what happened in 
Lafayette Square was a consequence to creating a photo 
opportunity, and a campaign theme for President Trump, and that 
Attorney General Barr was making the calls all the way along 
the line. And we will continue to seek information and pursue 
that.
    But I also think that what is going on in the Nation right 
now, that there are peaceful, lawful First Amendment 
demonstrations going on. And the vast majority of people 
involved in them are people that respect that, non-violent and 
peaceful, just like John Lewis and that legacy.
    The opportunists who attempt to hijack that, either for a 
political agenda that does not fit into the Black Lives Matter 
movement or to a social justice movement, they are political 
opportunists. And the criminal opportunists, they see it as a 
chance to do other kinds of harms to property. They are going 
to take advantage of it.
    But to use a broad brush, as this Administration used 
Lafayette Square, that everybody that was in that place and 
that Square were criminals, anarchists, and bent on destruction 
of Federal assets and attacking Federal police--in this 
instance, the Park Service--I believe that is absolutely false. 
And those false generalizations that are coming by this 
Administration and this law and order that they are on, are 
just that, generalizations and, in some cases, outright lies.
    And I think we should be very concerned about the creeping 
authoritarianism that is going on that is making the question 
that we are asking here today more and more relevant, and more 
and more urgent.
    With that, the meeting is adjourned. I yield back, and 
thank you very much, Mr. DeMarco.

    [Whereupon, at 1:31 p.m., the Committee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. Huffman

  --  2015 U.S. Park Police Settlement Agreement dated May 10, 
            2015.

Submission for the Record by Rep. Levin

  --  The New York Times article titled, ``Park Police Head Had 
            Been Accused of Illegal Searches and Unreliable 
            Testimony,'' dated June 18, 2020.

Submission for the Record by Rep. DeGette

  --  USPP Use of Force General Order (No. 3615).

Submission for the Record by Rep. Bishop

  --  Letter from Reporters of the Free Press dated June 29, 
            2020.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
